<html>
<title> - HELP WANTED AT DHS: IMPLICATIONS OF LEADERSHIP VACANCIES ON THE MISSION AND MORALE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
HELP WANTED AT DHS: IMPLICATIONS OF LEADERSHIP VACANCIES ON THE MISSION 
                               AND MORALE

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2013

                               __________

                           Serial No. 113-46

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-376                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f097809fb09385838498959c80de939f9dde">[email&#160;protected]</a>  

                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Richard Hudson, North Carolina       Steven A. Horsford, Nevada
Steve Daines, Montana                Eric Swalwell, California
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                               WITNESSES
                                Panel I

Hon. Tom Ridge, Former Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10

                                Panel II

Mr. David C. Maurer, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    43
  Prepared Statement.............................................    45
Mr. Max Stier, President and CEO, Partnership for Public Service:
  Oral Statement.................................................    54
  Prepared Statement.............................................    56
Ms. Colleen M. Kelley, National President, The National Treasury 
  Employees Union:
  Oral Statement.................................................    60
  Prepared Statement.............................................    61

                                APPENDIX

Question From Honorable Jeff Duncan for Tom Ridge................    77
Questions From Honorable Jeff Duncan for David C. Maurer.........    77
Questions From Honorable Jeff Duncan for Max Stier...............    80


HELP WANTED AT DHS: IMPLICATIONS OF LEADERSHIP VACANCIES ON THE MISSION 
                               AND MORALE

                              ----------                              


                      Thursday, December 12, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:41 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Broun, Barletta, 
Brooks, Perry, Thompson, Jackson Lee, Clarke, Keating, Payne, 
O'Rourke, Gabbard, Vela, and Horsford.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. Committee is meeting today to examine the 
implications of leadership vacancies at the Department of 
Homeland Security and how those vacancies affect the mission of 
the Department's components and the morale of its employees.
    I now recognize myself for an opening statement.
    As we conclude the first session of the 113th Congress, the 
committee can look back at a year of active legislative and 
oversight activity. A portion of that oversight has focused on 
the management of DHS.
    Unfortunately, over 40 percent of the Department's senior 
leadership positions are either vacant or have an acting 
placeholder. This means nearly half of the top positions at the 
third-largest department in the United States Government are 
not filled.
    This is an issue of accountability, or put more simply: 
``Who is in charge?'' Additionally, it is my judgment that this 
sends a signal that homeland security is not a priority for 
this administration.
    As we all know, large organizations cannot be managed if 
they do not have managers. While DHS has thousands of dedicated 
career employees, it is suffering from a void of leadership 
because this administration has failed to appoint qualified 
individuals to advance DHS's many important responsibilities. 
From border security to internal investigations, top positions 
have remained vacant not for months, but years.
    As I wrote in the Wall Street Journal editorial last month, 
the vacancy problem has snowballed as the Obama administration 
has failed to fill open spots. Customs and Border Protection--
the DHS agency responsible for securing the border, regulating 
international trade and immigration--has not had a Senate-
confirmed commissioner during the entire Obama presidency, and 
now it is on their fourth acting leader in almost 5 years. Just 
this fall the Senate received the first CBP nomination in 3 
years.
    When the ICE director resigned this summer he was replaced 
temporarily by a political aide to Secretary Napolitano who has 
no law enforcement experience--a violation of the Homeland 
Security Act. He continues to lead ICE today.
    While rogue nations and terrorist groups continue to plot 
against the United States, the under secretary for Intelligence 
and Analysis position has had acting leaders for nearly a year. 
I&A, the primary conduit for information sharing with State and 
local law enforcement, needs consistent leadership, especially 
after what we learned in the aftermath of the Boston bombings 
this year.
    Only just last month the Senate received a nominee for 
inspector general, a vital watchdog position that identifies 
fraud, waste, and abuse. However, that position has been vacant 
since February 2011--almost 3 years.
    At a recent DHS event thanking an employee on their last 
day, DHS employees mused, ``Here comes the A-team--the acting 
team: Acting secretary, acting deputy secretary, and acting 
under secretary.'' Undoubtedly, these vacancies have a negative 
impact on mission effectiveness and employees' morale.
    The result of the 2013 Office of Personnel Management 
Federal Employee Viewpoint Survey ranks DHS near the bottom of 
all large agencies in employee satisfaction, and that 
satisfaction is declining at a rate greater than the rest of 
the Government. In the 2012 Partnership for Public Service 
rankings, DHS ranked 19 out of 19 large agencies--dead last--in 
effective leadership categories related to empowerment, 
fairness, and senior leaders.
    This is especially alarming as leadership vacancies 
increased in 2013 and because effective leadership is 
consistently found to be the No. 1 driver of employee 
satisfaction across the Government.
    Admittedly, DHS has struggled with low employee morale 
during its entire existence. Filling vacancies will not by 
itself make the Department more effective with happy employees. 
But having quality, stable leadership will provide the 
direction and the vision the dedicated employees at DHS 
deserve.
    Renowned business executive Jack Welch said, ``When you are 
made a leader you aren't given a crown, you are given the 
responsibility to bring out the best in others.'' People are 
the Department's greatest resource. We owe the personnel on the 
front lines of our--of protecting the homeland leadership with 
vision, experience, and commitment.
    Secretary nominee Jeh Johnson told me that working with the 
White House to fill these vacancies will be the top priority if 
confirmed. I look forward to working with the next Secretary of 
Homeland Security on this shared priority to build that vision 
and ensure the critical mission of protecting this Nation.
    After 9/11 President Bush declared: ``We are fighting a new 
kind of war against determined enemies, and public servants 
long into the future will bear the responsibility to defend 
Americans against terror.''
    Over a decade later, we now know those words remain true. 
The dedicated employees of the Department of Homeland Security 
and this committee are some of the public servants the 
President spoke about.
    DHS deserves good leaders to advance their mission. 
Anything less does homeland security a disservice and makes our 
Nation less safe.
    [The statement of Chairman McCaul follows:]

                Statement of Chairman Michael T. McCaul
                           December 12, 2013

    As we conclude the first session of the 113th Congress, the 
committee can look back at a year of active legislative and oversight 
activity. A portion of that oversight has focused on the management of 
Department of Homeland Security (DHS).
    Over 40% of the Department's senior leadership positions are either 
vacant or have an ``acting'' placeholder. This means nearly half of the 
top positions at the third-largest department in the U.S. Government 
are not filled. This is an issue of accountability, or put more simply: 
``Who is in charge?'' Additionally, in my judgment, this sends a signal 
that homeland security is not a priority for this administration.
    As we all know, large organizations cannot be managed if they do 
not have managers. While DHS has thousands of dedicated career 
employees, it is suffering from a void of leadership because this 
administration has failed to appoint qualified individuals to advance 
DHS' many important responsibilities. From border security to internal 
investigations, top positions have remained vacant not for months, but 
years.
    As I wrote in a Wall Street Journal editorial last month, the 
vacancy problem has snowballed as the Obama administration has failed 
to fill open spots. Customs and Border Protection--the DHS agency 
responsible for securing the border, regulating international trade and 
immigration--has not had a Senate-confirmed commissioner during the 
entire Obama presidency and is now on their fourth acting leader in 
almost 5 years. Just this fall the Senate received the first CBP 
nomination in 3 years.
    When the ICE director resigned this summer, he was replaced 
``temporarily'' by a political aide to Secretary Napolitano who has no 
law enforcement experience--a violation of the Homeland Security Act. 
He continues to lead ICE today.
    While rogue nations and terrorist groups continue to plot against 
the United States, the under secretary for Intelligence and Analysis 
(I&A) position has had acting leaders for nearly a year. I&A, the 
primary conduit for information sharing with State and local law 
enforcement, needs consistent leadership especially after what we have 
learned in the aftermath of the Boston bombings this year.
    Only just last month, the Senate received a nominee for inspector 
general, a vital watchdog position that identifies fraud, waste, and 
abuse. However, that position has been vacant since February 2011--
almost 3 years.
    At a recent DHS event thanking an employee on their last day, DHS 
employees mused ``Here comes the A-team: Acting Secretary, acting 
deputy secretary, and acting under secretary.'' Undoubtedly these 
vacancies have a negative impact on mission effectiveness and employee 
morale.
    The result of the 2013 Office of Personnel Management Federal 
Employee Viewpoint Survey ranks DHS near the bottom of all large 
agencies in employee satisfaction and that satisfaction is declining at 
rate greater than the rest of Government. In the 2012 Partnership for 
Public Service rankings, DHS ranked 19 out of 19 large agencies--dead 
last--in effective leadership categories related to empowerment, 
fairness, and senior leaders. This is especially alarming as leadership 
vacancies increased in 2013 and because effective leadership is 
consistently found to be the No. 1 driver of employee satisfaction 
across the Government. Admittedly, DHS has struggled with low employee 
morale during its entire existence. Filling vacancies will not by 
itself make the Department more effective with happy employees. But 
having quality, stable leadership will provide the direction and vision 
the dedicated employees at DHS deserve.
    Renowned business executive Jack Welch said, ``When you were made a 
leader you weren't given a crown, you were given the responsibility to 
bring out the best in others.''
    People are the Department's greatest resource. We owe the personnel 
on the front lines of protecting the homeland leadership with vision, 
experience, and commitment. Secretary nominee Jeh Johnson has told me 
that working with the White House to fill these vacancies will be a top 
priority if confirmed. I look forward to working with the next 
Secretary of Homeland Security on this shared priority to build that 
vision and ensure the critical mission of protecting this Nation.
    After 9/11 President Bush declared: ``We're fighting a new kind of 
war against determined enemies. And public servants long into the 
future will bear the responsibility to defend Americans against 
terror.''
    Over a decade later, we now know those words remain true. The 
dedicated employees of the Department of Homeland Security and this 
committee are some of the ``public servants'' the President spoke 
about. DHS deserves good leaders to advance their mission. Anything 
less does homeland security a disservice and makes our Nation less 
safe.

    Chairman McCaul. With that, the Chairman now recognizes the 
Ranking Minority Member, the gentleman from Mississippi, Mr. 
Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Thank you for 
holding today's hearing.
    I also want to thank the witnesses for appearing here 
today. I look forward to the testimony.
    I asked former Secretary Ridge, ``How is life on the other 
side?'' and he said, ``Just fine.'' So I am looking forward to 
hearing about it.
    The Department of Homeland Security employs almost 240,000 
employees located in every State of the Union and over 75 
foreign countries. DHS employees are on the front lines each 
day. They secure our land, air, and maritime borders; enforce 
our immigration laws; safeguard critical infrastructure and 
cyberspace; and respond to natural disasters.
    I understand that today's hearing is to consider whether 
vacancies in senior-level positions at the Department affect 
the morale and effectiveness of the Department's mission. 
Before I continue, allow me to provide some context for the 
hearing.
    The Majority says that 40 percent of the leadership 
positions at DHS are vacant. According to statute, there are 28 
positions within the Department that require Presidential 
appointment and Senate confirmation.
    Of those 28 positions, about 15 are filled with an official 
who is serving in an acting capacity; only one position is 
listed as vacant. So as it turns out, that 40 percent 
represents very small numbers of people.
    It is difficult to understand how the morale of almost 
240,000 people would be adversely affected by whether 15 people 
at headquarters have the word ``acting'' listed in their 
titles. Those officials who are listed as ``acting'' are still 
empowered and expected to do their jobs, implement orders, and 
carry out the normal functions of the position.
    As we consider the morale and mission effectiveness of 
these nearly 240,000 employees, we should consider the factors 
that have a real and direct effect on their day-to-day lives 
and therefore may affect morale and mission.
    Furthermore, as we consider the morale of the Department's 
employees, we need to acknowledge that in every survey on 
workplace satisfaction conducted by every organization inside 
or outside of the Government, the Department has always ranked 
at or near the bottom. The Department has been at or near last 
place since the day it was established.
    It was at or near last place in employee morale under 
Secretaries Ridge, Chertoff, and Napolitano. Consistent 
dysfunction is an indication of a structural issue, not an 
indication of a momentary problem.
    Fortunately, this committee has a long history of oversight 
and management and administration of the Department. Our 
oversight has shown that DHS suffers from a disjointed 
organizational structure and that employee morale is adversely 
affected by the uncertainty that comes from that disjointed 
structure.
    The Department's organizational structure leaves the 
officials at headquarters with little authority and leaves the 
employees in the field with little hope. Headquarters officials 
may issue management directives, but they do not have a 
mechanism to enforce those directives. Meanwhile, the employees 
have few places to turn.
    Mr. Chairman, if we want to positively affect the morale 
and mission effectiveness of the employees at the Department, 
we should pay less attention to the acting status of particular 
officials and more attention to the power of the officials to 
act. The organizational structure of this Department, which 
only can change, prevents headquarter officials from requiring 
uniformity, transparency, and accountability in procurement, 
personnel practices, and disciplinary processes used in the 
components.
    If we want to assure that morale and mission effectiveness 
improve, we should use our legislative authority to act by 
assuring uniformity in the rules, standards, and practices used 
by the Department. These rules, standards, and practices 
directly affect the everyday lives of nearly 240,000 people.
    To that end, I would suggest that the Chairman press his 
leadership to assure floor action on the Homeland Security 
Authorization Act that this committee ordered reported in 
October. This measure has yet to be considered by the House.
    It contains a Democratic-sponsored provision that would 
strengthen the authority of those officials in headquarters to 
require uniformity, transparency, and accountability in 
employment practices. This would be the kind of change that 
would help the morale of these employees.
    I have a great respect for the employees of the Department. 
Day after day they go to work, fulfill their mission, and 
protect this Nation. They knowingly walk into a workplace where 
few people are happy.
    Yet, the Office of Personnel Management found that over 87 
percent of these employees believe that the work they do is 
important. These employees should be able to look to Congress 
for solutions and support.
    Finally, Mr. Chairman, I wrote you requesting that we have 
a representative from the Department to discuss their efforts 
to improve workplace morale. Your response indicated that a 
witness from DHS would not be necessary because there is little 
connection to DHS as a source of the leadership vacancy 
problem.
    I agree that the source of the vacancy problem at DHS is 
not within the Department. All indications are that the source 
of the vacancy problem at DHS and other Federal departments is 
the Republican Minority in the Senate who have used their 
Constitutional duty to advice and consent as an excuse to 
obstruct and deny. Clearly, with the removal of the filibuster 
weapon for certain appointments, we are finally seeing movement 
on the President's nomination.
    I hope you join me in looking forward to the approval of 
Mr. Johnson to lead the Department of Homeland Security. You 
have already indicated in your opening statement that Mr. 
Johnson has assured you that.
    When Mr. Johnson becomes Secretary Johnson, I hope this 
committee will work with him to resolve the employee morale and 
vacancy issue at the Department. In the mean time, this House 
should use its power to give the Department the necessary 
resources and legislative authority to achieve the goal of 
improving employee morale at DHS.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Thompson follows:]

             Statement of Ranking Member Bennie G. Thompson
                           December 12, 2013

    The Department of Homeland Security employs almost 240,000 
employees. Located in every State of the union and over 75 foreign 
countries, DHS employees are on the front lines each day. They secure 
our land, air, and maritime borders; enforce our immigration laws; 
safeguard critical infrastructure and cyberspace; and respond to 
natural disasters.
    I understand that today's hearing is to consider whether vacancies 
in senior-level positions at the Department affect the morale and 
effectiveness of the Department's mission. Before I continue, allow me 
to provide some context for the hearing. The majority says that 40 
percent of the leadership positions at DHS are vacant.
    According to statute, there are 28 positions within the Department 
that require Presidential appointment and Senate confirmation. Of those 
28 positions about 15 are filled with an official who is serving in an 
acting capacity. Only one position is listed as vacant. So, as it turns 
out, that 40 percent represents a very small number of people.
    It is difficult to understand how the morale of almost 240,000 
people would be adversely affected by whether 15 people at headquarters 
have the word ``acting'' listed in their titles. Those officials who 
are listed as acting are still empowered and expected to do their jobs, 
implement orders, and carry out the normal functions of the position. 
As we consider the morale and mission effectiveness of these nearly 
240,000 employees, we should consider the factors that have a real and 
direct effect on their day-to-day lives and, therefore, may affect 
morale and mission.
    Further, as we consider the morale of the Department's employees, 
we need to acknowledge that in every survey on workplace satisfaction, 
conducted by every organization, inside or outside of the Government, 
the Department has always ranked at or near the bottom.
    The Department has been at or near last place since the day it was 
established. It was at or near last place in employee morale under 
Secretaries Ridge, Chertoff, and Napolitano. Consistent dysfunction is 
an indication of a structural issue--not an indication of a momentary 
problem.
    Fortunately, this committee has a long history of oversight of the 
management and administration of the Department. Our oversight has 
shown that the DHS suffers from a disjointed organizational structure 
and that employee morale is adversely affected by the uncertainty that 
comes from that disjointed structure. The Department's organizational 
structure leaves the officials at headquarters with little authority 
and leaves the employees in the field with little hope. Headquarters 
officials may issue management directives, but they do not have a 
mechanism to enforce those directives; meanwhile, the employees have 
few places to turn.
    Mr. Chairman, if we want to positively affect the morale and 
mission effectiveness of the employees at the Department, we should pay 
less attention to the acting status of particular officials and more 
attention to the power of officials to act. The organizational 
structure of this Department--which only we can change--prevents 
headquarters officials from requiring uniformity, transparency, and 
accountability in procurement, personnel practices, and disciplinary 
processes used in the components.
    If we want to assure that moral and mission effectiveness improve, 
we should use our legislative authority to act by assuring uniformity 
in the rules, standards, and practices used by the Department. These 
rules, standards, and practices directly affect the everyday lives of 
nearly 240,000 people. To that end, I would suggest that the Chairman 
press his leadership to assure Floor action on the Homeland Security 
Authorization Act that this committee ordered reported in October. This 
measure has yet to be considered by the House. It contains a 
Democratic-sponsored provision that would strengthen the authority of 
those officials in headquarters to require uniformity, transparency, 
and accountability in employment practices.
    This would be the kind of change that would help the morale of 
these employees. I have a great respect for the employees of the 
Department. Day after day, they go to work, fulfill their mission, and 
protect this Nation. They knowingly walk into a workplace where few 
people are happy. Yet, the Office of Personnel Management found that 
over 87% of these employees believe that the work they do is important.
    These employees should be able to look to Congress for solutions 
and support. Finally, Mr. Chairman, I wrote to you requesting that we 
have a representative from the Department to discuss their efforts to 
improve workplace morale. Your response indicated that a witness from 
DHS would not be necessary because ``there is little connection to DHS 
as the source of the leadership vacancy problem.''
    I agree that the source of the vacancy problem at DHS is not within 
the Department. All indications are that the source of the vacancy 
problem at DHS and other Federal departments is the Republican Minority 
in the Senate who have used the Constitutional duty to advice and 
consent as an excuse to obstruct and deny.
    Clearly, with the removal of the filibuster weapon for certain 
appointments, we are finally seeing movement on the President's 
nominations. I hope you join me in looking forward to the approval of 
Mr. Johnson to head the Department of Homeland Security. When Mr. 
Johnson becomes Secretary Johnson, I hope this committee will work with 
him to resolve the employee morale and vacancy issue at the Department. 
In the mean time, this House should use its power to give the 
Department the necessary resources and legislative authority to achieve 
the goal of improving employee morale at DHS.

    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded they may submit opening 
statements for the record.
    With respect to the nominee, I had a very--as you have--a 
very good phone conversation with him. I look forward to 
meeting him in person. We discussed this very issue of 
vacancies and I know he is personally committed to 
accomplishing that goal.
    We are extremely pleased--very pleased to have a man who is 
very well-respected on both sides of the aisle. The Honorable 
Tom Ridge became the first assistant to the President for 
homeland security following the tragic events of September 11, 
2001. On January 24, 2003 he became the first Secretary of the 
Department of Homeland Security.
    Prior to serving as Secretary, Secretary Ridge served two 
terms as Governor of the State of Pennsylvania and five terms 
in the House of Representatives, representing the 21st 
district, and was an infantry staff sergeant in the Army during 
the Vietnam War.
    We thank you so much for your service on all of those 
levels.
    He is currently the president and CEO of Ridge Global.
    I want to thank you for agreeing to appear here today, 
Secretary Ridge. Your full written statement will be included 
in the record, and you are now recognized for your opening 
statement.

STATEMENT OF HON. TOM RIDGE, FORMER SECRETARY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Ridge. Thank you, Chairman McCaul, Ranking Member 
Thompson, and Members of the committee. I just want to express 
my personal appreciation for the opportunity to appear before 
you today as someone who was witness to the birth of this 
agency.
    I am grateful for the opportunity to continue to work with 
you and your colleagues in this chamber and the other side of 
the--with the Senate to help us mature this organization and 
develop it into the robust, focused, committed organization 
that we all understand that it needs to be. So thank you for 
the opportunity to appear before you.
    As the first Secretary, seeing DHS and its people succeed 
is certainly of great personal interest to me. But of greater 
importance is seeing DHS succeed on behalf of our Nation and 
its citizens.
    I appreciate the opportunity to appear before you today to 
share my thoughts about what I believe to be a serious threat 
to the effectiveness of the Department of Homeland Security. In 
my judgment, that threat is the unacceptable--unacceptable 
number of senior-level vacancies that have existed in the 
Department's leadership structure for an extended period of 
time.
    I was asked on September 11 of this year to testify before 
the Senate and to comment on challenges that remain for the 
Department 10 years after its founding. Frankly, at that time 
the issue of senior-level vacancies was one of the major 
concerns that I and others expressed that day to your 
colleagues in the other body. Three months later, the concerns 
remain the same.
    Today our Nation finds itself in a threat environment that, 
frankly, I think is even more complex than it was on September 
11, 2001. Tensions continue to be exacerbated in the Middle 
East. Al-Qaeda is resurging around the world. Other terrorist 
groups have expanded their organizations.
    We are faced with both physical and ever-expanding 
cybersecurity threats. Congress is poised to resume that very 
important and critical debate over border security as it 
considers immigration reform.
    In this tempest, DHS has, in recent months, had no 
permanent Secretary and no confirmed deputy secretary. We have 
seen extended vacancies for general counsel, commissioner of 
Customs and Border Protection, director of Immigration and 
Customs Enforcement, and under secretary for Intelligence and 
Analysis, just to name a few. A simple review of the leadership 
link to the DHS website shows, in my judgment, a disconcerting 
number of senior and critical posts designated as either acting 
or vacant.
    While several key nominations were recently made, to 
include Mr. Jeh Johnson to become Secretary, some of these 
positions have had no nominees for months. This summer, as many 
as 15 senior DHS leadership positions were vacant--by the way, 
simultaneously. If I understand correctly, there has been no 
confirmed inspector general for nearly 2 years.
    The Department should never be--never be--in such a 
position as it begs the question: ``Just who is minding the 
store?''
    The administration and Congress do not need a commission or 
super committee to solve this problem. The solutions are rather 
straightforward, but they do require leadership.
    At the direction of the President--that is, at the 
direction of the Office of Presidential Personnel must better 
anticipate vacancies and make filling critical homeland 
security and National security positions a priority. Quality 
candidates must be vetted in a thorough but timely manner.
    The failure to do so sends, in my judgment, a very 
troubling signal about the administration's level of commitment 
to the mission of the Department. I am afraid that recent 
history does not speak well of the current administration and 
its commitment to the Department, its employees, and over 300 
million citizens they serve.
    Once the nominations are made by the President, the United 
States Senate should likewise act in a timely manner to 
consider nominees and to schedule a vote in the exercise of its 
Constitutional advice and consent responsibilities.
    Senators have every right to ask tough questions with 
regard to these nominees, but my judgment is, ask the tough 
questions, let each Senator follow his or her conscience, and 
vote. The confirmation process for homeland and National 
security positions should not be utilized for political 
gamesmanship.
    In standing up DHS in 2003 we were working to create a 
unique and unified Department culture out of over 20 agencies.
    Ranking Member Thompson, I remember we started with 180,000 
employees. You talk about 240,000. Well, it was a daunting 
challenge then, and I suspect with the addition of 60,000 more 
people it is even more daunting.
    This has remained a challenge, as both of you pointed out, 
in the Department's first decade. While Acting Secretary Rand 
Beers--and his head must be spinning because I think he has 
been acting in three or four different positions, and I know 
him well and he brings a tremendous amount of energy to every 
one of them, but I don't know how you go from acting to acting 
to acting--and other acting executives have worked diligently 
in recent months, you simply cannot build nor can you sustain a 
mission-focused culture with a high number of vacancies and 
leaders in non-permanent status.
    At the end of the day, no organization can function 
effectively without trusted, respected, and consistent 
leadership. Without it, an organization, as my friend Senator 
Carper has said, is rudderless.
    The employees of DHS are on the front lines protecting our 
homeland every day. They are accountable. They deserve to have 
those at the top of their chain of command in place and 
providing accountable leadership, as well.
    In the early days of the Department, I was fortunate to--
senior leadership team--a great senior leadership team that was 
mission-focused. By no means were we perfect, but we had a 
sense of mission; we had a sense of urgency. Today, that sense 
of urgency seems to be missing, and it--I believe it undermines 
mission and certainly morale.
    Mr. Chairman, if you would indulge me just 1 more minute, I 
would like to address briefly one more issue impacting DHS 
morale. That is that Congress has not reorganized itself for 
homeland security oversight.
    When I testified before the 9/11 Commission as Secretary in 
2004, the commissioners were concerned that our DHS leadership 
team reported to approximately 88 combined Senate and House 
Homeland Security oversight committees. I think the number is 
now up in excess of 100.
    Today, as we approach the 10th anniversary of the 9/11 
Commission's report, I think the number is up to 108. The 
Department of Defense, with a far larger budget and more 
personnel, reports to less than 40.
    The endless barrage of Hill inquiries and preparation for 
testimony drains from the Department leadership, whether they 
are permanent or acting, one of its most important resources: 
Time. It is certainly a morale issue for those whose primary 
mission is not to bounce from committee hearing to committee 
hearing, but to lead their agencies, their bureaus, and their 
programs.
    The current number of Congressional committees with 
Homeland Security jurisdiction is not oversight, it is 
overkill.
    While DHS has a leading role, homeland security is a 
National mission, and all the players must regularly and 
honestly evaluate their own rules and responsibility. I say 
with great respect to the institution within which I was very 
proud to serve for 12 years, the same standard applies to the 
Congress as well.
    To take a hard look at what works and what doesn't work is 
not to challenge anyone's leadership. It is to demonstrate 
leadership, and leadership is something sorely needed at DHS 
and across the maturing Homeland Security enterprise.
    Mr. Chairman, I thank you.
    Ranking Member, I thank you.
    I am happy to answer any questions you and your colleagues 
may have.
    [The prepared statement of Hon. Ridge follows:]

               Prepared Statement of Honorable Tom Ridge
                           December 12, 2013

    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: I am Tom Ridge, current CEO of Ridge Global. I was 
privileged to serve as the first Secretary of the U.S. Department of 
Homeland Security from 2003-2005. I am pleased to see many friends from 
both sides of the aisle with whom I have worked closely over the years.
    As the first Secretary, seeing DHS and its people succeed is 
certainly of great personal interest to me. But of utmost importance, 
is seeing DHS succeed on behalf of our Nation and its citizens. I 
appreciate the opportunity to appear before you today to share my 
thoughts about what I believe to be a serious threat to the 
effectiveness of the Department of Homeland Security. That threat is 
the unacceptable number of senior-level vacancies that have existed in 
the Department's leadership structure for an extended period of time.
    I was asked on September 11 of this year to testify before the 
Senate Homeland Security and Governmental Affairs Committee and to 
comment on challenges that remain for the Department of Homeland 
Security 10 years after its founding. The issue of senior-level 
vacancies was one of the major concerns that I and others expressed 
that day to your colleagues in the other body. Three months later, the 
concerns remain.
    Today our Nation finds itself in a threat environment that has 
never been more complex. Tensions are high in the Middle East. Al-Qaeda 
is resurging around the world. Other terrorist groups have expanded 
their organizations. We are faced with both physical and ever-expanding 
cybersecurity threats. Congress is poised to resume the critical debate 
over border security as it considers immigration reform.
    In this tempest, DHS has, in recent months, had no permanent 
Secretary and no confirmed deputy secretary. We have seen extended 
vacancies for general counsel, commissioner of Customs and Border 
Protection (CBP), director of Immigration and Customs Enforcement 
(ICE), and under secretary for Intelligence and Analysis, to name a 
few. A simple review of the leadership link to the DHS website shows a 
disconcerting number of senior and critical posts designated as 
``acting'' or ``vacant.''
    While several key nominations were recently made, to include that 
of Mr. Jeh Johnson to become Secretary, some of these positions had no 
nominees for months. This summer, as many as 15 senior DHS leadership 
positions were vacant simultaneously. If I understand correctly, there 
has been no confirmed inspector general for more than 2 years. The 
Department should never be in such a position as it begs the question, 
``Just who is minding the store?''
    The administration and Congress do not need a commission or super 
committee to solve this problem. The solutions are rather straight-
forward, but do require leadership:

    1. At the direction of the President, the Office of Presidential 
        Personnel must better anticipate vacancies and make filling 
        critical Homeland Security and National security positions a 
        priority. Quality candidates must be vetted in a thorough, but 
        timely manner. The failure to do so sends a troubling signal 
        about the administration's level of commitment to the mission. 
        I am afraid that recent history does not speak well of the 
        current administration and its commitment to the Department, 
        its employees, and the citizens they serve.

    2. Once nominations are made by the President, the United States 
        Senate should, likewise, act in a timely manner to consider 
        nominees and to schedule a vote in the exercise of its 
        Constitutional advice and consent responsibilities. Senators 
        have every right to ask tough questions in regard to nominees. 
        But ask the tough questions, let each Senator follow her or his 
        conscience, and vote. The confirmation process for Homeland and 
        National Security positions should not be utilized for 
        political gamesmanship.

    In standing up DHS in 2003, we were working to create a unique and 
unified Department culture out of 22 agencies and more than 180,000 
employees--a daunting challenge. This has remained a challenge in the 
Department's first decade. While Acting Secretary Beers and other 
acting executives have worked diligently in recent months, you simply 
cannot build nor can you sustain a mission-focused culture with a high 
number of vacancies and leaders in non-permanent status.
    At the end of the day, no organization can function effectively 
without trusted, respected, and consistent leadership. Without it, an 
organization, as my friend Senator Carper has said, is ``rudderless.'' 
The employees of DHS--such as Border Patrol and ICE agents, CBP 
officers and TSA personnel--are on the front lines protecting our 
homeland every day. They are accountable. They deserve to have those at 
the top of their chain of command in place and providing accountable 
leadership.
    In the early days of the Department, I was fortunate to have a 
senior leadership team that was mission-focused. We were not perfect, 
but we had a sense of mission. We had a sense of urgency. Today, that 
sense of urgency seems to be missing and it undermines mission and 
morale.
    Mr. Chairman, with my remaining time, I would like to briefly 
address one more issue impacting DHS morale. That is the Congress has 
not reorganized itself for Homeland Security oversight. When I 
testified before the 9/11 Commission as Secretary in 2004, the 
Commissioners were concerned that our DHS leadership team reported to 
approximately 88 combined Senate and House Homeland Security oversight 
committees. The Commission expressed this concern in their final 
report, including recommendations to adjust Congressional committee 
oversight.
    Today, as we approach the 10th anniversary of the 9/11 Commission 
report, DHS reports to more than 100 Congressional committees. The 
Department of Defense, with a far larger budget and more personnel, 
reports to less than 40 committees.
    The endless barrage of Hill inquiries and preparation for testimony 
drains from the Department's leadership (permanent or acting) one of 
its most important resources: Time. It is certainly a morale issue for 
those whose primary mission is, not to bounce from committee hearing to 
committee hearing, but, to lead their agencies, bureaus, and programs.
    Let me be clear. Oversight is the duty of Congress. It is your 
responsibility and it is absolutely necessary. But the current number 
of Congressional committees with homeland security jurisdiction is not 
oversight, it is overkill.
    While DHS has a leading role, homeland security is a National 
mission. All of the players--Federal, State, and local agency 
stakeholders and private-sector partners--must regularly and honestly 
evaluate their own roles and responsibilities. This must apply to the 
Congress as well. To take a hard look at what works and what does not 
work is not to challenge anyone's leadership. It is to demonstrate 
leadership. Leadership is something sorely needed at DHS and across the 
maturing Homeland Security enterprise.
    Thank you, Mr. Chairman. I am happy to answer any questions you and 
your colleagues may have.

    Chairman McCaul. I thank the Secretary for your excellent 
testimony.
    I recognize myself for questions.
    Let me associate myself with your remarks with respect to 
jurisdiction. I have talked to yourself and many of those who 
were involved when this committee was first formed and it was a 
bit of a--sort of a compromise between Chairmen. It has never 
truly been rectified today and I believe that we need to do so.
    I know the Ranking Member agrees with me on this. We are 
planning to have a hearing on jurisdiction in the beginning of 
next year.
    I hope you can join us again to talk about that very 
important issue and talk to our both respective leadership 
about how important that issue is, because it does waste time. 
The Secretary needs to be involved with protecting the American 
people, not constantly testifying before all these different 
committees--as you said, over 100 now committees of 
jurisdiction when you add up the subcommittees.
    I am committed to fixing this problem. I think some are 
surprised that, you know, this many years after 9/11 that it 
has not been fixed. I think if we can make the National 
security argument, I think we will ultimately prevail to 
finally fix this problem once and for all.
    After all, House Armed Services has jurisdiction over the 
Department of Defense. Judiciary has, you know, jurisdiction 
over the Justice Department. This committee has to share 
jurisdiction over Homeland Security with over 100 different 
other committees.
    Absolutely, it is bad policy and it is not good for the 
American people.
    With that, I do want to walk back, you know, it is about 
leadership, and you talked about a sense of urgency back after 
9/11 and, you know, I can't imagine a CEO of a corporation 
having 40 percent of his top positions vacant and being able to 
implement the mission and execute the mission. I think that is 
the issue with the Department of Homeland Security today.
    I remember when this--right after 9/11--and I got elected 
to Congress, I got appointed to this committee when it became a 
permanent committee--it was a select--and it was a bit of a 
compromise at that time, but, you know, we had a strong leader 
at the top at DHS, and I have to say, someone who commanded 
respect, authority, someone who has served in the Army, 
somebody who has served as a colleague in the House, somebody 
who had the President's confidence and the American people's 
confidence. I think restoring that stature to this Department 
is so important.
    What I am concerned about, I have no desire to dismantle 
this Department. My desire is to fix it the best that I can, 
because I do believe in its mission. It would be far more 
dysfunctional to dismantle it.
    But there, to this day, are many problems. I served in the 
Justice Department, and there is a pride of, sort-of, 
fellowship, brotherhood that you were a Federal prosecutor, you 
know? The military has that sense of pride. FBI has that sense 
of pride.
    When you look at the Department of Homeland Security, 
sometimes you see that lack of morale but that morale comes 
from the top. That is why I think we need top leadership that 
has respect from the employees, you know, that serve the 
American people.
    We have a No. 2 deputy nominee who is under investigation 
by an acting inspector general who is also under investigation; 
it hardly instills confidence not only with me, with this 
committee, but I think with the American people. It is all 
about leadership at the top and making this a priority.
    So I will stop, you know, with my speech, but I feel very 
strongly about this. It can be fixed if we got the right people 
at the top to lead, because I remember when you were appointed 
and how--the commanding respect that you had. That permeates 
all the way down to the Border Patrol agent sitting there on 
the border at night time; you know, to the ICE agent that is 
every day trying to, you know, deal with, you know, bad guys; 
and to Secret Service and the Coast Guard and all the relevant 
agencies.
    It does matter who is at the top and it does matter who is 
at the top leadership because that restores respect to the 
agency, which I am very concerned there is not that respect 
anymore that I saw within the Department when it was first 
created as a bold experiment under your leadership. With that, 
just let me just--I want to get your thoughts on what you think 
needs to be done to fix this department.
    Mr. Ridge. Well, first of all, I want to thank you for your 
kind words about my leadership team. I really think that you 
and Ranking Member Thompson have identified one of the real 
challenges. It is a team effort.
    I had a wonderful conversation face-to-face with the 
President's designated--the nominee, Attorney Jeh Johnson. I 
told him that I think there are probably only three people in 
the entire universe that know how difficult his task will truly 
be, and that is the three previous Secretaries of Homeland 
Security. I pledged my personal effort to support him whatever 
way I can.
    But the first thing we discussed, Mr. Chairman, was the 
priority of filling the vacancies and making acting--filling 
the vacancies and then doing whatever he can to make the acting 
appointees permanent.
    If you took a look at DHS and you thought about it as a--
perhaps as a holding company, like a big corporation, and you 
have got different units of Government--you have got Customs 
and Border Protection; you have got ICE; you have got the Coast 
Guard--every one requires a permanent leader. That permanency, 
I think, cannot be overestimated, because I just can't imagine 
someone in an acting capacity getting the kind of respect and 
commitment that someone who is there permanently would get from 
the rank-and-file.
    It would be cautious in terms of initiatives, cautious in 
terms of their interaction. Quite frankly, if you are acting, 
you don't know how long you are going to be there and your 
troops don't know how long you are going to be there. So in 
addition to filling the vacancies, I think it is very important 
for the acting individuals to be designated as permanent.
    I said to Mr. Johnson, I believe he has a close personal 
relationship with the President, ``That is leverage. Use it. 
Get the Office of Personnel and Management moving.''
    I remember when we were dealing with the White House, 
obviously we were building that infrastructure, but we had a 
lot of cooperation and a lot of direction from the White House. 
Let's fill these vacancies, let's get these potential 
candidates before the Secretary and the team and build the 
team. We have got almost half the team missing, and it is tough 
to lead the troops when you look behind you, you don't have any 
leadership team that will follow your direction.
    So I think Mr. Johnson, given the wealth of experience he 
has had at DOD--it is an interesting perspective that he has, 
but as good as he may prove to be--and I have every confidence 
he will prove to be a very effective leaders--he still needs a 
leadership team around him to convey the message, to inculcate 
the vision, and to build on the rather complex relationships 
that you have within the Department, not just with--at the 
Federal level, but down at the State and local level, the 
private sector, and everyplace else.
    So we really need to fill these spots.
    Chairman McCaul. I thank you for that response, and I look 
forward to working with the nominee. I do agree with you. I 
think his relationship with the President, because that gives 
you more authority and it makes it more of a priority mission 
if you have the President's ear, and you certainly did when you 
were Secretary.
    Mr. Ridge. That is correct.
    Chairman McCaul. With that, I now recognize the Ranking 
Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Thank you, Secretary Ridge, for your testimony.
    I think every Secretary we have had has suffered vacancies, 
acting positions. You were no different. I think a lot of the 
positions we have vacant now you actually had vacant at some 
point or another during your administration.
    This notion of leadership at the top I think is important 
only because vacancies occur, but if you have the structure in 
place the policies and procedures speak for themselves, whether 
you are acting or whatever.
    This whole notion of surveys and the morale for the 
Department--you were Secretary. Department was rated low. You 
had vacancies; you filled them. Yet, the Department was still 
rated at the bottom.
    Now that you have had an opportunity in the afterlife, what 
would you have done, knowing what you know now, that could have 
improved employee morale at the Department?
    Mr. Ridge. Well, first of all, regardless of what the 
survey that you referred to may reflect, I never sensed 
anything other that a certain level of pride and commitment 
right after 9/11 among the men and women in Homeland Security. 
For the first time these men and women, whose positions by and 
large had been, I think, frankly, taken for granted by the 
general public, finally after that tragedy they had a sense of 
an appreciation for what they did, and I think they did it 
extremely well.
    So whether or not the surveys said--that is--I guess that 
is open to discussion, but at the end of the day I would tell 
you, Congressman Thompson, while we did have vacancies--and 
they normally occur in any agency--we never had this level of 
vacancies; we never had this number of acting members. Quite 
frankly, the hiatus between when we would--one senior leader 
would leave and a new one would be appointed was far shorter 
than what this Department and Secretary Napolitano experienced 
under her leadership.
    I frankly think it is a reflection of--it reflects poorly 
on the men and women who serve. I probably respectfully 
disagree with you with regard to what is important for morale. 
There is a sense of mission that these men and women have in 
their DNA, so it is not the sense of mission that has eroded, 
but if they take a look around at their leadership structure 
and find vacancies that have lasted if not months, for years, 
and acting members if not months for years, it kind of reflects 
on--I think that impacts morale more severely than you think.
    How unimportant are we that we could have so many vacancies 
and so many acting members for so long? There is a subtle 
signal there that I think is corrosive.
    Mr. Thompson. Well, my point in my comments would say that 
same morale existed when you were Secretary, and prior to that. 
I understand that. The record reflects right now that prior to 
still that.
    Mr. Ridge. Yes.
    Mr. Thompson. But now that you are outside reflecting back, 
what would you have done as Secretary to have improved the 
employee morale at the Department?
    Mr. Ridge. Well, there are certain things outside my 
jurisdiction that I could not have done, and one of the other 
things that I wish we could have done early on was to have, 
frankly, better and more refined and specific leadership 
oversight responsibility with the House and the Senate. You 
know, morale is like beauty, because it is tough to define, and 
you can have all the surveys that you want.
    I am just speaking from my own personal experience not only 
as Secretary of Homeland Security, but as Governor, where we 
oversaw a rather large organization, and even as Congressman. 
You know, I think any organization that--where the rank-and-
file are asked day in and day out to do very difficult tasks, 
and when they look up at the chain of command and they either 
see a vacancy there or somebody who is there in a less-than-
permanent status, I do think it has a negative impact not so 
much on the morale, but on the energy and the focus of that 
group.
    I just think that it is--in this day and age, in a world 
today that I think is more threatening than it was 10 years 
ago, for these vacancies to occur so long is just a 
reflection--it reflects poorly on what people think of the--
their mission and the job--and I think they have done a great 
job in the past--and the job we have asked them to do. There 
can be no reason in this day and age, now that you have got--
they have made some changes over in the Senate, by the way, to 
have any more vacancies. They need to be filled immediately.
    Mr. Thompson. Well, and I agree with one of the things I 
said in my opening statement. Now that we have changed some of 
the rules for appointments we might get----
    Mr. Ridge. Yes.
    Mr. Thompson [continuing]. Some things moved along, and I 
am convinced that that will happen.
    But I was really trying to get after whether or not there 
was anything----
    Mr. Ridge. No.
    Mr. Thompson [continuing]. At the Department----
    Mr. Ridge. I guess the answer is--the answer to that 
question is, as I look back with great pride on our leadership 
team--and I--listen, we used to get together a couple times a 
week, and one of these days you are going to cobble--you will 
have one place for all these leaders to congregate, rather than 
scattered all over Washington, DC, so I hope one of these days 
you give the money to build out Elizabeths, but I can take a 
look and I can close my eyes today and see the acting leaders 
of all these--no, the permanent leaders of all these units 
sitting down.
    It is a lot different than having a couple vacant chairs 
and a couple of acting members and a couple permanent members. 
There is a different chemistry; there is a different focus. It 
does make a difference.
    There is nothing else I would have done or could have done. 
We try to articulate a strong mission, a vision, which I think 
my successors have done. But at the end of the day, any complex 
organization like this lacking the kind of--and I think both 
you and the Chairman referred to it--quality and stable 
leadership, it does have a corrosive effect on the ability of 
the team to operate as effectively as we want them, as 
citizens, to operate.
    Mr. Thompson. Yield.
    Chairman McCaul. Chairman now recognizes the Chairman 
Emeritus, Pete King.
    Mr. King. Thank you, Mr. Chairman.
    Secretary Ridge, great to see you again. I had the 
privilege of serving with you on the old Banking Committee when 
we were----
    Mr. Ridge. Right.
    Mr. King [continuing]. In the House over 20 years ago, and 
I remember after September 11, when President Bush named you 
the first Homeland Security Advisor, I guess the title was 
then, the universal support that that received from all of us 
who had served with you and all of those who have really had 
any experience with you in Government because of your 
dedication.
    Also, as I recall, I think you are the only Harvard 
graduate who enlisted in the army during the Vietnam War, so it 
shows your sense of dedication.
    Mr. Ridge. There might have been a couple. I don't know.
    Mr. King. Well, anyway, you are one of the few. We will 
leave it at that. Again, to me it is an indication of your 
tremendous dedication to this country.
    Let me just ask a question from the sense of employee 
morale. When you come in, obviously when the Department was set 
up in 2003, I guess it was, right, it actually came into being 
2003----
    Mr. Ridge. March 1.
    Mr. King [continuing]. You had all these different 
departments and agencies, all of whom--each of whom had their 
own legacies, their own traditions, their own ways, and that, I 
know, was an initial problem, getting different components to 
be able to work together to somehow give up part of their own 
legacy and share a new one.
    During the time you were there and now, do you see that--do 
you think people consider themselves Homeland Security 
employees, as opposed just to being in Customs, being in 
Immigration? Kind of when they came together--like when ICE 
came together it was two different units coming together. Do 
they consider themselves ICE employees?
    Mr. Ridge. That is a wonderful question. Let me give you 
two quick anecdotes, if I might.
    I remember Sean O'Keefe calling me. At the time he was 
heading NASA--and NASA was cobbled together decades ago, 
multiple small organizations to create that agency--and he said 
even after 20-some years he saw the vestiges of the old 
culture.
    So the whole integration of capabilities and appreciation 
of the interdependencies, that is still going on. That is going 
to take some time.
    But one of the things we tried to do at the very outset was 
to, one, create an esprit around that broader homeland security 
mission, which I frankly think we were pretty successful in 
doing; others may disagree. But we also tried to--and I think 
Ranking Member Thompson referred to it I think very 
appropriately--tried to bring both transparency and some 
uniformity within the organization. I still think that is an 
on-going process.
    I remember as we took the old Customs and ICE, and there 
were some law enforcement groups there, and there were some 
investigators, and we tried to, you know, harmonize work rules, 
harmonize uniforms. So it is still a maturation process, and 
that is why I think it is even--it is critically important for 
there to be a much stronger and focused partnership between the 
Hill--between the Congress of the United States and this 
Department that continues to mature.
    As long as you have 100-and-some committees and 
subcommittees on both the House and the Senate side, you are 
never going to get the kind of, I think, very productive and 
important oversight and collaboration and communication with 
the agency. I think that is a huge challenge going forward, and 
I am very hopeful that under the leadership of Chairman McCaul 
and Congressman Thompson you can convince the leadership here 
and when you do so over in the Senate to bring that focus.
    You have oversight responsibility but it is diluted, and 
that dilution of responsibility--of oversight responsibility I 
do think affects the operation of the agency.
    Mr. King. I agree with that fully, and that was certainly 
one of my frustrations as Chairman and Ranking Member.
    Mr. Ridge. Well, you know, I would say, we were involved in 
Iraq, we were involved in Afghanistan, and I spent more time on 
the Hill testifying than Secretary Rumsfeld. Now think about 
that for a minute.
    Mr. King. Right.
    In your testimony you mentioned that you spoke to Jeh 
Johnson and you emphasized to him the importance of his close 
relationship with the President.
    Mr. Ridge. Yes.
    Mr. King. When I was Chairman and Ranking Member--and I 
think Chairman McCaul would say the same thing--we had a very 
good working relationship with Secretary Napolitano. This is in 
no way being critical of her.
    But I do not feel that she had the entree to the White 
House, if you will. For instance, I don't recall, when either 
you were Secretary or Secretary Chertoff was Secretary, that 
there was a terrorist incident or threat or whatever where you 
were not at the White House when the announcement was made or 
when it was being discussed.
    Quite frankly, I would say from 2010 on, for really the 
last 3 or 4 years or last 3 years of Secretary Napolitano being 
Homeland Security Secretary, she seemed at least publicly to be 
out of the loop when it came to terror matters. She was there 
with immigration and other issues.
    I would think that has an impact on the Department itself, 
not seeing the Secretary standing with the President. Yes, you 
know, the Homeland Security Advisor, as you know, has an 
important role to play, but the ones who implement that is the 
Department of Homeland Security. Again, I can't recall an 
incident where either you and then your successor, Secretary 
Chertoff, were not standing with the President when those 
decisions were announced or when the threat was being 
announced.
    Mr. Ridge. Well, you know, I think every President is going 
to bring their own leadership style; there are going to be 
their own priorities and how they deal with individual Cabinet 
members. But make no mistake about it, I think it is a much 
more powerful image, when you are dealing with a threat or 
crisis, to have the Secretary of Homeland Security, when it is 
in that individual's jurisdiction, being the spokesperson for 
the administration regarding that issue.
    For whatever reason, on many, many occasions, when I 
thought Secretary Napolitano would be the one speaking on 
behalf of the administration, for whatever reason others were 
assigned that responsibility.
    I am not here to second-guess the President. It was just a 
different experience than both Secretary Chertoff and I had 
with President Bush. I don't have an explanation for it.
    I do think in my world it would be my preference, and I 
also think it does impact on the employees, to have your 
leader--your Secretary--speaking when an incident occurs that 
is within the jurisdiction within your responsibility. 
Ultimately you are accountable for it, so you should be 
speaking about it publicly.
    Mr. King. Thank you, Secretary. Appreciate it very much.
    Chairman McCaul. Chairman now recognizes the gentleman from 
New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman, to the Ranking Member.
    Secretary Ridge, thank you for your service to our country 
in every way.
    Let me begin by stating that I think we can all agree that 
the number of vacancies at the Department of Homeland Security 
are alarming and preventing the Department from achieving its 
mission. But I think it is important to make very clear for the 
record the root of these prolonged vacancies.
    If not for the hyper-partisan filibustering obstructionism 
that we have seen by Senate Republicans with no other purpose 
other than preventing the President from achieving anything, we 
would not be having this hearing today, period.
    Throughout the entirety of this Nation's history, 168 
political appointees have been filibustered. To date, 82 of 
those 168 that have been blocked were under President Obama's 
tenure. Let me repeat that in the more than 200 years of our 
Nation's history, 49 percent of the filibustered Presidential 
appointees have occurred in the last 5 years alone.
    The obstruction that has occurred is downright shameful and 
the American people are tired of it. It is dishonest to say 
that you are working hard for the American people when, in 
fact, great lengths are taken to see that nothing gets done.
    It is my hope that Mr. Jeh Johnson, who I am proud to say 
hails from Montclair, New Jersey, my district, will be 
confirmed swiftly so that we can get to the real business at 
hand, and that is protecting the American people and keeping 
our homeland safe. Just for the record, when Mr. Johnson is 
confirmed, 50 percent of the Secretaries from Homeland Security 
will have been from New Jersey.
    Mr. Ridge. Spoken with great pride, I gather.
    Mr. Payne. Yes.
    Mr. Ridge. Okay.
    Mr. Payne. With that, let me ask you, Secretary Ridge, do 
you believe that from your vast experience in management 
positions that having good morale in any working environment is 
a key and an element to productivity and success?
    Mr. Ridge. Unquestionably, of which there is no doubt. 
Absolutely essential.
    Mr. Payne. Okay. In my experience, you know, many things 
contribute to low morale in the workplace, and some of those 
things are like employees feeling underappreciated, being 
undercompensated, or uncertainty with their job and the 
leadership above them. In fact, that is exactly what the 
director of the Office of Personnel Management found in the 
2013 Federal Employee Viewpoint Survey, stating, ``Factors such 
as unprecedented 3-year pay freeze, automatic reductions from 
the sequester that include furloughs for hundreds of thousands 
of employees, and reductions in training and other areas are 
clearly taking their toll on the Federal workforce.''
    So, Secretary Ridge, once again, let me ask you, in your 
management experience do you find that low pay, pay freezes, 
furloughs, automatic discriminate reductions across the board 
in salary are a formula for a happy and productive workforce?
    Mr. Ridge. Well, let me put it this way to you, 
Congressman: I think the question of salary and compensation is 
always a--should always be the concern of the leaders in any 
organization, whether it is corporate America or within 
Government. I also think that, knowing the men and women of 
Homeland Security I think as well as I do, if they were called 
upon to share the burden of dealing with the unconscionable 
deficit that the Federal Government continues to promote and 
understood that their--what we would ask of them was being 
borne by the broader public of some sorts, I think, again, I 
think they are patriots all, and I think they are willing to do 
whatever they need to do not only to advance the mission of the 
Department of Homeland Security, but the broader interest of 
the United States.
    So it really depends on the circumstances and how and why 
you have asked them to do these things.
    I certainly think I will happen to agree with you--and I am 
not saying to you anything before this hearing that I haven't 
said publicly--the notion--the very notion of trying to shut 
the Federal Government down because there is a disagreement of 
Obamacare was an absolute disconnect, from my point of view. I 
believe you bring passion and conviction to the promotion of 
ideas, but you ought to use that passion and that conviction to 
an outcome that you can achieve, and everybody in this town 
knew that regardless of any threats of shutting down the 
Government, there was not going to be a rescission of that 
particular piece of legislation.
    So to that extent, not only were the employees of the 
Department of Homeland Security but there are some of those 
private citizens that saw the disconnect and thought it was 
inappropriate.
    Mr. Payne. Well, let me thank you for that. You know, it 
sounds like--I wouldn't want you to take a demotion, but it 
sounds like we need you back here in the Congress.
    But let me just end by saying I hope that we can continue 
to move forward in a bipartisan fashion for the American people 
in filling these vacancies, fixing the sequester, preventing 
something like the Government shutdown from happening again. 
All these are counterproductive and undercut the morale and 
productivity in our Federal workforce.
    Mr. Chairman, I just feel that if there is any committee in 
the House of Representatives that needs to be bipartisan it is 
this one. We all care about this Nation's safety, and I don't 
feel that partisan politics has any room in this chamber.
    So with that, I yield back the balance of my time. Thank 
you.
    Mr. Ridge. If the Congressman--I want to make just a quick 
observation. You know, now, in private life, I have occasion to 
run across many of the men and women who now serve. I run into 
air marshals, obviously TSA employees, others who have just 
voluntarily come up and say, ``Hello, Mr. Secretary.''
    I must tell you, morale aside--and we can debate that--I 
think there is a great sense of pride among these men and women 
as to what they do and how they do it and why they are doing 
it. To that end, the notion that somehow, as proud as they are 
of what they are doing, that somehow these vacancies and acting 
members don't have some kind of negative impact on their day-
to-day operation I think is difficult for me to accept. I just 
don't want you to think that these men and women aren't proud 
of the work they do, and I think all of us, regardless of which 
side of the political aisle you are on, we are very proud of 
what they do on our behalf.
    Chairman McCaul. Let me associate myself with that remark. 
We are very proud of them.
    Mr. Payne, thank you for your comments. As you know, this 
committee--I have conducted this committee in a very bipartisan 
way and I am very proud of the fact that every bill we have 
passed has passed unanimously out of committee. We just 
followed a--we had a border security bill, as you know, that 
passed unanimously, and we just introduced--Mr. Thompson and I, 
in a bipartisan way--a cybersecurity bill yesterday. So I 
appreciate your remarks.
    With that, I recognize the gentleman from Georgia, Mr. 
Broun--Dr. Broun, I should say.
    Mr. Broun. Thank you, Mr. Chairman.
    Mr. Secretary, Governor, Soldier, Hero----
    Mr. Ridge. Can't hold a job.
    [Laughter.]
    Mr. Broun. Mr. Secretary, you came to the position when the 
Department of Homeland Security was stood up. You brought some 
unique qualifications to that position that was lauded by 
people all across this country, by people of both parties.
    I associate myself with your comments that you made in your 
opening statement and which you have made subsequently, and all 
of us are very concerned about these vacancies. But I am also 
concerned about the qualifications of people who are put in 
leadership roles here in our Government.
    I don't think just being a Governor qualifies an individual 
to be the Secretary of the Department of Homeland Security. I 
don't think being a lawyer qualifies--even if they are a lawyer 
in the Department of Defense--qualifies somebody to be the 
Secretary of Homeland Security. I don't think being a buddy of 
the President or being a fundraiser for the President really 
qualifies anybody but being a friend or being a good 
fundraiser.
    I think as we look at how people are nominated we need to 
focus on something that you yourself said, and that is quality, 
permanent leadership. You brought to the table, as a senior NCO 
in the Army, one who served with valor in the Army, won a 
Bronze Star--and I thank you for your service to the Nation.
    I am a U.S. Marine, and I come at--and also, I believe in 
the Constitution of the United States as our founding fathers 
meant it, which means that National security and a strong 
National defense should be the major function of the Federal 
Government. That is the reason this committee is important; 
that is the reason the House Armed Services Committee and the 
appropriate committees over in the Senate are so important.
    The thing that I am concerned about is that we need to 
appoint or nominate people who are qualified to lead, not just 
because they are buddies, just because they filled a certain 
political position. You had many other qualities as Secretary 
that you brought to the table besides being a Governor, and I 
think your military experience is a big part of those 
qualifications because being Secretary or being in senior 
leadership in the Department of Homeland Security is very 
similar to being in senior leadership in our U.S. military, I 
believe.
    Would you agree with that, sir?
    Mr. Ridge. Well, I do think that those of us who have been 
privileged to wear the uniform of the country, when we leave 
the military most of us don't necessarily dwell on that 
experience but you certainly can draw from it no matter where 
you are and what you are doing. So I don't think it is 
necessary to make that a condition precedent to any 
appointment, but I do think those of us who have been 
privileged to wear the uniform, frankly, do bring a different 
perspective than those who don't.
    I don't think it is a sine qua non to be Secretary of 
Homeland Security. I think that, again, at the end of the day, 
I am a strong believer that the President, regardless of the 
political side of the aisle, makes those determinations with 
regard to qualifications. The Senate, with its advice and 
consent responsibility, should vet it, should ask the tough 
questions, and then you vote and you move on.
    That is where the oversight responsibility of the Congress 
of the United States becomes even more important, because while 
there may be some questions as to someone's previous 
experience, it is their performance after they have been sworn 
in that counts, and if you are not satisfied with the 
performance then you have the opportunity to hopefully give 
better direction or support or constructive criticism once they 
have got the job.
    But I think this whole question, not just for this 
administration but for future administrations--the competency 
of people in Government is something we don't talk about 
publicly, and I do think that, regardless of which side of the 
aisle you sit on, we ought to be a little bit more concerned 
about qualifications. I am not making--listen, I have--and this 
is not about the Secretary--the new designee for the Department 
of Homeland Security; that is across the board. I would love to 
come back and give you some views on that, as well, one of 
these days.
    Mr. Broun. Well, in fact, my time has run out. I agree with 
you, sir. All I can say is amen, brother.
    Mr. Ridge. Thank you. I will take that.
    Mr. Broun. We need to have people who have experience when 
they come to the table. You don't promote somebody from major 
to lieutenant colonel unless they are capable of leading the 
troops. You don't promote somebody from being a colonel to 
being a brigadier general or being a major general, lieutenant 
general, or general unless they have the qualifications and 
capability.
    But we are putting in--and this is not a partisan issue. I 
think both party Presidents have--are guilty of putting people 
in office in multiple departments all across the whole 
Government--putting people in office that are rewarding 
political favors. They are putting people in office that have 
reached the pinnacle or gone above the Peter Principle.
    We need to not only fill vacancies and have that permanent 
leadership, because an army is not going to work if the 
commanding officer is a temporary commanding officer. You have 
got to build that esprit de corps; you have got to build that 
confidence in the people who are following that leader. Having 
an acting individual in that capacity is just not sufficient.
    But you also have to have a competent leader to build a 
morale for the troops that that leader is asking them to 
follow. I would like to see us have a greater focus not only on 
filling the leadership positions and having those permanent 
leaders who are competent--and I think there are many people in 
senior leadership in Government--in administrations by both 
parties who are really not competent to fulfill that position.
    Mr. Ridge. You know, I think----
    Mr. Broun. We need to have those kind of people who are 
competent and permanent leaders, so that is going to help build 
that type of morale and make that Department--whatever it is, 
whether it is Homeland Security or any others--to be a 
functioning, vibrant department to fulfill the purposes of 
which it is stood up.
    Mr. Ridge. Well, I share that point of view. I believe it 
is within the jurisdiction of the Congress of the United States 
to, you know, to even legislate--I mean, there are certain 
requirements within the originating legislation with the 
Department of Homeland Security is the minimal background 
requirements in order to proceed to that position.
    I think it would behoove the Congress in a very bipartisan 
way across the board in all agencies to take a look at who 
serves and whether or not, in the ideal world, we can attract 
the best people. I have always felt that one of the challenges 
associated with trying to get the best people out of the 
private sector into the public sector is the fact that they 
have to surrender so much of--that there is--there is this 
notion, even in an advisory capacity, that somehow they will 
come into Government and try to feather their nest or that of 
the corporation they represent.
    You know, Franklin Delano Roosevelt was served very, very 
well during World War II by dollar-a-year men who came into his 
Government and said, ``This is a pretty complex and challenging 
time to our country. We are not going to worry about how you 
register. We are not going to be worried about the corporation 
for whom you are working. The country is in trouble. We need 
you.'' They had a lot of people come in from the private sector 
to help.
    I frankly think at some point in time the Congress needs to 
reconfigure and rethink how we can attract and retain for 2 to 
4 years some of the best minds in the private sector without 
having them necessarily to disenfranchise themselves either 
from the entity for which they have worked or the fortune that 
they--the wealth that they may have created. I think it is 
about time we started thinking about that, and I think you 
raised a very important question with regard to competency.
    There are a lot of talented people out there who I believe 
would love--that would--I mean, I saw it. I saw people who left 
really good-paying jobs--retired military people, people in the 
private sector--and said, ``All right, I will take lower pay 
and not--because my country needs me.'' I saw that over and 
over again.
    Ten years later, complicated--the world is more complicated 
economically, monetarily, geopolitically. I think we really 
need to think about competency at all levels of Government and 
the ability to attract some people from the private sector to 
come into our Government for 2 or 4 years and help us work our 
way through the maze of challenges that we have.
    So I would associate myself with the gentleman's remarks.
    Mr. Broun. Well, thank you, Mr. Secretary.
    My time has way run out, but I want to make one final 
comment if I may, Mr. Chairman.
    Article 1, Section 1, sentence 1 of the U.S. Constitution 
says that all legislative authority is vested in the Congress 
of the United States. The President, through Executive Orders, 
has no Constitutional authority whatsoever of creating law. A 
justice all the way up to the Federal Supreme Court has no 
Constitutional authority to create law. They do not have 
legislative authority to do so.
    We in Congress have that authority. We in Congress only 
have that responsibility.
    We cannot do our job to legislate when we have a 
President--and we have had Presidents of both parties that have 
legislated through Executive Orders. We have had Presidents of 
both parties who have taken away the responsibility that we 
have here in Congress. We have Federal justices, from the local 
district courts all the way up to the Supreme Court, who have 
legislated from the bench. That is unconstitutional and it is 
not right.
    We need to have the jurisdiction. We need to have the 
ability to do what is necessary to create the laws of this 
country. When a President--and like I said, both parties' 
Presidents have been legislating from the Executive branch and 
justices are legislating from the bench, and it is not right.
    We have got to return that power. We have to have competent 
people.
    Thank you for your service.
    Mr. Ridge. Appreciate it. Thank you for your kind words. 
Thank you.
    It reminded me of a time when I was in front of--privately 
having a conversation with the venerable senator from West 
Virginia, Senator Byrd, who reached into his pocket, pulled out 
the Constitution, and reminded me, ``That is a Congressional 
responsibility, not yours of the Executive branch.''
    Mr. Broun. It is, sir.
    Mr. Ridge. That is exactly what you can do.
    Chairman McCaul. That was an excellent discussion.
    The Chairman now recognizes the gentleman from Texas, Mr. 
O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I would also like to thank you, Mr. Secretary, for your 
service and your continued service today and sharing your 
experience and wisdom with the committee and helping us with 
our oversight responsibilities.
    Several Members have asked you about the impact on morale 
in the Department of Homeland Security, and you likened it to 
trying to judge beauty. There is a subjective element to that.
    Mr. Ridge. Yes.
    Mr. O'Rourke. As well, with leadership it is hard to put a 
number on it or objectively define how we are doing. But I 
think all could agree we want confirmed, full-time, fully 
committed heads of the agencies within DHS.
    I was hoping you could talk about two in particular. In El 
Paso, the community I have the honor of representing, about $92 
billion in U.S.-Mexico trade passes through our international 
ports of entry every year, and that trade is connected to 
millions of jobs throughout the United States, so a critical 
function those Customs and Border Protection officers are 
performing.
    I wonder what it means--and I have the utmost respect for 
Commissioner Winkowski, have a good relationship with him. He 
has been very responsive to issues and questions that we have 
raised with him.
    But how limited is he or any acting commissioner in a job 
like that one in terms of fully implementing policy from the 
Congress, directives from the administration, when we look at 
not only the threats that we have at our borders with Mexico, 
but the opportunities we have when it comes to capitalizing on 
the trade and creating more jobs?
    Mr. Ridge. You know, it is a very appropriate question, 
particularly for purposes of this hearing. I have often 
wondered, and particularly sitting here listening to you and 
your colleagues, how comfortable would you be if you were the 
acting Congressman?
    How aggressive would you be with regard to initiatives that 
you would want to pursue? How entrepreneurial would you be in 
terms of your thinking and to promote the interest of your 
constituents? How engaged would you be with other people?
    So I think, you know, I understand the role of ``acting.'' 
Republican and Democrat Presidents have had to use that 
mechanism to fill vacancies over a period of time.
    I can never be dissuaded of the notion, however, that you 
are not fully accountable; you can't be the kind of leader that 
you want to be; you can't articulate, necessarily, your vision 
because you are not sure how long you will be there. I can't 
imagine--and I can only imagine that those men and women with 
whom you serve look to you, ultimately, for accountability but 
they are not so sure how long you are going to be there.
    I mean, I just think it is very difficult for the 
individual to do his or her job and the means with the passion 
and the commitment they want to do it if they are just an 
acting member. Just like I don't think--it would be pretty 
difficult for you to be an acting Member of Congress, not sure 
you are going to be here 3 months, 6 months, you are going to 
move out.
    Mr. O'Rourke. Yes.
    Mr. Ridge. I think it does have a psychological impact on 
the people you serve, as well.
    Mr. O'Rourke. So you may not be limited statutorily in 
terms of what you can or cannot do as an acting commissioner or 
director, but you are limited in terms of your engagement and 
your ability to take the risk and----
    Mr. Ridge. I think that is right. I think that is a fair 
comment. I mean, if you have, particularly in the back of your 
mind or you decided that you have been given this 
responsibility but you have got to be a little bit cautious 
about it, if you decide there is something that you want to 
implement but you are uncertain as to how long you are going to 
be there in order to affect the change that you want to affect, 
will you be as bold and as aggressive and as strong a leader as 
you want to be if you are not sure you are going to be there, 
or how long you are going to be there?
    So again, I think it is a very objective analysis, the 
impact on your leadership style. I think it is a subjective 
assessment as to whether or not the men and women that you are 
supposed to lead, whether that has an impact on them that is 
negative. My gut tells me that it does.
    Mr. O'Rourke. Yes. Makes a lot of common sense, and we 
think about CBP, we think about those officers, we think about 
the Border Patrol agents who have one of the toughest----
    Mr. Ridge. Absolutely.
    Mr. O'Rourke [continuing]. Jobs in domestic service for the 
Federal Government, along with those CBP officers.
    We recently had an issue with the ICE detention center in 
El Paso brought to our attention about whether or not they are 
following certain administration directives, and I think more 
investigation needs to take place. But it does make me wonder 
what having an acting director in that position, whom I have no 
reason to question his ability or commitment to doing the right 
thing, but acting versus a fully-confirmed person who can do 
some of the things that you are talking about.
    So to the Chairman's comments and my colleague's comments 
earlier about pursuing this in a bipartisan fashion, I don't 
know where the blame should rest for this, and I think there is 
probably blame enough on both sides, but I hope this hearing 
that you have called, you know, serves to galvanize all 
concerned to do the right thing so that we have some 
leadership, some continuity, and some predictability going 
forward because it helps communities like ours and, I think by 
extension, the rest of the country----
    Mr. Ridge. I have spent some time in that community, and 
you are right, the integration of the communities and the 
critical junction in terms of trade between us and our friends 
down south, all across the Southern Border, and I appreciate 
your comments.
    Blame notwithstanding--there is too much of that going on 
around here anyhow--I mean, let's just fill these vacancies. As 
I said before, I think when a President, Republican or 
Democrat, puts forward a nominee in the Senate of the United 
States, when it is under the advice and consent provision, 
there ought to be timely debate, there ought to be--when it 
comes to homeland security, National security, some of these 
critical mission, get it out there, put that individual through 
the most rigorous examination as you possibly can, make a 
judgment, and vote and move on.
    There are political games. We will never take politics out 
of how we govern. It is kind of endemic to how we play the 
game--the political game in the United States of America. But 
there are certain exigencies and certain positions, I think, 
that it is unworthy of the institution to play politics with 
critical appointments.
    Mr. O'Rourke. Agreed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. I certainly agree with that comment, as 
well.
    Chairman now recognizes the gentleman from Pennsylvania, so 
it will be a Pennsylvanian to Pennsylvanian, Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    Good morning, Governor.
    I just have to say, with Congress' approval rating so low 
the American people might like if we are only acting Members of 
Congress.
    Mr. Ridge. No comment.
    Mr. Barletta. You know, having the privilege to serve as 
mayor during your time as Governor, I can remember the 
bittersweet feeling I had the evening that President Bush made 
his announcement appointing the first Secretary of Homeland 
Security. It was bittersweet because I knew Pennsylvania was 
losing a great Governor; but I also knew that the country was 
gaining a great leader.
    So I think it is fitting that you come here today and talk 
about leadership and the importance of that and what it means 
to have an effective organization. You talked a lot about and I 
agree that, you know, today's world is probably more dangerous 
than at any time in American history, whether it be here at 
home or around the world.
    The Office of Intelligence and Analysis is the Federal 
Government lead for sharing information and intelligence with 
State, local, Tribal, and territorial governments and the 
private sector. It is these non-Federal partners who now lead 
the homeland security enterprise in preventing and responding 
to evolving threats to the homeland.
    I&A serves as the information conduit and intelligence 
advocate for State, local, Tribal, and territorial governments. 
However, the under secretary for Intelligence and Analysis has 
been vacant for over a year.
    How is our intelligence capability being negatively 
impacted with a vacancy at this very important position?
    Mr. Ridge. One of the challenges that any Secretary of the 
Department of Homeland Security has under any administration is 
an appreciation by the public generally that you don't--the 
Department itself does not have its own intelligence-gathering 
mechanism; it relies heavily upon the alphabet agencies.
    The Department is a consumer of information. Doesn't 
generate much. Generates a little, but by and large you know 
what I am talking about.
    But it provides a valuable, valuable function to the 
Secretary because even though the shop is a little slower than 
most, it does have a capability to do its own independent 
analysis on behalf of the Secretary.
    I am personally familiar, based on my experience, where our 
little shop way back when differed from the intelligence 
assessment it got from some of the bigger, more muscular, and 
traditional agencies. Because of the respect of the individuals 
involved, they got together prior to my giving the President an 
assessment and basically reoriented the approach and really 
changed the assessment.
    I don't want to say one responsibility or one position in 
upper management is more important than another within the 
Department of Homeland Security, but I can't imagine anything--
any position being more important to the Secretary than someone 
who has the ability and the requirement and the resourcefulness 
to communicate with, on a daily basis, the intelligence 
agencies, to take that information and make it relevant to the 
Department but also to State and local governments.
    So again, as you take a look at vacancies you say to 
yourself, if you think the threat is real, you understand the 
Department doesn't consume--is a consumer of intelligence, 
doesn't generate its own, and that position is vacant, what 
kind of information does the Secretary have? Who is 
communicating what to the locals?
    You know, it is very interesting. Ranking Member Thompson 
said something very interesting and I find in his opening 
remarks, and I align myself with him: There has to be 
procedures--routine procedures. One of the most routine 
procedures in my experience--and I think Secretary Chertoff, 
and I can't speak to Secretary Napolitano--is sustained 
engagement with the State and local governments in terms of 
information sharing.
    If you don't have that information flowing primarily 
through the Department of Homeland Security and then you have 
got a diffused organization, they are getting bits and pieces 
from everybody else, and that is just unacceptable, as far as I 
am concerned, in terms of furthering the mission of greater 
security for the United States of America. I think it is 
deplorable that that position has been vacant for over a year. 
It is unacceptable.
    Mr. Barletta. I think we can see, you know, what happened 
up in Boston and why it is so important that that information 
sharing with Federal, State, and local authorities----
    Mr. Ridge. You know, one of the biggest challenges we had 
from 2003 forward--and I share with you just as a frame of 
reference--is that prior to the Department of Homeland Security 
being created, within the intelligence community there was a 
mindset and a notion that, ``We will share the information when 
we think you need to know it,'' and we said, ``No, no, no, no. 
It is a different time. Now it is need-to-share.''
    I need to share with the Governors; I need to share with 
the big-city mayors; I need to share with the big-city police 
chiefs and the like. That is, I think, an integral function of 
the Department of Homeland Security, and the person most 
responsible for giving guidance to the Secretary is the kind of 
information to be shared--not necessary actionable, but needs 
to be shared--is that individual.
    I just hope that they will--for whatever reason, I am not 
going to talk about the delay, it is vacant. You do Jeh Johnson 
a great disservice if the Office of Personnel Management 
doesn't immediately send a qualified person to the Hill to get 
it confirmed to work with him hand-and-glove.
    Mr. Barletta. Great seeing you, Governor.
    Mr. Ridge. Thank you. Thanks.
    Chairman McCaul. Let me thank the gentleman for bringing up 
that very important point.
    I just wanted to say that most recently under the 
intelligence authorization bill an attempt was made to 
basically gut the Intelligence and Analysis Department within 
Homeland Security--the office itself. I can't think of a bigger 
mistake after Boston than to gut an office that--whose primary 
mission, as you know, Secretary, is to communicate with State 
and locals.
    It made absolutely no sense to me. We have letters from all 
police chiefs all across the country and all 50 Colonels of all 
50 States and Governors objecting to this. I am proud to report 
that with the good work of the Ranking Member and myself, we 
were able to block that effort.
    But I think it is important to note publicly that that 
attempt was made, and I can't think of a bigger mistake at this 
point in time.
    So with that, the Chairman now recognizes my good friend 
from Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Governor, thank you for being here.
    Mr. Ridge. Pleasure.
    Mr. Keating. Earlier this year the commissioner of the 
Boston Police was asked a question in front of this committee 
whether or not they had information that both the FBI and the 
CIA had regarding potential terrorists that were conveyed to 
them through the Russians, and he answered that he had no 
information. Would you comment on that?
    Mr. Ridge. What is interesting, I asked him the same 
question and got the same answer. Again, it goes back to the 
question that Congressman Barletta asked, and frankly, the 
concern that I have to make Secretary Johnson as effective as 
he possibly can be, and that is is that there continues to be 
the resistance within some of the law enforcement intelligence 
community to share that kind of information with the major 
groups and law enforcement leaders around the country----
    Mr. Keating. Let me ask you another question.
    Mr. Ridge [continuing]. And it is inexcusable.
    Mr. Keating. Thank you. Thank you, Governor.
    Let me ask you another question about this committee--
Homeland Security Committee.
    Mr. Ridge. Yes.
    Mr. Keating. Do you think in the aftermath of any major 
terrorist attack on this country that if this Congressional 
committee, this committee of the House, wants to look at the 
preparation that was done ahead of time, the actual 
implementation of investigation going forward, that it is 
appropriate that this committee--and you referenced in your 
comments still the on-going problem with jurisdictions--but 
don't you think this committee should be central in looking at 
that oversight, best practices, what works, what resources 
might have to be done, how the investigation was done, if there 
were any lapses? Don't you think we should be center to that 
here from a Congressional standpoint?
    Mr. Ridge. Unequivocally, yes.
    Mr. Keating. So if the FBI were to say that they couldn't 
come in front of this committee because they lack jurisdiction 
when they were invited two times to open testimony and one time 
to a Classified briefing, wouldn't you say that is a good 
example of the problem of jurisdictions when they can cite 
something like that in front of this committee when we are just 
trying to find out what the best practices are after an event 
like the Boston bombing and to move forward? Isn't that an 
example of what is wrong?
    Mr. Ridge. Well, I would tell you that I believe that one 
of the challenges that Ed Davis had, and I suspect one of the 
challenges that many major law enforcement officials have 
around this country in terms of providing a more secure 
community, is the reluctance of some of the intelligence-
gathering agencies to share that information. If the chief of 
police, after the terrorist incident, publicly testifies that 
he did not have access to the kind of information other 
agencies had, then I think it certainly would be in this--I 
mean, I would applaud the effort to secure that kind of 
briefing. If it has to be a closed session, so be it.
    But as I said before, the Department of Homeland Security 
has the primary responsibility to communicate relevant 
intelligence to the State and the locals, and if there is a gap 
then the Department of Homeland Security will be held 
accountable, but in fact, they depend on these other agencies 
to share that information so they can pass it on down, and if 
it is not passed on down the Secretary and the Department will 
be held up to criticism. Frankly, it is not justified.
    I am reminded of the time that I went on television to 
support Secretary Napolitano who was--somehow the Department 
was criticized for letting the bomber on the airline in Detroit 
on Christmas day for getting on the airplane, which I thought 
was totally not justified simply because the Department had not 
been--did not have the information from the State Department to 
keep him off the plane.
    The Department of Homeland Security relies on other 
agencies to provide the intelligence and the law enforcement 
information, and if they don't get it they can't do their job. 
If they have failed, somebody ought to ask why.
    One of the questions I have had for the longest time: If we 
cannot, as a Government, whether it is the FBI or any other 
agency, trust a fellow American in a critical position to 
provide law enforcement and security to a community with the 
kind of information, then who can we trust?
    So it is a great concern of mine that we don't communicate 
on a more regular basis. Not that it may have been actionable, 
but perhaps there was something they could have done.
    I think it is certainly within their purview, and I will 
let the Chairman and the Ranking Member duke it out with the 
other committee Chairmen. But I think it is certainly a 
responsibility on behalf of the Department of Homeland Security 
to determine why this very important law enforcement official 
was denied access to information that perhaps--perhaps--might 
have been used to prevent the attack.
    Mr. Keating. Well, I would hope that by extension that 
means Congress, as well.
    Mr. Ridge. Exactly.
    Mr. Keating. I hope the FBI views us as a trusted entity, 
whether it is Classified or not, to deal with these issues. So 
I agree with you wholeheartedly----
    Mr. Ridge. I am not sure we got that far, Congressman, but 
I do think--we used to--from--periodically, we used to pick up 
the phone and, based on information we had, talk to Governors, 
talk to law enforcement officials. It wasn't actionable 
intelligence. We weren't asking them to do anything based on 
the information we had.
    But it was a precursor to the time when we may have had to 
pick up the phone and say, ``Remember the information we have 
been feeding you over the past 3 to 6 months or a year? It has 
now come to fruition. Here is another element. We need you to 
act.''
    So that kind of sharing with limited people who you have to 
trust that it will not be leaked is something that I think, 
again, is--we have gone from a need-to-know to need-to-share 
and we still don't have that need-to-share mentality in this 
town----
    Mr. Keating. Thanks----
    Mr. Ridge [continuing]. Particularly when it comes to the 
Department of Homeland Security.
    Mr. Keating. Thank you, Governor.
    I know, if I could--other Members have been extended a 
little bit--I just want to touch on one interesting phenomenon 
along the lines of what we are talking today and maybe get your 
input. I think it is something that is helpful in this.
    I have noticed in the last few years the curriculum of a 
lot of colleges and universities are now including homeland 
security courses and majors and degrees in that regard. I 
looked at that, I think, as a helpful sign in terms of having a 
ground for, you know, trying to get the participation of 
qualified people going forward that want to make a career out 
of this at mid-management or other management levels. Could you 
comment on the briefly?
    Mr. Ridge. Well, I think it is very helpful. I remember 
when we set up the advisory committee to the Department 
initially, that was one of the--one of our objectives was to 
see if we could work with some college and universities and 
actually recommend certain curricula that would be embedded in 
the program.
    What I have found over the past couple of years is men and 
women who have left the Department of Homeland Security, 
brought tremendous amount of experience, have by and large been 
retained by these universities to help build that academic 
infrastructure. It is pretty gratifying to me to get so many 
young men and women who see this as an opportunity, whether it 
is to serve at the State Government, local government, private 
sector. But it is a new mindset and I think it is a great 
opportunity for a lot of our young people.
    Mr. Keating. Thank you, Governor.
    Thank you, Mr. Chairman.
    Mr. Ridge. Welcome.
    Chairman McCaul. Let me just say on the Boston issue, I had 
the honor to join you, Congressman, walking down the streets of 
Boylston with Ed Davis and the FBI, SAC and the horrific scene 
there, and I think the State and locals are the eyes and ears. 
They know the streets pretty well. They are a force multiplier 
and we ought to be tapping into them as a resource.
    As we had Ed Davis testify before this committee, he was 
very honest but I think almost a little bit embarrassed to have 
to say that he did not know that Tamerlan was under 
investigation by the FBI.
    Having said that, we recently met with the new director, 
Mr. Comey, not to reflect on the prior one in any negative way, 
but I do believe that the FBI understands the lessons from 
Boston that perhaps the police chief can have an MOU with his 
own police officers and the FBI so that the Boston Police on 
that task force can actually talk to him about what is going on 
on the JTTFs. I know Director Comey is moving forward in that 
direction and that is a positive step, and I am pushing 
diligently to be able to forge a very good relationship with 
the FBI because, after all, they really are the domestic law 
enforcement agency in charge of counterterrorism, and I think 
it is an integral part to this committee and what we do, as 
well.
    So with that I recognize the gentlelady from Indiana, Mrs. 
Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman. Thanks for holding 
this hearing. This gives me an incredible opportunity.
    Speaking of Director Comey, he and I served--we were former 
U.S. attorneys together and so I was U.S. attorney in Southern 
District of Indiana from 2001 until 2007, and so it is an honor 
to have you here before us again because I was part of that 
group of U.S. attorneys, like Director Comey, that was a part 
of helping DHS stand up.
    Under your leadership we were--and my question is what your 
thought is about what the U.S. attorneys' role should be today, 
because I know what it was in 2001 and it was to help bridge 
that gap between the FBI, between your new important agency--
the Department of Homeland Security--and with State and locals. 
The U.S. attorneys are that--and I know a lot of people don't 
like to recognize it, but their chief Federal law enforcement 
officer in each district, and they are supposed to be the ones 
that are supposed to bring together the parties, bring together 
the different agencies and law enforcement--State, local, and 
the Federal agencies. I always viewed that it was our role to 
push and to make sure that cooperation and coordination 
happened.
    We were part of standing up fusion centers, which I think 
those have very different degrees of effectiveness now--very 
different than what we thought they were supposed to be. I 
think the Boston bombing is a good example of that disconnect 
that was not supposed to happen.
    I am curious to what your thoughts are as to what the U.S. 
attorneys' role should be now and, you know, what could we even 
be doing to remind them that Department of Homeland Security 
and that coordination we are talking about and that they rely 
upon is happening at the highest level? I think it was our duty 
then, and I am just not certain whether or not it is being 
viewed that way now. I am curious to your thoughts on that.
    Mr. Ridge. Well, I would probably, Madam Congresswoman, to 
defer to you because of your intimate experience with your role 
and its relationship to the Joint Terrorism Task Forces. But I 
will tell you that I think that the U.S. attorney is really 
the--as I understand it, probably should be the glue holding 
the entire entity together.
    My experience, both when I served as Secretary but 
subsequent, talking to a lot of my friends around the country, 
is that much of this information sharing down to the local 
level, it is not--the notion of the sharing is not 
institutionalized. Too many occasions it depends on the 
personal relationship between the FBI agent and/or the U.S. 
attorney, and I think the role that U.S. attorneys can play 
hopefully, even though you operate out of the same agency under 
the Department of Justice, there still has to be an--and here 
we are talking 10 years after 9/11 we are talking about the 
relationship of the chief law enforcement counterterrorism 
entity within the United States had information about potential 
terrorists 10 years after 9/11 and that the commissioner of 
police of one of the largest metropolitan communities in the 
country was unaware.
    Not that he would have done anything with it, but since his 
men and women are patrolling the streets, familiar with the 
neighborhoods, whether or not they could have been involved in 
what I think was a fairly cursory investigation of these 
individuals--I am not in a position to render judgment, but I 
think there remains a very critical role for the U.S. 
attorneys.
    But I would like to see the role--it around the permanent 
change of mindset from need-to-know to need-to-share. I think 
you are probably--U.S. attorneys are in the best position to 
effect that change.
    Mrs. Brooks. Only thing I would add is--and certainly when 
we don't have political appointees in the leadership 
positions--back, in part, to the vacancies and the purpose in 
part of this hearing--would you agree that political 
appointees, whether you are Republican or Democrat appointees, 
are most in tune with the administration's views? The merit 
employees and the people who are there, they are going to get 
the job done; but when it comes to pushing the priorities of 
the administration, that is often handled really by the voice 
and the mouthpiece of the political appointees.
    The merit folks and the line-to-line Government merit folks 
are going to get the job done, but yet, in my brief experience 
of 6 years, it was really the political appointees that were 
really stressing the priorities. Would you agree with that?
    Mr. Ridge. Ultimately, at the end of the day, in this 
monstrous organization called the Federal Government, the 
political appointees take their direction from the chain of 
command, and we all know where that begins and ends. So the 
notion that a political appointee would be reflecting the views 
and the priorities that their chain of command is should not be 
surprising.
    It is done whether it is a Republican administration or a 
Democrat administration. That is just the way the system works. 
You may disagree with the priorities and the messaging, but it 
begins and ends at the other end of Pennsylvania Avenue.
    Mrs. Brooks. Thank you for your service. Thank you.
    Mr. Ridge. You are welcome.
    Mrs. Brooks. I yield back.
    Chairman McCaul. I thank the gentlelady.
    The Chairman now recognizes the gentlelady from New York, 
Ms. Clarke.
    Ms. Clarke. Thank you, Mr. Chairman.
    Welcome----
    Mr. Ridge. Thank you.
    Ms. Clarke [continuing]. Governor Ridge. It is good to see 
you once again.
    I would like to just acknowledge from the outset that 
notwithstanding the challenges of this Department, we have one 
of the best and dedicated Federal employees in this Department, 
and we need to acknowledge that. They are persevering despite 
numerous challenges, some of which have come at the expense of 
getting raises and being denigrated oftentimes. So I would like 
to thank them for their diligence, notwithstanding the 
challenges that are integral in such a huge agency.
    Governor Ridge, it appears from the survey results that the 
main contributing factor to low employee morale are management 
challenges that continue to exist at the Department. One source 
of these challenges is the lack of line authority between 
component management leadership and their headquarter 
counterparts.
    As the former head of the Department, I am certain that you 
saw first-hand the need for a strong headquarters with 
enforcement mechanisms in place to ensure operational success 
and build a cohesive structure. Would you agree that 
implementing a direct-line authority would improve Departmental 
management and eliminate some of its current challenges?
    Mr. Ridge. Well, you know, I certainly think that whether 
there is a direct legislative line of authority, there is 
certainly an implicit one--all the disparate hands of the 
various larger groups within the Department. We always felt, my 
Deputy Secretary Jim Loy, former commandant in the Coast Guard, 
and I felt that they were ultimately accountable to us because 
we were accountable to the President and the Congress of the 
United States.
    So whether or not you can improve the interaction between 
the Secretary and the heads of the different units within the 
Department of Homeland Security by specific legislative 
language remains to be seen. But I think there is an implicit 
line of authority and accountability and responsibility right 
to the Secretary, and that goes right to the President of the 
United States.
    Ms. Clarke. When you have multiple vacancies in the way 
that we do, do you think that that clarification in terms of 
chain and line of command could be beneficial, given the fact 
that at this stage we have these vacancies?
    Mr. Ridge. Well, I would certainly welcome the opportunity 
to review any suggested changes to the legislative language 
that might create the line of authority. Again, I think it is 
just implicit that the--those men and women running the 
different units of Government within the Department are 
accountable to the new Secretary, pure and simple.
    If he believes it needs a--I mean, I just--I am not quite 
sure I understand the need for legislative language to create 
that precise line of authority that is like a straight line, 
not a dotted line on an org chart. But if it was this 
committee's collective feeling that that would help the new 
Secretary then I would be all for it. I just think it is 
implicit, and--because I think the way you have that line of 
authority you have to hold people accountable.
    But I will tell you, it would be a lot easier for this 
Secretary and future Secretaries if the jurisdiction of 
Congress was telescoped so that you can help this Secretary 
maintain that line of security, that line of accountability. It 
is too disparate.
    I can just speak to a couple of occasions, without just 
going back--and I am not--it is not an accusatory thing, but 
when the agency was created there were different leaders who 
had different relationships with different committee Chairmen 
and different committees, and getting them--there were 
occasions when I felt that, right or wrong, there was a little 
more sympathy toward the committee Chairman's point of view--
and I say this respectfully because I used to serve here--
rather than to the Secretary's point of view.
    I think when you can narrow that ledge of jurisdiction I 
would love to see this committee have primary jurisdiction over 
the Department, because I do think it would help make the 
Secretary under any administration much more effective.
    Ms. Clarke. Let me just ask, if you will indulge a moment, 
Mr. Chairman, we are talking about leadership and permanency, 
and I would say versus effectiveness. Even though serving in 
temporary capacity can engender leadership, knowledge, and 
acumen that is needed to accomplish and establish mission and 
be effective in getting the job done--would you agree with this 
or do you think that this permanency is a critical component to 
the effectiveness of the agency?
    Mr. Ridge. I would argue, and there are probably some 
people that would disagree, but I think in any leadership--
within any leadership team within any organization, public or 
private, the chain of command has to be viewed as a permanent 
part of the infrastructure within which these men and women 
work, in terms of--I think it empowers them, and gives them a, 
I think frankly, it creates a notion of bidirectional 
accountability that doesn't necessarily exist with just an 
acting. I just think it is so very important to move from 
acting to permanent.
    I take a look, and I have known Rand Beers for a long time. 
This is a man who, I think he has had three acting positions. 
So maybe Rand might disagree with me, but I--as hard as he 
would work--and I know he is committed to the mission--I would 
daresay I would like to think he would conclude he would have 
been a lot better in any of those three positions if he would 
have been permanent rather than acting.
    As I said to the Congressman from Texas, I believe--I don't 
know how effective Congressmen would feel if they were acting 
Congressmen but you are not sure how long you are going to be 
acting in this position. I just think it has a psychological 
effect and an effect on your ability to lead.
    Ms. Clarke. To the personnel, as well. If you think that 
your boss could be gone in a blink of an eye it makes it very 
difficult to have any continuity of leadership and certainly 
viewing that person in terms of their leadership as someone 
that is going to maintain a culture that strengthens the 
agency.
    Mr. Ridge. It is about culture, and I think that is the 
appropriate word. I think, frankly, now that there have been 
some changes made in terms of the nomination and approval 
process over in the other body, maybe some of these acting can 
be permanent and some of the vacancies can be filled.
    Ms. Clarke. Mr. Chairman, I thank you.
    I thank you, Governor, for all of your service.
    Chairman McCaul. Chairman now recognizes the gentlelady 
from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, let me thank you very much.
    Governor, it is a pleasure to see you again and thank you 
for your on-going service. There are many of us on this 
committee that started with you and before that time--and 
tragically, because obviously we had an infrastructure of 
security, but in the eye of 
9/11 we saw the urgent need.
    President Bush, Members of Congress, there was a select 
committee--committed to come together for a real infrastructure 
of security, and I thank you for taking the first challenge, 
the first plunge into what I consider an enormously crucial 
committee.
    I would like to thank Chairman McCaul and Ranking Member 
Thompson for carrying on the bipartisan and nonpartisan 
commitment to the Nation's domestic security, and I might say 
security that reaches even beyond the borders as it reflects on 
the domestic security.
    So I am going to pose a question that comes right out of 
your message and your opening page, which is that it is crucial 
that the Secretary nominee, Mr. Johnson, be approved 
expeditiously. Would you just expand on the rather direct 
comment you indicated that there is a need for these 
individuals to be approved because they hold a higher 
responsibility?
    I would always like to think that there are committees of 
jurisdiction on a myriad of issues that are really important, 
but when you come to homeland security, maybe armed services, 
but homeland security are life-or-death matters on everyday 
peoples' lives as it relates to the goings and comings of 
Americans and their domestic security. So one of the points you 
said is that we really need to rid ourselves of political 
grandstanding and move the process forward. If these are 
competent nominees they should be approved.
    Would you just comment on the uniqueness of homeland 
security and the importance of having people in place?
    Mr. Ridge. Well, we are all familiar with the language. It 
says we gather together as a country to provide for the common 
defense. Prior to 9/11 we may have thought of the common 
defense really related to the Department of Defense, but now we 
have, since the United States has become a battleground, the 
Department of Homeland Security and the critical appointments 
within that I believe should be considered in the same vein as 
critical positions within the Department of Defense.
    As I commented before, Congresswoman--perhaps you weren't 
there, but apologize to be redundant--I mean, we will never 
take politics out of how we govern in this country. It is just 
the way things are. But in my judgment, there are certain 
times, certain responsibilities, and certain appointments 
around which the President makes the decision under the advice 
and consent, the Senate ought to move in a timely fashion, be 
as rigorous in your examination as possible, and then vote and 
move on.
    That holds for, in my view, regardless of the 
administration, there are certain critical appointments that 
need to be dealt with expeditiously. We see what has happened 
over the past couple of years, and I don't believe all these 
vacancies have been held up by political gamesmanship. In fact, 
that is not accurate; but the fact of the matter is one is one 
too many.
    Ms. Jackson Lee. Let me----
    Mr. Ridge. We need to empower--you weren't here when I--
excuse me, I don't mean to interrupt you, but I----
    Ms. Jackson Lee. Go ahead.
    Mr. Ridge. Attorney Johnson and I had a really good meeting 
a couple weeks ago, and we--and it was all private and 
confidential. I made some recommendations to him about, based 
on my experience, what I thought was really important. But the 
first thing we talked about was his ability--and I said quite 
candidly, ``The personal relationship you have with the 
President--I had a pretty good one with President Bush--to 
expedite the process, get OPM, get those good names. Get them 
to the Hill. And if it is under the advice and consent 
responsibility of the Senate, get them out there.'' Because it 
is pretty difficult for him to do the job we all want him to 
do----
    Ms. Jackson Lee. Without the infrastructure.
    Mr. Ridge [continuing]. Without his team. He needs the 
team.
    Ms. Jackson Lee. Well, let----
    Mr. Ridge. They can't be an acting team; they have got to 
be a permanent team.
    Ms. Jackson Lee. Let me thank you for your knowledge.
    Let me first of all agree with that, and I would hope out 
of this hearing would come, No. 1, a creative approach to be 
able to fill the other line positions that are necessary to be 
part of the infrastructure; No. 2, that homeland security is 
set apart, No. 1, that we, again, reignite the idea of--I hope 
Speaker Boehner would listen--is that we consolidate the 
jurisdiction of the Homeland Security under the Homeland 
Security Committee once the team is in place. That also deals 
with morale. I am going to ask you to comment on that.
    Then I would ask you to comment on the continuing sore 
point, which I think Mr. Keating highlighted, which I am 
concerned about, is the following of the dots, the connecting 
of the dots that is so crucial to the success of the Homeland 
Security Department even though it is not the singular entity 
for intelligence gathering. I can assure you, in spite of the 
NSA and others, you get asked, as a Member of this committee, 
about intelligence gathering.
    The mindset of the American people is that Homeland 
Security, along with its very important responsibilities of 
Border Patrol and ICE and CBP and TSA, front liners that 
everybody sees, they consider it the home of the intelligence 
security, the going and coming security, comprehensive 
immigration reform. So if you would just comment on the 
connecting the dots and the idea of having initiatives that 
will allow appointments of leadership and Homeland Security to 
move quickly.
    Mr. Ridge. Well, first of all, to the first part of your 
questions, I would--not that I invite myself back up, but I 
have told your Chairman and the Ranking Member, if you want 
somebody to come up and testify about reducing the number of 
committees and making this committee--get this committee 
primary jurisdiction, I am happy to do it. Got to be careful 
what you volunteer for, but call.
    Second, with regard to the intelligence-gathering 
capabilities of this country, they are enormous and the 
Department of Homeland Security relies primarily on them. When 
the Department is denied access from time to time to critical 
information it makes it literally impossible for the Secretary 
and the men and women at the Department to do their job, so 
anything that we could do, starting with filling the vacancy of 
the under secretary for Intelligence and Analysis, in addition 
to changing, again, 10 years after 9/11 and I look at Boston 
and I find out the chief of police didn't have access to the 
information that I think he should have had, is still somewhat 
troubling.
    Again, it is a--people think that Homeland Security somehow 
has unlimited access to the intelligence world and we don't. 
They selectively share with us when they think it is 
appropriate--I didn't mean with us, but, you know, once the 
Secretary always the Secretary, I guess--but they selectively 
share, and at the end of the day I don't think--it does not--it 
undermines the critical role the Department plays.
    Ms. Jackson Lee. The connecting of the dots--I know my time 
is--just if you just want to do a sentence on that, it has been 
an on-going problem.
    Mr. Ridge. Yes.
    Ms. Jackson Lee. As I yield back to you, if you just answer 
that one part of it. I just want to thank all of our homeland 
security employees for their service. But connecting of the 
dots?
    Mr. Ridge. Well, you know, it is an expression we use--been 
used since September 11, and one of the challenges the 
Department of Homeland Security has, if the broader 
intelligence community doesn't put the dots in front of them it 
is pretty difficult to connect. One of the challenges I have 
said--and I shared this and I don't think Mr. Johnson would 
mind, but I told him one of the mindsets to--as Secretary was 
you can't secure the country from inside the beltway, and you 
need relationships with the State and the local and the urban 
police and law enforcement community generally. That means you 
have to keep them as up-to-date on relevant information--not 
necessarily actionable intelligence, but relevant information--
so when a time comes that you may ask them to move on behalf of 
the country they--you have built out that base--the knowledge, 
the rapport, but they understand what you are asking of them, 
and it is a lot easier for them to do it if they have been kept 
in the loop.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member.
    Chairman McCaul. Let me thank the Secretary for----
    Ms. Jackson Lee. Thank you for your service.
    Chairman McCaul [continuing]. Thank you for your 
outstanding testimony here today. It has been very helpful to 
the committee.
    I would be remiss if I didn't ask just one last question of 
you. I think we have covered the vacancy issue fairly well, but 
you mentioned that the threat level, you believe, is greater 
today than it was 10 years ago, and I know there have been some 
efforts to sort of downplay the threat and say it is pre-9/11. 
I can't think of a better witness to ask this question in terms 
of, you know, the pre-
9/11 threat versus what the threat is today.
    Mr. Ridge. Well, you know, obviously I don't have access to 
the kind of information I used to have, but if you just go into 
open-source intelligence gathering and see the extent that al-
Qaeda has expanded its operations beyond Afghanistan and 
Pakistan and into Yemen, into Libya, into North Africa, and you 
see the more public reporting about other terrorist-related 
organizations, some wannabe, some connected, there are more of 
them and they are located in more diverse locations around the 
world, and that is just terrorist organizations. You add on top 
of that the digital climate, the cybersecurity threats that we 
have.
    So I think it is a more complex world. I think it is a more 
dangerous world because I think the threat of terrorism today 
is no longer just al-Qaeda but similar organizations. But let's 
not underestimate what al-Qaeda has done. It has expanded, and 
whether we are in Afghanistan or out, Iraq or out, they will 
continue to expand.
    So I think one of the two conditions that the country and 
the rest of the world is going to have to deal with perhaps 
forevermore is the digital security and the threat of 
terrorism. That is the permanent conditions, unfortunately, 
within the world, and that is what is so troubling about so 
many vacancies within the Department.
    Chairman McCaul. I couldn't agree with you more.
    I think the Ranking Member wants to close.
    Mr. Thompson. Well, since we don't want to shut this down, 
Mr. Secretary, one of the challenges is resources. If, in fact, 
the dangers are more based on open-source information and take 
our word for it, it might be right, would it not be incumbent 
upon Members of Congress to put the resources in a position to 
address those challenges?
    Mr. Ridge. Congressman, I would say you ask me to respond 
to a very general question which I am not comfortable in 
responding to. I would just simply say I am open to more 
resources, but where? I mean, I must tell you, when I see that 
we have gone from 180,000 to 240,000 people, I have got to tell 
you, I don't know where the other 60,000 people are. I mean, I 
know you need to put more people in ICE; I know you need to put 
more people on the borders. I get all that.
    So in my judgment, resources doesn't necessarily mean more 
people. Let's assume you need every single one of them every 
single day.
    I would answer your question that I am always prepared to 
accept more resources if they are targeted toward a specific 
purpose, and I think obviously that is not a conversation we 
are going to have publicly unless you want to. But I never turn 
my back on resources, but I will tell you, when the first year 
I was Secretary of Department of Homeland Security I said, 
``Before you give me more money let's see how we are spending 
the money we already have.''
    I mean, there may be no more resources, but I don't think 
more resources means more bodies. It probably means more and 
better technology. Perhaps it means more training.
    There are a variety of things where you could probably 
convince me you needed more resources. I would just answer 
generally, sir, that I suspect even in my own mind there are 
some places you need more, but I would like to be more specific 
in my response.
    Generally, just an increase in the budget doesn't mean 
anything to me.
    Mr. Thompson. You know, we can always respond like you did, 
and you took the personnel route. But you know there is 
technology, there are a lot of things that we can address. But 
if the dangers are greater then either you have to improve 
technology and equipment, you will have to do some things 
rather than cut, cut, cut.
    I think my challenge and comment to you is for this 
committee to look very seriously at what those dangers are and 
resist this notion to cut, cut, cut when we know in good 
conscience that things are not safe. That is my point to you, 
you know, since you said you had some open-source information. 
I am just saying to you that there are some issues on a fiscal 
side.
    Mr. Ridge. Well, I think, Congressman, if I might, I 
suspect there is always a need to upgrade the technology the 
men and women have at their disposal, training at their 
disposal. As I look at the construct of the Department now, it 
is tough for me to imagine you need more people, but more and 
better technology is certainly is always an appropriate 
investment in making America more secure. That is for certain.
    But having said that, at the end of the day you can have 
more people and more technology but if you don't have the 
information in a timely way it is still going to be difficult 
for the Department and the men and women in the Department to 
do their job.
    Mr. Thompson. I agree with you, but let me just say that 
only 37 percent of the people who are employed at DHS, based on 
information we have received, say that they have the sufficient 
resources to get the job done. So there are some issues out 
here that I think as Members of Congress we need to grapple 
with.
    Mr. Ridge. Well, it is interesting with resources we didn't 
talk personnel, and I think that is very appropriate discussion 
as to what those resources need to be. I remember talking to 
Customs and Border Protection years gone by and you and your 
Congress very appropriately I think there are another 15,000 or 
20,000 down there, but they said, ``We could still use more and 
better technology to help us do our jobs,'' and there is a lot 
of it out there almost off the shelf that you could put in.
    If that is what you are talking about then I think you and 
I would probably be in agreement. Better technology empowering 
these men and women to do a more effective job is always a good 
investment.
    Chairman McCaul. If I could just associate myself with 
that, I know, particularly with respect to the border, I know 
that technology is really going to be the answer down there. 
With any luck, we are going to pass a budget today that, as we 
look at sequestration, some of the impacts it has had, 
particularly on our readiness and our National security 
issues--I know the Navy has had to pull out of interdiction, 
the Coast Guard has had to scale back on interdiction efforts. 
We try to push the border out but it may come closer.
    There may be some relief, I think, for some of these 
National security issues with this vote that we have today.
    So I see we have a Member that just arrived.
    Mr. Horsford, you are recognized.
    Mr. Horsford. Thank you, Mr. Chairman, to you and to the 
Ranking Member, Mr. Thompson.
    Obviously this is a very timely hearing and a very 
important one, and I want thank Secretary Ridge for being here.
    I am a new Member and still learning the ropes, but what I 
have learned so far is obviously the Department of Homeland 
Security is the third-largest Federal agency with critical 
mission and security of our National interests as their primary 
focus. We need to do everything we can to make sure they are 
structured properly, they are resourced properly, that the 
coordination between various departments and agencies--
divisions and agencies within the Department are working 
effectively.
    So I guess my question to you, Mr. Ridge, is kind of the 
lack of unification among the Department headquarters and its 
components is often cited as a contributing factor to low 
morale because many of the legacy employees tend to cling to 
some of the old ways of doing things before the Department was 
restructured. As the first Secretary, you were responsible for 
transforming the newly-created agency into one unified 
Department.
    So what were the challenges you faced in this process at 
that time and what do you think or how do you think bringing 
together 22 separate and distinct agencies impacted employee 
morale then, and what are your observations of it now?
    Mr. Ridge. Well first of all, I thank you for your 
question. The consolidation of some of these headquarters 
ultimately at Saint Elizabeth's I think would serve the country 
and the new Secretary down the road very well. It would be very 
difficult--it is manageable but it is more than logistics.
    When you have got Secret Service one place, and you have 
got Coast Guard another, and you have got Border Patrol here, 
and so the Secretary does not have the opportunity to interact 
with the leaders of his--these different entities except on an 
ad hoc basis. We had to schedule time for each other, and I 
don't think that is necessarily a good thing.
    So I look forward to the consolidation of headquarters with 
some of the leadership of the critical agencies there.
    Second, I always felt that the men and women of Homeland 
Security--people said, ``How difficult was it to get this 
started?'' I said, right after 9/11 these men and women had a 
sense of mission and purposefulness that I would daresay they 
probably didn't quite feel the same way on September 10.
    But finally, the broader community--Congress and the rest 
of the world--realized how important Customs is, how important 
Immigration is, and how important the Coast Guard is. So I 
think there was a sense of mission that I don't think they have 
lost.
    I don't know if you were here when your Congressman 
Thompson talked about resources. I think the men and women 
there can always use additional training and more equipment to 
do their job, so I don't doubt their commitment to the mission. 
I just think it is easier for the Secretary--he can be much 
more effective if all these vacancies are filled, and the 
actings become permanent, and that way the leadership team is 
accountable but also the organization knows they are going to 
be accountable to permanent leadership within the organization, 
as well.
    So I think everything this committee has done to date in 
concert and encouraging the folks on the other side of this 
building to do their job and do it expeditiously is a very 
positive thing for the Department and for Secretary Johnson. He 
needs help.
    There are only three people who know how complex his job 
is. He could use a full team. I mean, I wouldn't want to be 
playing--as bad as the Redskins are this year, I am not sure I 
would want to be playing them with only 8 people on each side 
of the line against 11. You just need a full team.
    Mr. Horsford. If I could follow up, Mr. Chairman, one thing 
that we have heard, and it may have come up earlier, is the 
suggestion, even from those in the Department, of kind of a 
chief operating officer role--someone who can handle more of 
the day-to-day management coordination and to allow the 
Secretary and the other agency heads to, you know, work on 
bigger policy or implementation objectives. Do you agree with 
that recommendation?
    Mr. Ridge. Well, that is a title. I think you can make that 
assignment. I had a great relationship with Admiral Loy, who 
was my deputy, and there was a division of labor, and I would 
say informally if you talk to my team, many of them saw him as 
the COO. I mean, I would meet with the agencies' heads on 
individual initiatives, occasionally meet together as a group, 
but in terms of overseeing much of the day-to-day operation, my 
deputy did that.
    Whether or not you would add, in addition to the deputy, a 
COO, I am not sure--I guess I could be convinced, but I really 
think that that is a very appropriate role for the No. 2. That 
is why the No. 2 position is so critically important, as some 
of these others are, to a complete and effective and 
functioning office.
    By designation might help, but I think that is--in my--
during my tenure that is what Admiral Loy did.
    Chairman McCaul. Well, thank you.
    Mr. Secretary, let me just say thank you, again, for being 
here today. Thank you for your service, and we look forward to 
having you back.
    Mr. Ridge. Mr. Chairman, Ranking Member, let me thank you 
very much.
    Mr. Thompson, upon reflection, I cannot miss the 
opportunity to say there is one group of people within the 
Department of Homeland Security that are multi-tasked and 
underfunded on an annual basis. It is the United States Coast 
Guard. So if you are looking to me to make a specific 
recommendation where they probably could use more personnel, 
they could certainly use more and better and newer equipment, 
it is a grossly underfunded, over-achieving, incredible group 
of men and women in our United States Coast Guard.
    Mr. Thompson. Couldn't agree with you more. It is on the 
record. We will have some budget conversations.
    Mr. Ridge. Good. Thank you, sir.
    Thank you very much. It has been a privilege to serve 
before--to testify before you and I look forward to future 
opportunities. Thank you very much.
    Chairman McCaul. Privilege to have you here.
    This panel is dismissed.
    The committee will come back to order. I am pleased to 
announce the second panel of today's hearing. I appreciate your 
patience. I know it is lunchtime; we all have plans that we are 
missing right now.
    But with that, let me introduce the witnesses. First, David 
Maurer became a director in the Government Accountability 
Office homeland security and justice team in 2009. He leads the 
GAO's work reviewing DHS and DOG management issues. His recent 
work covers DHS management integration, nuclear smuggling, 
research, and development at DHS, DOJ grant management, 
crowding in the Federal prison system, and counterterrorism 
staffing vacancies at the FBI. That is quite a resume.
    Next we have Mr. Max Stier is the president and CEO of the 
Partnership for Public Service. Partnership is a nonprofit, 
nonpartisan, mission-driven organization working to revitalize 
our Federal Government by transforming the way Government 
works. Mr. Stier has worked previously in all three branches of 
Government, including as an aide to Congressman Jim Leach, a 
clerk for Justice David Souter at the U.S. Supreme Court, and 
deputy general counsel for the Department of Housing and Urban 
Development.
    Thank you for being here today.
    Last but not least, Ms. Colleen Kelley is the National 
president of the National Treasury Employee Union, or NTEU, the 
Nation's largest independent Federal sector union. It 
represents 150,000 employees and 31 separate Government 
agencies, including over 24,000 Customs and Border Protection 
employees stationed at 329 ports of entry.
    The full statements of the witnesses will appear in the 
record.
    The Chairman now recognizes Mr. Maurer for 5 minutes.

 STATEMENT OF DAVID C. MAURER, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Great. Thank you, Chairman McCaul and 
Representative Clarke. It is a pleasure to be here this morning 
to discuss employee morale and senior-level vacancies at the 
Department of Homeland Security.
    Over the past year GAO has issued reports on DHS's efforts 
to improve its morale and fill vacant positions. I would like 
to briefly highlight and update some of the key findings from 
that work.
    As you well know, morale has been a long-standing problem 
at DHS. Our report last year drew on 2011 survey results, and 
at that time DHS was 33rd out of 37 large agencies in job 
satisfaction.
    The encouraging news then was that DHS's scores had slowly 
but steadily improved from 2006 to 2011. However, since our 
report, DHS morale scores have declined. This year DHS ranked 
next-to-last among 37 large agencies in employees' view of 
leadership.
    Of particular concern, DHS employee satisfaction scores 
dropped 7 percentage points since 2011, and that is more than 
the Government-wide decrease of 4 percent. In other words, the 
gap between DHS and the rest of the Government is growing.
    DHS-wide results mask significant differences across the 
components. Coast Guard and the U.S. Citizen and Immigration 
Service have higher job satisfaction than Government-wide 
averages while TSA, ICE, and the Science & Technology 
Directorate were all at least 10 points lower than the 
Government-wide figures.
    The wide variation in morale across and within components 
demonstrates a key challenge. Across such a large, diverse 
department there is no single morale problem and there is no 
single fix.
    In fact, keep this idea in mind: Morale is a symptom of 
other problems. To improve morale you need to look behind the 
numbers. Survey scores don't tell you why people responded the 
way they did; they don't tell you the underlying problems, and 
they don't tell you what you need to do to fix those problems.
    DHS, to its credit, has been working for years to get 
behind their morale scores. They have done focus groups, 
detailed analysis, and created senior-level groups to identify 
and then address the root causes behind low morale.
    But last year we found these measures didn't go far enough, 
so we recommended and DHS agreed to implement more robust root 
cause analysis of what is contributing to low morale scores. 
Since our report, DHS has taken action but still has more work 
ahead before we can close our recommendations as implemented.
    I will now briefly turn to the issue of senior-level 
vacancies. DHS used to have a significant problem in vacancies 
for SES positions. Our report last year found that 25 percent 
of SES positions were vacant in 2006.
    There were a variety of efforts. By the end of 2011 DHS was 
able to bring that vacancy rate down to 10 percent, which is 
comparable to Government-wide averages. In preparing for 
today's hearing, we obtained updated numbers from DHS which 
show SES vacancies are now about 11 percent.
    For politically-appointed positions the story is different. 
The number of vacant political positions at DHS has doubled 
since last year. Some of these vacancies are currently filled 
by someone in an acting capacity, including the Secretary, 
deputy secretary, and three under secretaries.
    So what impact do senior-level vacancies have? Well, when 
you compare the analysis from our two reports you find 
something interesting--namely, those components with the 
highest levels of SES vacancy rates were also the components 
with the lowest morale scores.
    Now, the relationships between these two factors isn't 
clear. Maybe low morale contributes to higher vacancies; maybe 
it is the other way around. Or maybe there are some other 
factors that somehow explain both of these problems.
    But here is the point: Low morale and high vacancies are 
symptoms. A robust root cause analysis would help DHS 
understand the underlying problems and better position the 
Department to address them.
    This won't be easy. There are likely many different 
underlying reasons within and across DHS components. It will 
take time, resources, continued senior leadership commitment, 
and recognition there will not be a one-size-fits-all solution.
    Only DHS can determine the root causes of its morale 
problems and identify and implement the necessary fixes. My 
hope is that today's hearing and our work provides useful 
insights and helps DHS become an even better place to work for 
its Department--for its employees.
    Mr. Chairman, thank you for the opportunity to testify. I 
look forward to your questions.
    [The prepared statement of Mr. Maurer follows:]

                 Prepared Statement of David C. Maurer
                           December 12, 2013

  DEPARTMENT OF HOMELAND SECURITY.--DHS'S EFFORTS TO IMPROVE EMPLOYEE 
              MORALE AND FILL SENIOR LEADERSHIP VACANCIES
                              GAO-14-228T

    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: I appreciate the opportunity to discuss our work on morale 
and senior leadership vacancy rates at the Department of Homeland 
Security (DHS).
    DHS is the third-largest Cabinet-level department in the Federal 
Government, employing more than 240,000 staff in a broad range of jobs, 
including aviation and border security, emergency response, 
cybersecurity, and critical infrastructure protection. The DHS 
workforce is situated throughout the Nation, carrying out activities in 
support of DHS's missions to: (1) Prevent terrorism and enhance 
security, (2) secure and manage the Nation's borders, (3) enforce and 
administer immigration laws, (4) safeguard and secure cyberspace, and 
(5) ensure resilience to disasters.
    Since it began operations in 2003, DHS has faced challenges in 
implementing its human capital functions, and Federal surveys have 
consistently found that DHS employees are less satisfied with their 
jobs than the Government-wide average of Federal employees. For 
example, DHS's scores on the 2012 and 2013 Office of Personnel 
Management (OPM) Federal Employee Viewpoint Survey (FEVS)--a tool that 
measures employees' perceptions of whether and to what extent 
conditions characterizing successful organizations are present in their 
agency--and the Partnership for Public Service's 2012 rankings of the 
Best Places to Work in the Federal Government, were lower than 
Government-wide averages. For example, DHS ranked 36th of the 37 
agencies that participated in the 2013 FEVS when it came to both the 
Leadership and Knowledge Management Index, which indicates the extent 
employees hold their leadership in high regard, both overall and on 
specific facets of leadership, and the Job Satisfaction Index, which 
indicates the extent employees are satisfied with their jobs and 
various aspects thereof. In particular, DHS's percentage of positive 
responses for the Leadership and Knowledge Management Index was 9 
percentage points below the Government-wide average and 7 percentage 
points below the Government-wide average for the Job Satisfaction 
Index.\1\ We have previously reported that successful organizations 
empower and involve their employees to gain insights about operations 
from a front-line perspective, increase their understanding and 
acceptance of organizational goals and objectives, and improve 
motivation and morale.\2\
---------------------------------------------------------------------------
    \1\ In the 2013 FEVS, 50 percent of DHS's employees gave positive 
responses on the Leadership and Knowledge Management Index whereas 59 
percent of employees Government-wide gave positive responses. 
Similarly, 57 percent of DHS employees gave positive responses on the 
Job Satisfaction Index, compared with the Government-wide average of 64 
percent.
    \2\ GAO, High-Risk Series: Strategic Human Capital Management, GAO-
03-120 (Washington, DC: Jan. 2003).
---------------------------------------------------------------------------
    In addition, Congress has raised questions about DHS's ability to 
hire and retain senior executives. For example, a May 2013 report from 
the House Committee on Appropriations raised concerns about the number 
of vacant senior leadership positions at DHS.\3\ DHS has also, in its 
human capital strategic plan, reported on facing challenges in 
recruiting and hiring qualified individuals to fill vacancies at the 
senior executive level. As we reported in March 2003, high-performing 
organizations understand that they need senior leaders who are 
accountable for results, drive continuous improvement, and stimulate 
and support efforts to integrate human capital approaches with 
organizational goals and related transformation.\4\
---------------------------------------------------------------------------
    \3\ See H.R. Rep. No. 113-91, at 14-15 (May 29, 2013) (Dep't of 
Homeland Security Appropriations Bill, 2014, H.R. 2217, 113th Cong. (2d 
Sess. 2013).
    \4\ GAO, Results-Oriented Cultures: Creating a Clear Linkage 
between Individual Performance and Organizational Success, GAO-03-488 
(Washington, DC: Mar. 14, 2003).
---------------------------------------------------------------------------
    Within DHS, the Office of the Chief Human Capital Officer (OCHCO) 
is responsible for implementing policies and programs to recruit, hire, 
train, and retain DHS's workforce. As the Department-wide unit 
responsible for human capital issues within DHS, OCHCO also provides 
guidance and oversight related to morale issues to the DHS components. 
In addition, OCHCO provides OPM with a DHS-wide action plan every other 
year and provides a survey analysis and action planning tool to 
components that they are to use in response to FEVS results to develop 
action plans for improving employees' positive scores.
    My testimony today focuses on key findings of our prior work 
related to morale and leadership vacancies at DHS, and addresses: (1) 
How DHS's employees' workforce satisfaction compares with that of other 
Federal Government employees and the extent to which DHS is taking 
steps to improve employee morale, and (2) vacancies in DHS senior 
leadership positions. This statement is based on our February 2012 and 
September 2012 reports and selected updates conducted in December 2013 
related to DHS efforts to address recommendations we made in our prior 
work.\5\ For our February 2012 and September 2012 reports, among other 
methodologies, we analyzed survey evaluations for the 2011 FEVS, 
reviewed senior leadership vacancy and attrition information for DHS 
and selected DHS components, and interviewed DHS officials. We further 
reviewed DHS and component 2011 action planning documents from U.S. 
Immigration and Customs Enforcement (ICE), the Transportation Security 
Administration (TSA), the Coast Guard, and U.S. Customs and Border 
Protection (CBP). To determine Senior Executive Service (SES) vacancy 
rates from fiscal years 2006 through 2011, we analyzed Departmental and 
component information on senior-level allocations from OPM and on-board 
data by pay period from the National Finance Center. More detailed 
information on the scope and methodology appears in our February 2012 
and September 2012 reports. For the selected updates, we analyzed 
results for the 2012 and 2013 FEVS and DHS leadership vacancy data, and 
interviewed agency officials on the reliability of these data and DHS's 
progress in implementing our recommendations. We provided information 
in this statement to DHS for review to ensure its accuracy. The 
Department provided technical comments, which we incorporated, as 
appropriate. We conducted the work on which this statement is based in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \5\ GAO, Department of Homeland Security: Taking Further Action to 
Better Determine Causes of Morale Problems Would Assist in Targeting 
Action Plans, GAO-12-940 (Washington, DC: Sept. 28, 2012) and DHS Human 
Capital: Senior Leadership Vacancy Rates Generally Declined, but 
Components' Rates Varied, GAO-12-264 (Washington, DC: Feb, 10, 2012).
---------------------------------------------------------------------------
 FULLY IMPLEMENTING GAO'S PRIOR RECOMMENDATIONS FOR BETTER DETERMINING 
    CAUSES OF MORALE PROBLEMS WOULD ASSIST IN TARGETING ACTION PLANS

    In September 2012, we found that DHS employees reported having 
lower average morale than the average for the rest of the Federal 
Government, but morale varied across components and employee groups 
within the Department.\6\ Specifically, we found that DHS employees as 
a whole reported lower satisfaction and engagement--the extent to which 
employees are immersed in their work and spending extra effort on job 
performance--than the rest of the Federal Government according to 
several measures. In particular, the 2011 FEVS showed that DHS 
employees had 4.5 percentage points lower job satisfaction and 7.0 
percentage points lower engagement. Although DHS employees generally 
reported improvements in Job Satisfaction Index levels from 2006 to 
2011 that narrowed the gap between DHS and the Government average, 
employees continued to indicate less satisfaction than the Government-
wide average.\7\ For example, DHS employees reported satisfaction 
increased by 5 percentage points, from 59 percent in 2006 to 64 percent 
in 2011, but scores in both years were below the Government-wide 
averages of 66 percent and 68 percent, respectively. As we reported in 
September 2012, the Partnership for Public Service analysis of FEVS 
data also indicated consistent levels of low employee satisfaction for 
DHS relative to those of other Federal agencies. As with DHS's 2011 
ranking, 31st of 33 large Federal agencies, the Partnership for Public 
Service ranked DHS 28th of 32 in 2010, 28th of 30 in 2009, and 29th of 
30 in 2007 in the Best Places to Work ranking on overall scores for 
employee satisfaction and commitment.\8\
---------------------------------------------------------------------------
    \6\ GAO-12-940.
    \7\ Two thousand six is the first year in which Job Satisfaction 
Index data were made available and can be compared between DHS and the 
rest of the Federal Government.
    \8\ Partnership for Public Service and the Institute for the Study 
of Public Policy Implementation at the American University School of 
Public Affairs, The Best Places to Work in the Federal Government. The 
Partnership for Public Service's ranking cited here is composed of 
rankings of large agencies, defined as agencies with more than 2,000 
full-time permanent employees. The Partnership for Public Service did 
not publish Best Places to Work rankings in 2008.
---------------------------------------------------------------------------
    As we reported in September 2012, our analyses of 2011 FEVS results 
further indicated that average DHS-wide employee satisfaction and 
engagement scores were consistently lower when compared with average 
non-DHS employee scores in the same demographic groups, including 
supervisory status, pay, and agency tenure groups. For example, within 
most pay categories, DHS employees reported lower satisfaction and 
engagement than non-DHS employees in the same pay groups. In addition, 
we reported that DHS was not more likely than other agencies to employ 
the types of staff who tended to have lower morale across all agencies. 
Instead, employees in the various groups we analyzed had lower morale 
at DHS than the same types of employees at other agencies. We concluded 
that the gap between DHS and Government-wide scores may be explained by 
factors unique to DHS, such as management practices and the nature of 
the agency's work, or by differences among employees we could not 
analyze.
    In September 2012, we also found that levels of satisfaction and 
engagement varied across components, with some components reporting 
scores above the non-DHS averages. For example, employees from CBP and 
the Coast Guard were 1 and 1.5 percentage points more satisfied than 
the rest of the Government, respectively, according to the 2011 FEVS 
Job Satisfaction Index. We further reported that several components 
with lower morale, such as TSA and ICE, made up a substantial share of 
FEVS respondents at DHS, and accounted for a significant portion of the 
overall difference between the Department and other agencies. For 
example, survey respondents representing the approximately 55,000 
employees at TSA and approximately 20,000 employees at ICE were on 
average 11.6 and 7.9 percentage points less satisfied than the rest of 
the Government, respectively.\9\ Job satisfaction and engagement varied 
within components as well. For example, employees in TSA's Federal 
Security Director staff reported higher satisfaction (by 13 percentage 
points) and engagement (by 14 percentage points) than TSA's airport 
security screeners. Within CBP, Border Patrol employees were 8 
percentage points more satisfied and 12 percentage points more engaged 
than CBP field operations employees.\10\ On the basis of our findings 
we concluded that given this variation across and within components, it 
was imperative that DHS understand and address employee morale problems 
through targeted actions that address employees' underlying concerns.
---------------------------------------------------------------------------
    \9\ Estimates of job satisfaction have a 95 percent margin of error 
of no more than plus or minus 6.3 percentage points.
    \10\ All the differences within components discussed here are 
distinguishable from zero at the 0.05 level.
---------------------------------------------------------------------------
    In our September 2012 report, we also found that DHS and the 
selected components had taken steps to determine the root causes of 
employee morale problems and implemented corrective actions, but that 
the Department could strengthen its survey analyses and metrics for 
action plan success. To understand morale problems, DHS and selected 
components took steps, such as implementing an exit survey and 
routinely analyzing FEVS results. Components GAO selected for review--
ICE, TSA, the Coast Guard, and CBP--conducted varying levels of 
analyses regarding the root causes of morale to understand leading 
issues that may relate to morale. DHS and the selected components 
planned actions to improve FEVS scores based on analyses of survey 
results, but we found that these efforts could be enhanced. 
Specifically, 2011 DHS-wide survey analyses did not include evaluations 
of demographic group differences on morale-related issues, the Coast 
Guard did not perform benchmarking analyses, and it was not evident 
from documentation the extent to which DHS and its components used root 
cause analyses in their action planning to address morale problems. As 
we reported in September 2012, without these elements, DHS risked not 
being able to address the underlying concerns of its varied employee 
population. We therefore recommended that DHS's OCHCO and component 
human capital officials examine their root cause analysis efforts and, 
where absent, add the following: Comparisons of demographic groups, 
benchmarking against similar organizations, and linkage of root cause 
findings to action plans.
    In addition, in September 2012, we found that despite having broad 
performance metrics in place to track and assess DHS employee morale on 
an agency-wide level, DHS did not have specific metrics within the 
action plans that were consistently clear and measurable. For example, 
one way the Coast Guard intended to address low-scoring FEVS topics was 
through improving employee training options, which it sought to measure 
by whether it developed e-learning courses for new employees. However, 
we found that this measure lacked key information that would make it 
more clear--namely, the course content or the specific training being 
provided--and did not list quantifiable or other measure values to 
determine when the goal had been reached, such as a target number of 
new employees who would receive training. As a result, we concluded 
that DHS's ability to assess its efforts to address employee morale 
problems and determine if changes should be made to ensure progress 
toward achieving its goals was limited. To help address this concern, 
we recommended that DHS components establish metrics of success within 
their action plans that are clear and measurable.
    DHS concurred with our two recommendations and has taken steps 
since September 2012 to address them. However, as of December 2013, DHS 
has not yet fully implemented these recommendations.
  <bullet> Enhancing root cause analysis.--As of December 2013, DHS 
        OCHCO had created a checklist for components to consult when 
        creating action plans to address employee survey results. The 
        checklist includes instructions to clearly identify the root 
        cause associated with each action item and to indicate whether 
        the action addresses the root cause. In addition, according to 
        DHS OCHCO officials, OCHCO, CBP, ICE, and TSA completed 
        demographic analysis of the 2012 FEVS results, but were not 
        certain of the extent to which other components had completed 
        analyses. However, according to these officials, difficulties 
        in identifying comparable organizations limited components' 
        benchmarking efforts. For example, while CBP identified a 
        Canadian border security organization with which CBP officials 
        intend to benchmark employee survey results, other DHS 
        components did not find organizations, such as airport security 
        organizations, against which to benchmark. OCHCO officials did 
        not elaborate, however, on why it was difficult to find 
        organizations against which to benchmark. We recognize that 
        there can be some challenges associated with identifying 
        organizations against which to benchmark. However, we continue 
        to believe that DHS components could benefit from doing so as, 
        according to the Partnership for Public Service, benchmarking 
        agency survey results against those of similar organizations 
        can provide a point of reference for improvements. DHS 
        components and DHS-wide efforts have not yet fully examined 
        their root cause analysis efforts and, where absent, added 
        comparisons of demographic groups, benchmarking against similar 
        organizations, and linkage of root cause findings to action 
        plans, as we recommended in September 2012.
  <bullet> Establishing metrics of success.--OCHCO officials stated 
        that, as of December 2013, they had directed component human 
        capital officials to reevaluate their action plans to ensure 
        that metrics of success were clear and measurable. However, in 
        December 2013 we reviewed the 2013 action plans produced by the 
        four DHS components we selected for our September 2012 report--
        ICE, CBP, TSA, and the Coast Guard--and found that their 
        measures of success did not contain clear and measurable 
        targets. Of the 53 measures of success reviewed across the four 
        components, 16 were unclear and 35 lacked measurable 
        targets.\11\ For example, one action item, to create a clear 
        and compelling direction for ICE, is to be implemented by 
        creating a work group consisting of the top six leaders in the 
        agency together with the heads of ICE's policy and public 
        affairs offices to create a clear and compelling mission and 
        priorities to drive the agency's efforts. To determine whether 
        ICE succeeds in implementing this action item, ICE's measures 
        of success include: (1) Agency creates a mission statement and 
        priority that guide employee focus and behaviors; (2) ICE's 
        first several layers of leadership indicate full support for 
        the hard choices the direction-setting causes; (3) test focus 
        group results; and (4) pulse survey. However, it is not clear, 
        for example, what the ``test focus group results'' and ``pulse 
        survey'' measures of success are measuring, and there are no 
        measurable targets against which to assess success. By ensuring 
        that DHS and component action plans contain measures of success 
        that are clear and include measurable targets, DHS can better 
        position itself to determine if its action plans are effective.
---------------------------------------------------------------------------
    \11\ In November 2002, we identified nine attributes of successful 
metrics that allow agencies to better determine whether they are 
meeting their goals while holding agency staff accountable for 
improving performance. Of these nine attributes, we determined three--
linkage, clarity, and measurable targets--are relevant to our September 
2012 evaluation. The six attributes that we did not evaluate were 
objectivity, reliability, core program activities, balance, Government-
wide priorities, and limited overlap. We did not include these six 
attributes because they were not relevant to employee morale action 
planning efforts. The two attributes evaluated here are defined as 
follows: Clarity.--Determines whether the performance measures are 
clearly stated; and Measurable target.--Determines whether performance 
measures have quantifiable, numerical targets or other measurable 
values, where appropriate. See GAO, Tax Administration: IRS Needs to 
Further Refine Its Tax Filing Season Performance Measures, GAO-03-143 
(Washington, DC: Nov. 22, 2002).
---------------------------------------------------------------------------
    Despite DHS's efforts, since publication of our September 2012 
report, DHS employee morale has declined, and the gap between DHS and 
Government-wide scores has widened in key areas. Specifically, FEVS 
fiscal year 2012 and 2013 survey results released since our 2012 report 
indicate that DHS employees continue to report lower average 
satisfaction than the average for the rest of the Federal Government. 
For example, as shown in figure 1, 2013 FEVS data show that DHS 
employee satisfaction decreased 7 percentage points since 2011, which 
is more than the Government-wide decrease of 4 percentage points over 
that same period of time. As a result, DHS employee satisfaction in 
2013 is 7 percentage points lower than the Government-wide average, a 
difference not seen since 2006. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Moreover, consistent with our reporting in September 2012, morale 
varied across components, as shown in Table 1. For example, while the 
Federal Law Enforcement Training Center and U.S. Citizenship and 
Immigration Service scored above the Government-wide average with 
respect to employee satisfaction, the TSA and the National Protection 
and Programs Directorate scored below the Government-wide average.

 TABLE 1.--DEPARTMENT OF HOMELAND SECURITY (DHS) COMPONENT JOB SATISFACTION AND ENGAGEMENT SCORES, 2013, SORTED
                                         BY JOB SATISFACTION INDEX SCORE
----------------------------------------------------------------------------------------------------------------
                                                          Difference From                       Difference From
                                           Employee       Government-wide        Employee       Government-wide
              Component                  Satisfaction         Average        Engagement Index       Average
                                      Index (percentage     (percentage        (percentage        (percentage
                                           points)            points)            points)            points)
----------------------------------------------------------------------------------------------------------------
Federal Law Enforcement Training                     72                  8                 68                  4
 Center.............................
U.S. Citizenship and Immigration                     69                  5                 67                  3
 Service............................
U.S. Coast Guard....................                 66                  2                 70                  6
Inspector General...................                 65                  1                 64                  0
U.S. Secret Service.................                 62                 -2                 62                 -2
Federal Emergency Management Agency.                 60                 -4                 57                 -7
Office of the Secretary.............                 59                 -5                 62                 -2
U.S. Customs and Border Protection..                 58                 -6                 54                -10
Under Secretary for Management......                 56                 -8                 59                 -5
Office of Intelligence and Analysis.                 56                 -8                 55                 -9
U.S. Immigration and Customs                         54                -10                 52                -12
 Enforcement........................
Transportation Security                              54                -10                 54                -10
 Administration.....................
National Protection and Programs                     54                -10                 51                -13
 Directorate........................
Science and Technology Directorate..                 52                -12                 49                -15
DHS-wide............................                 57                 -7                 56                -8
----------------------------------------------------------------------------------------------------------------
Source.--GAO analysis of DHS data.
Note.--Estimates are based on the U.S. Office of Personnel Management Federal Employee Viewpoint Surveys of
  Federal employees. Because the surveys interviewed a sample of employees, the estimates have a margin of
  sampling error equal to plus or minus 1 percentage point for the population of all permanent, non-seasonal
  Federal employees. The surveys prior to 2012 included these employees only if they worked full-time, whereas
  the 2012 and 2013 surveys included part-time employees. The estimates in this table apply to smaller
  subpopulations of employees within DHS, and generally will have larger sampling errors than estimates for the
  entire population targeted by the survey. As a result, some of the differences we report between DHS and non-
  DHS employees may not be statistically distinguishable from zero.

    In addition, DHS has also consistently scored lower than the 
Government-wide average on the FEVS Leadership and Knowledge Management 
Index, which indicates the extent to which employees hold their 
leadership in high regard, both overall and on specific facets of 
leadership. For example, the index includes questions such as whether 
leaders generate high levels of motivation and commitment in the 
workforce, and whether employees have a high level of respect for their 
organization's senior leaders. From fiscal years 2006 through 2013, DHS 
scored lower than the Government-wide average each year for which 
survey data are available.\12\ While Government-wide scores for this 
index have declined 3 percentage points since 2011, DHS's scores have 
decreased 5 percentage points, widening the gap between DHS and the 
Government-wide average to 9 percentage points. See figure 2 for 
additional detail.
---------------------------------------------------------------------------
    \12\ Because the FEVS was not administered each year, the job 
Leadership and Knowledge Management Index and DHS versus Government-
wide averages are available only for 2006, 2008, 2010, 2011, 2012, and 
2013. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In December 2013, DHS senior officials provided a recent analysis 
they performed of 2012 FEVS results that indicated DHS low morale 
issues may persist because of employee concerns about senior leadership 
and supervisors, among other things, such as whether their talents are 
being well-used. DHS's analysis of the 2012 FEVS results identified 
survey questions that correlated most strongly with index measures, 
such as the Job Satisfaction and Employee Engagement indexes. As noted 
in DHS's analysis, the evaluation assessed the correlations among 
survey items, but did not attempt to identify the root cause for the 
survey results. For example, DHS found that the survey question, ``How 
satisfied are you with the policies and practices of your senior 
leaders?'' was more strongly correlated with the Job Satisfaction 
Index. However, DHS did not do further research to determine the 
specific senior leader policies and practices that affected 
satisfaction or explain why this effect occurred. According to DHS 
senior officials, on the basis of the results of this analysis and the 
Acting Secretary of Homeland Security's review of the 2013 FEVS 
results, the Department plans to launch additional employee surveys to 
probe perspectives on Departmental leadership. As we have previously 
reported, given the critical nature of DHS's mission to protect the 
security and economy of our Nation, it is important that DHS employees 
be satisfied with their jobs so that DHS can retain and attract the 
talent required to complete its work. Accordingly, it is important for 
DHS to continue efforts to understand the root causes behind employee 
survey results.

  SENIOR LEADERSHIP VACANCY RATES GENERALLY DECLINED, BUT COMPONENTS' 
                              RATES VARIED

    In February 2012, we reported that DHS SES vacancy rates, while 
reaching a peak of 25 percent in 2006, had generally declined since 
that time--from 25 percent in fiscal year 2006 to 10 percent at the end 
of fiscal year 2011, as shown in figure 3.\13\
---------------------------------------------------------------------------
    \13\ GAO-12-264. DHS relies on four types of senior leadership 
positions to operate and oversee nearly every activity in the 
Department: (1) Presidential appointments (with or without Senate 
confirmation); (2) SES personnel who carry out managerial, supervisory, 
and policy advisory responsibilities; (3) senior-level personnel who 
provide expertise in complex areas that generally do not have a 
managerial focus; and (4) scientific/professional personnel who are 
specialized professionals who generally have fundamental research and 
development responsibilities. The senior leadership vacancies and 
attrition examined in our February 2012 report focus on SES personnel 
and do not include Presidential appointments. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since February 2012, DHS data indicate that SES vacancy percentages 
have remained relatively stable. In particular, according to DHS data, 
at the end of fiscal year 2012 the SES vacancy rate was approximately 9 
percent, and approximately 11 percent at the end of fiscal year 
2013.\14\
---------------------------------------------------------------------------
    \14\ The 2006-2011 data that we reported in February 2012 presented 
vacancy rates by pay period as reported by the National Finance Center 
and OPM. The data for vacancy percentages at the end of fiscal years 
2012 and 2013 were reported to us by DHS. To determine the reliability 
of the fiscal years 2012 and 2013 data, we interviewed DHS officials 
responsible for maintaining the data. DHS officials stated that they 
have controls in place to ensure the accuracy of these data. For 
example, officials stated that they compare vacancy data in DHS's 
database, which is electronically populated by the National Finance 
Center's database, with personnel data they collect from across the 
Department and track manually. When they identify a discrepancy, they 
research and correct it, if necessary. On the basis of controls in 
place as described by DHS, we determined that these data are 
sufficiently reliable for the purposes of illustrating changes in 
vacancy rates since 2011.
---------------------------------------------------------------------------
    Although there is no generally agreed-upon standard for acceptable 
vacancy rates, to provide perspective, in our February 2012 report we 
compared DHS's rates with those of other agencies subject to the Chief 
Financial Officers (CFO) Act of 1990, as amended.\15\ From fiscal years 
2006 through 2010--the most recent year for which Federal-wide vacancy-
rate data were available at the time of our February 2012 report--DHS 
vacancy rates were at times statistically higher than those at other 
CFO Act agencies.\16\ For example, in fiscal year 2010, the DHS SES 
vacancy rate at the end of the year was 17 percent and ranged from a 
low of 8.4 percent to a high of 20.7 percent during the course of the 
year. This compares with an average vacancy rate across other CFO 
agencies of 9.0 percent at the end of fiscal year 2010. Further, as we 
reported in February 2012, vacancy rates varied widely across DHS 
components. For example, at the end of fiscal year 2011, 20 percent of 
SES positions at the Federal Emergency Management Agency (FEMA) and 
19.5 percent of SES equivalent position at TSA were vacant, compared 
with 5 percent at the Coast Guard and zero percent at the U.S. Secret 
Service. Vacancy rates at components generally declined from 2006 
through 2011.
---------------------------------------------------------------------------
    \15\ See 31 U.S.C.  901 (identifying 24 agencies subject to 
requirements of the CFO Act). As of 2009, CFO Act agencies employed 98 
percent of all Federal employees.
    \16\ GAO-12-264.
---------------------------------------------------------------------------
    In February 2012, we reported that component officials identified a 
number of different factors that may have contributed to component SES 
vacancy rates during that time period, including increases in 
allocations, events like Presidential transitions, and organizational 
factors such as reorganizations. We also found that in fiscal year 
2010, DHS's senior leadership attrition rate was 11.4 percent, and that 
from fiscal years 2006 through 2010, the most frequent separation types 
were retirements and resignations.\17\ DHS's attrition rates were 
statistically higher than the average of other CFO agencies in 2006, 
2007, and 2009, but not statistically different in 2008 and 2010. OCHCO 
officials told us in December 2013 that while they no longer identify 
increases in allocations or organizational factors as significant to 
SES vacancy rates, budgetary constraints can present challenges. For 
example, these officials stated that budgetary constraints make it 
difficult for the Department to fund allocated positions.
---------------------------------------------------------------------------
    \17\ Vacancies are created primarily in two circumstances. First, 
vacancies are created when employees separate from the organization, 
leaving a position unfilled. Second, vacancies are created when 
positions are created but not yet filled--such as when agencies receive 
additional allocations of senior leadership positions for which 
employee have yet to be hired.
---------------------------------------------------------------------------
    In addition, DHS data provided in December 2013 indicate that the 
number of vacant DHS political positions, including positions that do 
and do not require Senate confirmation, doubled from 13 in fiscal year 
2012 to 26 in fiscal year 2013.\18\ From fiscal year 2012 to 2013, the 
total number of filled political positions decreased from 73 to 56.\19\ 
In addition, some political positions were filled temporarily through 
employees serving in ``acting'' positions. In particular, DHS data 
provided in December 2013 indicate that 3 of 13 vacated positions were 
filled with personnel in acting positions at the end of fiscal year 
2012 and 10 of 26 positions were filled in this manner at the end of 
fiscal year 2013.
---------------------------------------------------------------------------
    \18\ DHS officials explained that the data they provided represent 
political positions that have been filled in the recent past, but were 
vacant at the end of fiscal years 2012 and 2013. According to these 
officials, when political positions that are not established by statute 
are vacated, they may be filled by career incumbents, reallocated, or 
not backfilled.
    \19\ According to DHS data, 4 positions were eliminated between the 
end of fiscal year 2012 and the end of fiscal year 2013. According to 
DHS, these positions were non-career Senior Executive Service positions 
that were not backfilled. This included one position in the Office of 
General Council, one position in the Office of the Secretary, one 
position at the Federal Emergency Management Agency, and one position 
at U.S. Citizenship and Immigration Services.
---------------------------------------------------------------------------
    DHS has efforts under way to enhance senior leadership training and 
hiring, but it is too early to assess their effectiveness at reducing 
vacancy rates. In February 2012, we reported that DHS had: (1) 
Implemented a simplified pilot hiring process aimed at attracting 
additional qualified applicants and planned to expand the method for 
all SES, and (2) implemented a centralized SES candidate development 
program aimed at providing a consistent approach to leadership 
training. According to DHS officials, as of December 2013, the pilot 
hiring process had been made available to all DHS components, but the 
Department had not performed analysis to assess the process' impact on 
hiring. In addition, officials stated that in 2013, the first class of 
SES candidates had completed the candidate development program; 
however, the program's impact on leadership training could not yet be 
determined.
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, this completes my prepared statement. I would be happy to 
respond to any questions you may have at this time.

    Chairman McCaul. Thank you, Mr. Maurer. It is good to see 
you again.
    The Chairman now recognizes Mr. Stier for his testimony.

  STATEMENT OF MAX STIER, PRESIDENT AND CEO, PARTNERSHIP FOR 
                         PUBLIC SERVICE

    Mr. Stier. Thank you, Chairman McCaul, Congresswoman 
Clarke. It is a pleasure to be here. Kudos to you for holding 
this hearing. It is a really important issue and this kind of 
focus on management issues you don't see all the time, so it is 
fabulous to be here to be able to talk about some of these 
issues.
    I have two observations and then four recommendations that 
I would like to present. The first observation is the one that 
you started with here, which is, you know, the many leadership 
vacancies are a major problem and need to be addressed.
    Just to take a step further and ask: Why are they there? 
Clearly there has been conversation around the Senate 
confirmation process.
    I would like to also focus on two other issues, one of 
which is the second-term transition preparation process. We 
have done a lot of work at the Partnership for Public Service 
around transition planning.
    It has now become accepted wisdom that coming in, a 
challenger is going to prepare a full team to get ready to 
govern if the candidate actually wins. There has been a lot 
less work done on what a second-term transition should look 
like, and frankly, I think there has been a lot less 
preparation in getting ready for this second-term transition, 
and that is the root cause of why you see so many vacancies not 
only at DHS but other agencies, as well.
    So that is a point of which I think the committee could 
focus on: What should--this will come back again. It may not be 
for, you know, 8 years or whatever it may be, but this problem 
will come back again if there is not more attention paid to it.
    You do need stable, sustained, and superlative leadership 
for any organization to work right, and certainly one as 
complex and important as DHS.
    Second observation is that there is a really tight 
connection between leadership and the morale of any 
organization. What we see in our research through the Employee 
Viewpoint Survey and our Best Places to Work rankings is that 
the No. 1 cause--the No. 1 factor in--that influences the 
engagement of employees is a perspective around the senior 
leadership team. Therefore, investing and making sure you have 
your leadership in place, that they are working together as a 
team, and that they are actually the right folks is critically 
important to the organization's success, whether it is the 
Department of Homeland Security, again, anywhere.
    So four recommendations that I would offer up for this 
committee: No. 1, obviously we need to strengthen the 
leadership capacity here. We have got to fill key vacancies, 
and there has been conversation about how that might happen 
better, the Senate.
    One other proposition I would place towards you is that--
what about trying to convert some of these leadership positions 
to career or term appointments rather than Senate-confirmed 
positions? So there was conversation around the COO. This is 
not an issue of whether you just give the title to somebody, 
but in the Partnership's perspective, we think that the COO 
ought to be a career or term-appointed position so that they 
can actually have continuous attention to management issues 
that, frankly, ought not to change from administration to 
administration, and they are not going to get fixed unless you 
have that long-term horizon.
    GAO--great organization--they have a--their leader there 
has a 15-year term. I think that translates into better 
management in the organization. So you might consider whether 
there are some spots--the under secretary for Management, a 
COO, certainly the CFO, the other management positions--as, 
again, career or term appointments.
    Second, you need to build a cohesive team that is focused 
both on political and career, and that is something that DHS 
needs to, I think, fundamentally view as a whole organization 
priority.
    Third on the leadership side is holding senior leadership 
accountable for the employee engagement. Ray LaHood had a huge 
transformation effort at the Department of Transportation. One 
of the things he did is he baked into the performance plans of 
his career and non-career executives a requirement that they 
focus on employee engagement.
    That is something that you can focus on in oversight or 
legislate, but again, that has real value. That says not just 
what you should be doing, but that this has to be a real 
priority for the leadership team, and that can have 
consequence.
    Second, we need to invest more in leadership training and 
development. You heard from Governor Secretary Ridge that was a 
place he could imagine the need for more investment.
    Frankly, the military model is a much better model. There 
is an investment in people. There is a sense that--there is a 
commitment to the growth of the top leadership and the mid-
level and the entry leadership, as well.
    You don't see that so much on the civilian side of 
Government. We need to see more of that at DHS. We need to see 
more of that, in particular, as a centralized function at the 
agency level and not just within the components, and that would 
have real consequence.
    Third, we need to look at best practice. I mentioned Ray 
LaHood at Department of Transportation, where they had huge 
change.
    We have a report that we did that outlines the big changes 
that were made in six different agencies. They have done a lot 
of different things that could be replicated at DHS.
    There are great things that are happening within DHS--Coast 
Guard was mentioned as a model. We need to look at the bright 
spots and we need to build off those bright spots and then 
evaluate what works. It needs to be not a 1-year proposition 
where these numbers are looked at every year, but rather as a 
multi-year plan where the numbers are simply check-in points.
    Then finally--and this is something that, at No. 4, comes 
out of this report, as well; you are going to hear next from 
Colleen Kelley. All of these organizations worked with Labor 
very effectively to effectuate the changes that they made in 
their organizations, and that is a critical ingredient to 
success.
    So I hope to have an opportunity to answer questions, but 
thank you very much for the time.
    [The prepared statement of Mr. Stier follows:]

                    Prepared Statement of Max Stier
                           December 12, 2013

    Chairman McCaul, Ranking Member Thompson, and Members of the 
subcommittee, thank you for the opportunity to appear before you today. 
I am Max Stier, president and CEO of the Partnership for Public 
Service, a nonpartisan, nonprofit organization dedicated to 
revitalizing the Federal civil service and to transforming the way the 
Federal Government works. It is an honor to be here today to discuss an 
issue of critical importance: The impact of leadership vacancies at the 
Department of Homeland Security (DHS) on employee morale and ultimately 
the mission of the agency.
    I have had the pleasure of testifying before this committee in the 
past about the workforce challenges facing the Department. Those 
challenges remain and we reiterate the recommendations we have 
previously made around strengthening leadership, improving management, 
and holding agency leaders accountable. I hope in my testimony today to 
offer some insight into the impact that leadership vacancies have on 
management and morale, and suggest actions leaders at DHS can take to 
improve employee engagement and ways in which Congress can support 
these efforts.

                          LEADERSHIP VACANCIES

    For a number of years, DHS has been plagued by high turnover in key 
leadership positions and many positions remain vacant or with leaders 
designated in an ``acting'' position for several months or even years. 
The consequences are a lack of sustained leadership attention to 
management issues at the agency, a diminished ability to drive change, 
and a sense among employees that the organization in which they are 
working is not a priority.
    The Partnership has been tracking a number of key leadership 
positions across all Cabinet agencies, and has found that among those 
positions we are tracking, DHS has one of the highest leadership 
vacancies (defined as positions that are unfilled or filled by an 
individual serving in an acting capacity) across Government. In the 
course of our research, a few positions stood out because of the length 
of time it has taken to fill them. At the Transportation Security 
Administration (TSA), for example, it took more than 500 days since the 
beginning of first Obama administration before an administrator for 
Transportation Security was confirmed in June 2010.
    One especially egregious example is the Customs and Border 
Protection Agency. Since President Obama took office in 2009, five 
people have filled in as Commissioner of CBP--one as a political 
appointee from the Bush administration and four in an acting capacity 
or as a recess appointment--but the agency has not had a Senate-
confirmed commissioner. This agency is charged with a critical role in 
securing our National borders, protecting the homeland and managing a 
workforce of over 60,000 people; it is inconceivable to me that the 
current administration would not move quickly and decisively to secure 
Senate confirmation of a permanent commissioner for CBP.
    In addition, there has been significant turnover in other critical 
leadership positions. In 2012 alone, three separate individuals served 
as the under secretary for Intelligence and Analysis. A look at the DHS 
leadership organizational chart in just the last week reveals a 
startling number of positions that are either vacant or being filled by 
leaders in an acting capacity, including the Secretary and deputy 
secretary, under secretary for National Protection and Programs, under 
secretary for Science and Technology, under secretary for Intelligence 
and Analysis, director of U.S. Immigration and Customs Enforcement, DHS 
chief financial officer and inspector general--among others. These 
vacancies at the top have a domino effect on the rest of the agency. 
For example, the under secretary for Management is currently serving as 
the acting deputy secretary, causing the under secretary for Management 
position to be filled by someone in an acting role.
    The history of chronic and lengthy vacancies at the Department, and 
the high number of critical positions without a Senate-confirmed leader 
today, raise important questions about the preparation, or lack of 
preparation, that the current administration devoted to second-term 
planning. The Partnership for Public Service has done extensive 
research on Presidential transitions and transition planning. 
Transitions to a new administration are usually subject to thoughtful, 
comprehensive planning, and the selection of key personnel to serve the 
new President is a high priority that requires time and resources. In 
contrast, transitions from a first to a second term are usually an 
afterthought. A second term should be treated as an opportunity to hit 
``reset,'' reevaluate objectives, and rethink the talent the 
administration has and the talent it needs. Vacancies in a second term 
are inevitable, and some may even be desirable--but the failure to 
prepare for them and to identify successors well in advance is both 
unfortunate and short-sighted.
    Further, these vacancies send a discouraging signal to employees 
that the organizations in which they serve are not a priority. No 
matter how effectively an individual may be leading the workforce as an 
acting agency head--and the Department has had some outstanding 
individuals serve in acting capacities, including the current acting 
Secretary and acting deputy secretary--there is no substitute for 
stable, sustained leadership. The Partnership believes that frequent 
turnover or lengthy vacancies in senior political positions diminish 
needed focus on employee satisfaction and performance issues and are 
likely contributing factors to low morale at DHS today.

                          MORALE AT DHS TODAY

    The Partnership for Public Service, with support from Deloitte and 
the Hay Group, produce the annual Best Places to Work in the Federal 
Government rankings. The rankings are based on the results of the 
Federal Employee Viewpoint Survey (FEVS) administered by the Office of 
Personnel Management and provide a detailed view of employee 
satisfaction and commitment across Federal agencies and subcomponents. 
Employee satisfaction and commitment are two necessary ingredients in 
developing high-performing organizations and attracting top talent. The 
rankings are also an important tool for Congressional oversight and for 
ensuring that employee satisfaction is a top priority for Government 
managers and leaders. They provide a mechanism for holding agency 
leaders accountable for the health of their organizations, serve as an 
early warning sign for agencies in trouble, offer a roadmap for 
improvement and give job seekers insights into how Federal employees 
view their agencies.
    The Partnership will be releasing the 2013 Best Places rankings on 
December 18, so we do not have the latest numbers to share with you 
today. We can, however, share some general trends we are observing and 
also point to some specific responses from the 2013 Federal Employee 
Viewpoint Survey, which was released on November 8, 2013.
Highlights from the 2012 Best Places rankings
    DHS consistently ranks among the lowest scoring agencies in Best 
Places to Work, with the DHS employee satisfaction score in decline for 
2 years (2010-2012). The overall index score in 2012 was 5.7 points 
lower than it was in 2010. This mirrors Government-wide trends, but DHS 
has declined by a greater amount than the Federal Government overall 
during that same period. Of particular note, DHS has very low scores 
for effective leadership compared to other large agencies. For example, 
in the 2012 rankings, DHS ranked 19 out of 19 large agencies--dead 
last--in effective leadership categories related to empowerment, 
fairness, and senior leaders. This is troubling because effective 
leadership is consistently found to be the No. 1 driver of employee 
satisfaction across Government and at DHS.
    Also concerning is the fact that in the 2012 rankings DHS ranked 
last--18 out of 18 large agencies--among employees under 40 as well as 
employees over 40. This indicates that DHS may have difficulty 
recruiting the next generation of talent and also retaining mid-level 
and senior leaders.
    Several of DHS's subcomponents, including the Office of the Under 
Secretary of Science and Technology Policy (ranked 292 out of 292), 
Intelligence and Analysis (ranked 290 out of 292), National Protection 
and Programs Directorate (ranked 288 of 292), Transportation Security 
Administration (ranked 283 out of 292) and Immigration and Customs 
Enforcement (ranked 279 out of 292) ranked at the very bottom of 
subcomponents Government-wide. All of them had very low effective 
leadership scores, and most of them have experienced the churn in 
leadership discussed earlier in my testimony.
    We did see some bright spots, however. The Coast Guard is a 
consistently high performer in the Best Places rankings, and was ranked 
36 out of 292 subcomponents in 2012. Their scores for effective 
leadership were significantly higher than those for the Department 
overall, as were scores related to performance-based rewards and 
advancement, support for diversity, employee skills/mission match, 
teamwork, and work/life balance.
Results from 2013 FEVS
    Employee views have changed little in 2013. Based on a combination 
of OPM's publicly available data on DHS overall and preliminary 
findings from the Best Places to Work data, we anticipate that the 2013 
Best Places to Work rankings for DHS and its subcomponents will remain 
low. On questions in the Federal Employee Viewpoint Survey related to 
leadership, again the No. 1 driver of employee satisfaction and 
commitment across Government and at DHS, only 29.9 percent believe 
their leaders generate high levels of motivation and commitment in the 
workforce, down 6.7 points since 2011. Roughly 42 percent say they have 
a high level of respect for their organization's senior leaders, a 
significant drop from 49.5 percent 2 years ago.
    There are several additional areas that should be of concern to 
leaders at DHS. On key FEVS questions about innovation, communication, 
and merit promotion, not only are the scores very low, but they are 
trending downward over time. For example, only 26 percent of employees 
believe that creativity and innovation are rewarded, which has dropped 
6.2 percent since 2011. In addition, just 39.8 percent believe their 
managers promote communication among different work units (for example, 
about projects, goals, needed resources), down from 45.4 percent in 
2011. Only 21.6 percent of respondents believe promotions in their work 
unit are based on merit. This number has also declined from 26.4 
percent in 2011. Finally, when asked whether employees believe the 
results of the survey will be used to make their agency a better place 
to work, only 36 percent of respondents at DHS answered favorably. This 
number has dropped 9.2 percent in just 2 years and may be an indicator 
that their change efforts are not having success.
    A department where most people do not believe innovative work is 
rewarded, do not believe promotions are earned and do not believe 
current leaders inspire or motivate their people is an agency in 
trouble. It calls on Congress and the administration to devote greater 
attention to management of the Department and its workforce, and on 
choosing leaders who can lead organizational change and reverse this 
very troubling trend. A dramatic turnaround in employee satisfaction 
and engagement has been accomplished in other departments and agencies, 
and with the right leaders, it can be done in DHS.

 WHAT DHS CAN DO TO IMPROVE EMPLOYEE ENGAGEMENT--AND HOW CONGRESS CAN 
                                  HELP

    Clearly, DHS and its subcomponents are facing challenges in a 
number of areas. However, with sustained leadership commitment and 
support from Congress, we firmly believe it is possible for DHS to 
improve morale. The Partnership would like to offer four key 
recommendations:

1. Strengthen leadership capacity
  <bullet> Fill key vacancies.--The administration must make it a 
        priority to fill the leadership vacancies at DHS, and should 
        pay special attention to ensure incoming executives have 
        experience leading and managing people. In addition, Congress 
        could make it easier for agencies to fill positions by 
        converting certain political appointments to career positions 
        with fixed terms and performance contracts. This will ensure 
        there is greater continuity across administrations, promote 
        long-term solutions to chronic management problems, help retain 
        institutional knowledge and relieve some of the burden on the 
        complex and time-consuming political appointments process. The 
        under secretary for Management and CFO, for example, could be 
        converted to career positions with term appointments and 
        performance contracts.
  <bullet> Build a cohesive senior leadership team.--In order for the 
        agency to operate as ``One DHS,'' the next Secretary must make 
        it a priority to build a cohesive leadership team and bring 
        together political and career executives from across the 
        Department. This executive leadership team should have an 
        enterprise-wide view of the agency as well as broad leadership 
        and management skills. To help build cohesion among this 
        executive leadership team, executives could be oriented and 
        developed together and given opportunities for mobility 
        assignments.
  <bullet> Hold senior executives accountable.--We encourage DHS to 
        modify senior leader performance plans to ensure that senior 
        leaders are held accountable in their plans for improving 
        employee engagement. Efforts to improve engagement and 
        satisfaction might include reducing communication barriers, 
        building employee trust and confidence through open 
        communication, holding employee listening sessions, improving 
        internal communication and implementing ``quick-wins''. Several 
        agencies, including the U.S. Patent and Trademark Office, 
        Department of Transportation, and Nuclear Regulatory 
        Commission, have created incentives for senior leaders by 
        incorporating employee survey targets or goals in their 
        executive performance plans.\1\ Congress should consider 
        passing legislation requiring that all departments, including 
        DHS, hold their leaders accountable for addressing employee 
        satisfaction and engagement.
---------------------------------------------------------------------------
    \1\ Partnership for Public Service and Deloitte, Ten Years of the 
Best Places to Work in the Federal Government Rankings: How Six Federal 
Agencies Improved Employee Satisfaction and Commitment, September 2013, 
http://ourpublicservice.org/OPS/publications/
viewcontentdetails.php?id=231.
---------------------------------------------------------------------------
2. Invest in leadership training and development, especially in the 
        areas of workforce management
  <bullet> Provide continuous developmental opportunities.--DHS should 
        make leadership development a priority and invest in 
        cultivating the next generation of leaders. This is 
        particularly important given that 28 percent of career 
        executives at DHS are eligible to retire, and by 2017 that 
        number increases to 59 percent.\2\ Congress can support better 
        training and preparation for managers by authorizing 
        centralized funding and a statutory requirement for continuous 
        professional development. For example, Congress should mandate 
        training for all new supervisors and managers and ensure that 
        opportunities for further development, including mobility 
        assignments, are provided throughout their tenures, including 
        at the executive level. In addition, all leaders and 
        supervisors should receive training on the importance of 
        employee engagement and the link to agency performance.
---------------------------------------------------------------------------
    \2\ Office of Personnel Management analysis of the Central 
Personnel Data File, June 30, 2012.
---------------------------------------------------------------------------
Evaluate current efforts to improve morale and take necessary steps to 
        improve results
  <bullet> Measure progress.--While DHS has implemented efforts to 
        improve morale, the Federal employee viewpoint survey and Best 
        Places to Work rankings suggest efforts to date have not 
        resulted in the desired improvement. A comprehensive review of 
        current action plans, communication strategies, implementation 
        efforts, and impact within individual subcomponents should be 
        completed and adjustments made to focus on key areas of 
        opportunity most likely to produce significant change. DHS 
        should conduct regular ``pulse'' surveys of employees to track 
        the progress of the various action plans and initiatives and 
        ensure that employees are seeing and responding positively to 
        the Department's efforts.
  <bullet> Leverage best practices.--DHS should share internal success 
        stories with leaders at other subcomponents, where they have 
        occurred, and benchmark with other agencies that have higher 
        levels of employee satisfaction and commitment. The Partnership 
        recently published a set of case studies highlighting six 
        Federal agencies (Patent and Trademark Office, National 
        Aeronautics and Space Administration, Department of State, 
        Department of Transportation, the United States Mint, and the 
        Nuclear Regulatory Commission) that have successfully improved 
        employee satisfaction and engagement.\3\ Leaders at DHS should 
        consider inviting executives from these agencies to spend time 
        at DHS as a rotational assignment, with the goal of helping DHS 
        understand and implement similar initiatives. Conversely, DHS 
        should consider sending key executives on a rotation assignment 
        to these agencies to learn from their efforts and bring that 
        experience to bear in DHS.
---------------------------------------------------------------------------
    \3\ Partnership for Public Service and Deloitte, Ten Years of the 
Best Places to Work in the Federal Government Rankings: How Six Federal 
Agencies Improved Employee Satisfaction and Commitment, September 2013, 
http://ourpublicservice.org/OPS/publications/
viewcontentdetails.php?id=231.
---------------------------------------------------------------------------
4. Work in partnership with the labor unions to improve employee morale
  <bullet> Solicit feedback and enlist support.--The new Secretary 
        should reach out to the unions and solicit their support and 
        ideas to improve employee morale in the agency. Unions can 
        serve as a voice for employee views regarding survey results. 
        Fostering effective working relationships with unions can help 
        agency leaders better identify, understand, and respond to 
        employee perspectives.
                               conclusion
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you again for the opportunity to share the 
Partnership's views on the personnel challenges facing the Department 
of Homeland Security and our recommendations for the best way forward. 
We look forward to being of assistance to this committee and to 
Congress as you consider the future of the Department.

    Chairman McCaul. Thank you, Mr. Stier. Without objection, I 
would like to enter your report into the record.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is also 
available at http://bestplacestowork.org/BPTW/assets/
BestPlacestoWork13_CaseStudiesReport.pdf.
---------------------------------------------------------------------------
    Mr. Stier. Thank you so much.
    Chairman McCaul. Chairman now recognizes Ms. Kelley.

    STATEMENT OF COLLEEN M. KELLEY, NATIONAL PRESIDENT, THE 
               NATIONAL TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you very much, Chairman McCaul, 
Representative Clarke. I appreciate the opportunity to testify 
here today on the impact of leadership vacancies on DHS's 
mission as well as employee morale.
    As president of NTEU I have the honor of leading a union 
that represents over 24,000 DHS Customs and Border Protection 
officers, agriculture specialists, trade enforcement, and 
mission support specialists who are stationed at over 330 air, 
sea, and land ports of entry across the country. I have worked 
with all three DHS Secretaries since the agency stood up in 
2003, including Tom Ridge, and I know the importance of having 
leaders in place at agencies.
    The top job at DHS has been vacant for over 3 months, but 
the President has nominated a strong leader for this position 
and I look forward to working with Jeh Johnson after he is 
confirmed by the Senate.
    At CBP there has not been a Senate-confirmed commissioner 
since 2009. I have worked with all four of the people who have 
filled the commissioner position at CBP during this time, and 
the President, of course, has nominated a highly-qualified 
leader as CBP commissioner, and I look forward to working with 
Gil Kerlikowske after he, too, is confirmed by the Senate.
    Unfortunately, leadership vacancies have been on-going at 
DHS, but leadership vacancies are not the primary source of 
years of low morale at DHS and CBP. I talk to front-line port 
security workers every day and this is what they tell me: 
Congress' actions, including cutting their agencies' funding, 
eliminating jobs, freezing their pay, and attacking their 
benefits, are demoralizing them and making them question 
Congress' commitment to their mission.
    This is the real morale-killer, not just at DHS but 
Government-wide.
    The Federal workforce has endured a 3-year pay freeze. Many 
employees have also suffered days of unpaid furloughs due to 
sequestration. Because there has been virtually no hiring, 
workloads are increasing dramatically. Some DHS employees were 
forced to stay home from their jobs while many others were 
forced to work without getting paid on time because of a 
Government shutdown that did not need to happen.
    Every year since 2001, the Office of Personnel Management 
has administered the Federal Employee Viewpoint Survey that so 
many have talked about already, and this provides a snapshot of 
Federal employees' views on their work, on their agencies, and 
on their leaders. Since 2010, when the pay freeze first went 
into effect and Federal agency funding and workers' benefits 
came under attack, survey scores have dropped on every index, 
both at DHS and Government-wide.
    While there may be factors such as leadership vacancies 
affecting these results, certainly the $114 billion 
contribution Federal employees have made toward deficit 
reduction through a 3-year pay freeze and increased pension 
contributions leads the list. The stress associated with 
constant threats of Government shutdowns and unpaid furloughs 
are additional major factors contributing to low Federal 
employee morale.
    Congress is now considering a new budget deal that cuts $6 
billion in Federal retirement benefits for new Federal hires, 
and that would replace a portion of the sequester cuts. This 
will bring the total contribution by Federal employees to 
deficit reduction to $120 billion.
    Between delayed and reduced appropriations and the 
sequester, Government services are increasingly degraded. The 
cuts to CBP have already resulted in long wait times at 
airports and land border crossings. Wait times at the border 
cost the U.S. economy private-sector jobs, economic output, and 
tariff, user fee, and tax revenue.
    Shortly before sequestration took effect on March 1, NTEU 
surveyed our members about the impact of the pay freeze. In 
just 3 days, over 2,200 Federal employees answered our 
electronic survey.
    Our survey also asked how their agencies were responding to 
the current budget situation. Seventy-nine percent of them said 
their agencies were not replacing workers who leave; 67 percent 
said there was a hiring freeze at their agencies and they 
lacked the resources to do their jobs properly; and 48 percent 
said that critical work was not getting done.
    The Federal employees who I represent are frustrated, 
angry, and scared, and their morale is, indeed, low. They know 
current agency funding runs out on January 15 and they know 
another debt ceiling debate and the possibility of a Government 
default is coming in February.
    These employees work very hard and they care about their 
jobs. They know that budgets are tight but they also see the 
waste that comes from the lack of timely Congressional action. 
They see contingency planning for sequesters and shutdowns and 
short-term patch-up solutions that cost more in the long term. 
They are dedicated and they perform difficult jobs every day, 
despite hits to their pay from freezes, unpaid furloughs, and 
increased pension contributions.
    While there are many reasons that morale is low at DHS, 
Congress could greatly mitigate that problem by providing the 
agency with adequate and timely funding and providing its 
employees with competitive compensation and fair treatment.
    Thank you again, and I am happy to answer any questions 
that you have.
    [The prepared statement of Ms. Kelley follows:]

                Prepared Statement of Colleen M. Kelley
                           December 12, 2013

    Chairman McCaul, Democratic Member Thompson, distinguished Members 
of the committee; thank you for the opportunity to testify before you 
today on mission and morale issues at the Department of Homeland 
Security (DHS). As president of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 24,000 
DHS Customs and Border Protection (CBP) Officers and trade enforcement 
specialists in the Office of Field Operations (OFO) who are stationed 
at 331 land, sea, and air ports of entry (POEs) across the United 
States. CBP employees' mission is to protect the Nation's borders at 
the ports of entry from all threats while facilitating legitimate 
travel and trade. At POEs, CBP Officers arrested more than 7,700 people 
wanted for crimes, including murder, rape, assault, and robbery. CBP 
Officers also denied entry to nearly 145,000 people attempting to enter 
the United States through an air, land, or sea POEs who were found 
inadmissible for immigration, customs, health, criminal, or National 
security reasons.
    CBP trade compliance personnel enforce over 400 U.S. trade and 
tariff laws and regulations in order to ensure a fair and competitive 
trade environment pursuant to existing international agreements and 
treaties, as well as stemming the flow of illegal contraband such as 
child pornography, illegal arms, weapons of mass destruction, and 
laundered money. CBP is also a revenue collection agency, processing 
nearly $2.38 trillion in trade and 25 million cargo containers through 
the Nation's ports of entry in fiscal year 2012, up about 4 percent 
from the previous year. In addition, CBP Officers conducted nearly 
23,000 seizures of goods that violate intellectual property rights, 
with a total retail value of $1.2 billion, representing a 14 percent 
increase in value over fiscal year 2011.
    I have worked with all three DHS secretaries since the agency stood 
up in 2003 and know the importance of having leaders in place at 
agencies. The top spot at DHS has been vacant since September 1, but 
the President has nominated a strong leader for this position and I 
look forward to working with Jeh Johnson after he is confirmed by the 
Senate, hopefully, in the next few days. Leadership vacancies at DHS 
have been on-going, but are not the primary source of years of low 
morale ratings at DHS and other Federal agencies. As recently as March 
2012, I submitted testimony to the committee about issues that 
contribute to low morale at DHS. (See NTEU's March 22, 2012 testimony 
before the House Committee on Homeland Security Subcommittee on 
Oversight and Management Efficiency on ``Why is Employee Morale Low?'')
    Factors that contribute to low morale at DHS that I spoke to in 
previous testimony are echoed in the 2013 Office of Personnel 
Management (OPM) Federal Employee Viewpoint Survey (FEVS) released on 
November 8, 2013. The OPM survey shows a significant decline in 
employee satisfaction across Government--and this survey was completed 
before the 16-day Government shutdown that threw Federal workers' 
ability to pay their bills in a timely manner and support their 
families into turmoil.
    OPM survey results show that fewer than half believe they have 
sufficient resources to do their jobs and slightly more than half (53 
percent) expressed satisfaction with their pay. Less than two-thirds 
would recommend their organization as a good place to work.
    The first of these--insufficient resources and staffing--is a 
particular issue at CBP. A significant cause of low morale at CBP is 
the on-going staffing shortages at the ports of entry. Sufficient 
staffing should be provided to maintain expertise, ensure security, and 
promote trade and travel by reducing wait times at our Nation's air, 
sea, and land ports of entry.
    For years, NTEU has argued that CBP is understaffed, in both 
security and trade-related functions, at land, air, and sea ports of 
entry results in delays at the ports and in real losses to the U.S. 
economy. According to the U.S. Department of the Treasury, more than 50 
million Americans work for companies that engage in international trade 
and, according to a recent University of Southern California study, 
``The Impact on the Economy of Changes in Wait Times at the Ports of 
Entry'', dated April 4, 2013, for every 1,000 CBP Officers added, the 
United States can increase its gross domestic product by $2 billion. If 
Congress is serious about job creation, then Congress should support 
enhancing U.S. trade and travel by mitigating wait times at the ports 
and enhancing trade enforcement by increasing CBP security and 
commercial operations staffing at the air, sea, and land ports of 
entry.
    While both House and Senate fiscal year 2014 appropriations 
proposals would boost CBP Officer staffing--the House by 1,600 and the 
Senate by 1,850 CBP Officer new hires--the proposed increase is less 
than the number stipulated in CBP's 8/13/13 revised Workforce Staffing 
Model that shows fiscal year 2013 and fiscal year 2014 CBP Officer new 
hire need of 3,811. Because of the on-going budget stalemate, CBP 
Officer staffing increases included in both the House and Senate DHS 
appropriations bill are in jeopardy and the sequester cuts that went 
into effect on March 1, 2013 have further exacerbated staffing 
shortages at the ports of entry.

             IMPACT OF SEQUESTRATION ON CBP EMPLOYEE MORALE

    On April 12, 2013, I submitted testimony to the House Committee on 
Homeland Security Subcommittee on Oversight and Management Efficiency 
on the ``Impact of Sequestration.'' Under the Budget Control Act, 
sequestration required CBP to reduce its Salaries and Expenses (S&E) 
discretionary and mandatory account by $512 million.
    This number included a cut of $75 million in CBP user fee accounts. 
User fees will continue to be collected from industry to provide travel 
and trade security, immigration and agriculture inspection services, 
but CBP will be prohibited from using a portion of these user fees. 
User fees are not a tax, by law they pay for specific services provided 
by the Government. Sequestration limits the use of these collected fees 
to pay for CBP inspectional services.
    Under sequestration, the cut to the CBP S&E account included a 
reduction of $37.5 million for inspectional overtime at the POEs. 
Overtime is essential when staffing levels are insufficient to ensure 
that inspectional duties can be fulfilled, that CBP Officers have 
sufficient back-up and that wait times are mitigated. In CBP's own 
words, ``Overtime allows CBP Office of Field Operations to schedule its 
personnel to cover key shifts with a smaller total personnel number.''
    On March 26, the President signed a Continuing Resolution (CR) to 
fund the Government through the end of the fiscal year. The CR did not 
cancel the sequester. Congress did provide some additional funding for 
the CBP S&E account in the CR, but also required CBP to maintain the 
current CBP Officer staffing level.
    Prior to enactment of the CR, the CBP sequester plan required all 
CBP employees to be furloughed up to 14 days during the remainder of 
fiscal year 2013 or 1 day per pay period beginning early to mid-April 
through September 30, resulting in a 10% pay cut for all CBP employees. 
The initially-proposed furloughs would have exacerbated an already 
unsustainable shortage of CBP inspection and enforcement personnel at 
international air, sea, and land ports of entry.
    NTEU worked with CBP to find ways to avoid the initially-planned 14 
furlough days for front-line employees and promptly called on Congress 
to approve the agency's reprogramming plan once it was submitted. No 
employee should face the loss of nearly 3 weeks' pay--as would have 
been the case for CBP employees.
    As welcome as this development was, however, it deals only with 
fiscal 2013; sequestration, which is the underpinning for all manner of 
problems for Federal agencies, is scheduled to continue until 2021. 
Even with the decision not to furlough employees, CBP remains 
particularly hard-hit by the sequester. CBP had to continue a hiring 
freeze for non-front-line personnel and maintain limited reductions in 
overtime even as it recognizes the adverse impact these actions will 
have on its vital missions of helping secure our Nation's borders and 
facilitating vital trade.
    NTEU is continuing its efforts not only to secure an end to 
sequestration, but to ensure that CBP has sufficient resources to 
perform its jobs. Again, the on-going budget stand-off, however, has 
blocked enactment of a fiscal year 2014 DHS appropriations bill that 
includes funding to significantly increase the number of CBP Officers.
    According to the Partnership for Public Service's (PPS) December 
2012 Best Places to Work in the Federal Government ``Overall Index 
Scores for Employee Satisfaction and Commitment,'' DHS came in 31st out 
of the 33 large Federal agencies surveyed and CBP, ranked 145 of 228 
Federal agency subcomponents surveyed, and continues to rank near the 
bottom for strategic management, teamwork, effective leadership (all 
categories), support for diversity and family-friendly culture and 
benefits. It is my understanding that PPS is expected to release its 
latest Index Scores in the next few days.
    The 2013 OPM survey results also show a decline at DHS across the 
board in all four Human Capital Assessment and Accountability indices 
from 2008 through 2013 and the survey's four Employee Engagement Index 
trends from 2010 through 2013 (see FEVS Appendix E-1 through E-4 and 
Appendix F-1 through F-4.) Overall, DHS respondents reported an 11% 
decrease in Global Satisfaction Index Trends from 62% in 2010 to 51% in 
2013 (see FEVS Appendix G.) Global Satisfaction is a combination of 
employees' satisfaction with their job, their pay, and their 
organization, plus the willingness to recommend their organization as a 
good place to work.
    Even though these management deficiencies, as noted in the 2013 
FEVS and the PPS's 2012 report, do contribute to low morale among 
Federal workers, NTEU believes that Government-wide morale problems can 
be traced directly to the 3-year pay freeze, the continuing impact of 
sequestration and the furloughs it spawned, and the 16-day Government 
shutdown. While CBP employees continue to exhibit extraordinary 
commitment to the mission of the agency, it is clear that the failure 
of Congress to do its job and the resulting budget uncertainties are 
taking a serious toll on the Federal workforce.

   FEDERAL EMPLOYEES HAVE CONTRIBUTED DISPROPORTIONATELY TO DEFICIT 
                               REDUCTION

    Since 2010, Federal employees have contributed $114 billion to 
deficit reduction and economic recovery--an amount far greater than any 
other group in our society has been asked to sacrifice for these 
efforts (see attachment.) They include:
  <bullet> A 3-year pay freeze, at a cost to Federal workers of $99 
        billion;
  <bullet> Higher pension contributions from new Federal hires, at a 
        cost to them of $15 billion;
  <bullet> Unpaid furlough days for hundreds of thousands of Federal 
        workers due to sequestration;
  <bullet> An unnecessary 16-day Government shutdown, resulting in 
        delayed paychecks that forced thousands of Federal employees to 
        take hardship withdrawals from their Federal Thrift Savings 
        Plan (TSP) accounts. A hardship withdrawal means an account 
        holder cannot make any TSP contributions for 6 months--during 
        which time they also lose the Government match;
  <bullet> Agencies straining to meet their missions while short-
        staffed and underfunded, resulting in significantly higher 
        employee workloads, greater pressure, and more stress and 
        anxiety.
    Despite these sacrifices by Federal workers, press reports of the 
looming budget deal indicate that Congress is contemplating further 
cuts to Federal employee compensation. A budget conference committee is 
considering giving agencies some relief from sequestration. According 
to some reports, cuts to Federal and postal employees could account for 
between 25 and 50 percent of the entire amount of spending cuts under 
consideration to replace sequestration. One proposal involves hiking 
Federal employees' share of their pension contributions by 1.2 
percentage points over 3 years.
    This is unconscionable. Like Social Security, Federal and other 
employer-sponsored pensions are earned benefits, not gifts or handouts. 
They are part of a compensation package, often explicitly negotiated 
for in exchange for reduced current pay. Requiring employees to pay 
more for the same benefits, like furlough days, is another pay cut for 
the Federal worker.
    These proposed cuts to Federal employee pay and benefits are 
particularly galling in light of the recent announcement that, pursuant 
to statute, the Office of Management and Budget has increased the 
reimbursement cap for Federal contractors for the salaries of their top 
executives by 24%--from $763,029 to $952,308. This statute does not set 
limits on the yearly salary paid to these executives by their company--
just sets the cap on taxpayer reimbursement for their salary. 
Contractors can, and do, provide compensation to their employees that 
exceed the amount that is reimbursed by the Federal Government. This 
cap does not apply to all employees of these contractors, so taxpayers 
could pay some contract employees an unlimited amount in salary 
reimbursement.
    Not only is this amount more than double what the President makes, 
but this 24% executive pay hike makes a mockery of the 1% pay raise 
that Federal workers are scheduled to get next year after a 3-year 
freeze on their basic pay rates. The effect on rank-and-file Federal 
employee morale of this Federal contract executive pay hike is 
incalculable. This is just one factor that is contributing to 
undermining employee morale throughout the Federal work force.
    Federal workers have endured the effect of sequester--in furlough 
days, deferred training, elimination of performance awards, and other 
cuts this past year--that has greatly contributed to low employee 
morale. As a new year dawns, the sequester is likely to continue to 
severely limit the American people's access to Government services. At 
CBP, multi-day furloughs that were averted due to one-time budget 
restructuring in 2013 may be necessary. Already, CBP employees have 
been notified of additional sequester-related cuts that management will 
be imposing in the next few weeks such as a huge reduction in funding 
for the Foreign Language Awards Program (FLAP).
    FLAP provides employees who speak and use foreign language skills 
on the job with a cash award if they use the language for at least 10 
percent of their duties and have passed the competence test. FLAP is 
fully funded by customs user fees and Congress made FLAP funding a 
priority because not only do language barriers delay processing of 
trade and travel at the ports, for these law enforcement officers, 
communication breakdowns can be dangerous. Confusion arises when a non-
English speaking person does not understand the commands of a law 
enforcement officer. These situations can escalate quite rapidly if 
that person keeps moving forward or does not take their hands out of 
their pockets when requested. Now FLAP is proposed to be all but 
eliminated because of on-going budget cuts.
    As noted in my testimony, filling leadership vacancies at DHS is a 
contributing factor to low employee morale at DHS. A key nomination at 
CBP--that of CBP commissioner--is currently pending before the Senate 
Finance Committee. I look forward to working with Gil Kerlikowske, upon 
his confirmation as the next CBP commissioner, to resolve workplace 
issues and address employee morale.
    But Congress is responsible for much larger problems that have 
served to undermine employee morale. For too long, CBP at the POEs has 
been underfunded and understaffed. After more than 2 years of constant 
attacks on Federal employees--pay and benefit cuts, furloughs, and a 
shutdown--it is time for the voices of front-line workers to be heard 
and for Congress to treat them and all Federal workers with the dignity 
and respect they earn and deserve.
    The more than 24,000 CBP employees represented by the NTEU are 
capable and committed to the varied missions of DHS from border control 
to the facilitation of legitimate trade and travel. They are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs, and our economy safe from illegal trade. 
These men and women need more resources and technology to perform their 
jobs better and more efficiently and are deserving of fair pay and 
benefits. They have not been receiving either. Those are the main 
reasons their morale is low.
    Thank you for the opportunity to testify before the committee on 
their behalf. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman McCaul. Thank you, Ms. Kelley, and certainly I 
served in the Justice Department for over a decade as a career 
prosecutor, so I appreciate your testimony.
    I just want to start out--we heard from Secretary Ridge 
some powerful testimony, and again, I think if you look at a--
the CEO of a business, if 40 percent of his top leadership was 
vacant that sends, I think, the wrong message to any 
organization.
    Now, I understand some of these appointments--held up in 
the Senate, may be part of the problem. The fact is, this has 
been going on for years, and I am not quite sure I understand 
why.
    Usually President political appointees are a bit of a plum 
assignment that they like to reward people with, and yet when 
you have--whether it is the Secretary, the deputy secretary, 
the director of ICE, the director of--commissioner of CBP, all 
these vacancies, and acting I.G. who is now under investigation 
who is investigating the deputy secretary nominee who is under 
investigation by the I.G., it is--it does present a problem.
    I guess, Mr. Maurer, you have looked at this sort of, you 
know, auditing from the outside in, and I do think that impacts 
morale when you don't have effective leadership at the top. I 
think it depends, you know, who the leader is at the top.
    I know when Secretary Ridge came in there was a lot of 
pride in being with the Department. I know in the military 
there is a lot of pride in being in the military, and certainly 
when I was a Federal prosecutor I was proud to say I worked for 
the Justice Department.
    I want the Department to get there, but I don't think they 
are there right now, and I think this lack of leadership at the 
top and vacancies and vacuums is not helping. Do you have any 
idea why these positions have not been filled or--and why these 
acting positions have been around for so long?
    Mr. Maurer. You know, we haven't looked at that specific 
issue. It is a great question and I also share your concern 
about the number of acting positions at such a senior level in 
the Department.
    I think one of the challenges that the Department would 
face in trying to implement some of the substantive changes it 
would need to address its fundamental morale problems is that 
when you are in an acting capacity at such a senior level it is 
different--difficult to change the direction of the ship, 
right? You are there in largely a caretaker capacity, so when--
you need to have someone in a confirmed, final, approved 
position to be able to move things in a different direction, 
and that is something we think is fundamentally important for 
DHS to do to take on its morale issues.
    I think on a more broad level, there definitely are some 
areas where DHS needs to improve on leadership, you know, and 
last year's survey scores, it is very concerning that only 
about 30 percent of the DHS workforce feel motivated by their 
leadership and only 31 percent are satisfied with their 
leaders. That is at all levels of the organization.
    DHS is taking action to try to address this, but clearly 
they have a long way to go in terms of improving how the rank-
and-file view their leadership, and that is whether that is 
someone who is in a confirmed position or someone who is in an 
acting----
    Chairman McCaul. You know, the captain of the ship is the 
face of the organization, and for whatever reason I think it 
has suffered in recent years, and when I--when people say, 
``You are the Chairman of Homeland Security,'' and they send 
a--refer to DHS in a negative context I remind them who we are 
talking about: Do you know that is Customs and Border Patrol? 
Do you know that is ICE? Do you know that is Secret Service? Do 
you know that is the Coast Guard?
    Then then they start to think, ``Well, okay, maybe I should 
see it in a different light.''
    I think, Mr. Stier, you mentioned an interesting point, and 
that is something we have been looking at for a while, and that 
is the Department of Defense is not perfect, but I think it is 
a model that DHS should be looking at. I have talked to Under 
Secretary Borras about this issue, and what do you see as the 
advantages of applying that DOD model, and certainly in a 
management style, to the Department of Homeland Security?
    Mr. Stier. So I think, again, under secretary--excuse me-- 
Under Secretary Borras has done a really terrific job and I 
hope he stays. Again, that is one of the reasons why I think 
having someone in a career or term appointment to have 
longevity would be really critical.
    But I think the Defense Department offers a lot of positive 
role model opportunities--not perfect in all respects, but in 
some, and in particular, in the way they view their talent. 
They view their talent as an asset rather than as a cost, and 
they understand that if they invest in their people and grow 
them that that means that they are going to have, you know, 
higher return in terms of achieving their mission.
    So something along the lines of leadership, they have a 
very concerted investment in their folks to make sure that they 
are getting the skills that they need to be able to achieve 
more and more for the public. That means, again, a long-term 
view of them. There are individuals, there are people inside 
DOD that manage, in effect, the careers of their leadership 
that identify top talent, make sure that they have 
opportunities to work in multiple contexts.
    There is a joint duty requirement at DOD, which I think is 
really quite important. If you want to create One DHS, ensuring 
that people have experience across the whole organization is a 
way of achieving that, and I think, frankly, vital with respect 
to the senior leadership.
    If I could, just on the Employee Viewpoint Survey data 
itself, I think it really is quite stunning when you look at 
the numbers. So if you look across the board it says, ``In my 
organization leaders generate high levels of motivation and 
commitment in the workforce,'' and only a little over a quarter 
of the Federal employees at DHS say yes to that--27.4 percent. 
Then, you know, ``I have a high level of respect for my 
organization's senior leaders,'' there it is only 38.5 percent.
    Even more damning, 80 percent of the DHS employees say 
promotions are not based on merit. Then equally important, 80 
percent of the management say promotions are based on merit. So 
you have a perspective from the line employee quite a bit 
different from those that are managing them.
    So I think these numbers are very powerful and indicate 
that, you know, a serious effort and investment needs to be 
made to change these things.
    Chairman McCaul. Well, it is disturbing. It is the third-
largest department in the Federal Government, and yet the 
employees within the organization don't--I won't say believe in 
it, but they have a low morale.
    Mr. Stier. They believe in their mission; they don't 
believe they are being well-managed.
    Chairman McCaul. I think, again, that is where Secretary 
Ridge talked about the team. The team being in place at the top 
is so important.
    I hope that this new nominee, Jeh Johnson, because he is 
closer to the President, will have his ear and will be seen 
more with the President of the United States. I think part of 
the problem--and I had respect for Secretary Napolitano, but I 
always get the sense, as Peter King mentions, that she was sort 
of distanced from the White House. She wasn't a part of 
important operations like the bin Laden--the hunt for bin 
Laden, for instance.
    I don't think that would have happened with Bush and 
Secretary Ridge. So I think that does impact the morale.
    One final question: You mentioned this idea of, you know--
if you are acting you aren't official, right, so you are a 
caretaker, and so the idea that maybe some of these political 
appointees positions, we could actually put permanent career 
slots in some of those positions. I think management, possibly, 
I think, some of the, like, maybe under I&A, some of the more 
sensitive National security type positions would maybe make 
more sense to do that. Then you would have more longevity and 
continuity with the organization.
    What do you think about that?
    Mr. Stier. I think that would be a terrific idea. There are 
4,000 political appointees. You don't need 4,000 to make sure 
the Government responds to the electoral wishes that are 
represented by the President, and certainly not in the 
management positions.
    I would say that probably the most significant challenge on 
the Executive branch to good management is the rapid velocity 
of turnover leadership. So again, there are two choices here. 
You can try to accelerate the process of getting the political 
appointees in, and that is useful; or you can reduce the number 
of Senate-confirmed political appointees.
    We know this has worked already. There was legislation that 
got 169 positions moved from Senate confirmation just to 
political appointees, including the assistant secretaries for 
Management in a number of departments.
    There is no diminution of the quality of the work that is 
being done but these people are getting in place a lot faster 
so you have, as you said, that leadership team there.
    So I think it would be, you know, a very good idea to look 
at DHS and say, ``Where do we really need political folk? Where 
might we use career people? Where might we adopt a term 
appointment?'' The FBI director is a good example of that, 
where, again, there is a longer runway that you know you have 
somebody. To ensure, again, that you have got the people in 
place who need to be focusing, you know, on the management of 
the organization.
    Chairman McCaul. That is an interesting idea. Do you know 
if the Department of Defense--compare and contrast DOD versus 
DHS in terms of political appointees and percentages.
    Mr. Stier. Oh, there is no question there are more at DHS 
than at DOD. Obviously it is a different model with the armed 
services, but there are clearly more political appointees at 
DHS, and some of the best for organizations. You have fewer 
political appointees that are responsive to the President but 
they understand--the political appointees understand that they 
can't get their job done without actually engaging the career 
workforce.
    When you get too many political appointees there is a sense 
that you can recreate a command-and-control structure with 
those new folks coming in. It doesn't work.
    Chairman McCaul. I think particularly within what is 
considered to be a National security----
    Mr. Stier. Absolutely.
    Chairman McCaul [continuing]. Department.
    Mr. Stier. Absolutely.
    Chairman McCaul. Just final thoughts for Mr. Maurer. How do 
we fix this? I know there is no silver bullet here, but----
    Mr. Maurer. You are right, there is no silver bullet. A 
good start would be to implement our recommendations from our 
report from last year, which was to go in depth--the Department 
should look in depth, not just at the Department level but dig 
into the individual components to figure out what is behind 
these low morale scores.
    Like I mentioned in my opening statement, those are just 
symptoms. They need to figure out what are the root causes and 
then take actions to address those causes.
    In a related vein, make sure that they have measures and 
accountability from the very top to ensure those actions are 
being taken. I mean, that is a key part of this, as well, is 
that, you know, the most senior leadership of the Department 
needs to hold component heads and organization heads within 
components accountable for addressing this important problem.
    Chairman McCaul. Well, to all three of you, if you have any 
legislative ideas for this committee we are very open and 
receptive to those ideas.
    With that, Chairman now recognizes the Ranking Member, Ms. 
Clarke.
    Ms. Clarke. Thank you, Mr. Chairman.
    I want to thank our panelists for bringing their knowledge 
to bear on this subject matter, as well.
    Ms. Kelley, your organization represents over 24,000 
Department employees, almost all of whom were affected by this 
year's 16-day shutdown, sequestration, and agency-wide budget 
cuts. How have these occurrences affected morale, and what 
should the Department do to maintain employee satisfaction when 
situations such as these, which are out of its control, affect 
its employees?
    Ms. Kelley. Well, I would say every employee at CBP was 
negatively affected by sequestration, by the shutdown. In 
Homeland Security it was a little different than most other 
agencies during the shutdown in that most of those employees 
were ordered to work without pay until the shutdown was over.
    But one of the things that was talked about earlier by many 
today is the belief in the mission of the agency. So these 
employees do what they do and they do an outstanding job in 
spite of their low morale. We are pretty lucky as a country 
that they do that, they just so believe in the mission.
    There are surely things within CBP at the local workplace 
issues, and that are really very far away from the leadership 
issues being discussed here. They are more, rather than at the 
20,000-foot level, it is down here on the ground. Those are 
things that NTEU works with CBP and with its structure of 
leaders.
    But they are limited in what they can do because they don't 
have the funds to do what they need to do. Under the sequester 
their overtime was cut. That resulted in the long lines I 
talked about in my testimony. If you don't have the people, if 
you don't have the staffing, you need to keep the ports open to 
keep the trade moving to keep the border safe, then you have to 
order employees to work overtime and then they cut the overtime 
money.
    So it has been very frustrating because they don't feel 
like that they have the resources to be able to do the jobs 
that they are trying to do for our country. So we work nonstop 
and tirelessly with CBP and will continue to do that, but what 
they really need are the funding to be enacted by Congress to 
recognize what it is that they are trying to do and then to 
ensure that they have the funding to do it for our country.
    Ms. Clarke. It is my understanding that we are almost 
cutting off our nose to spite our face, particularly with CBP, 
which is actually a revenue-generating--or could be a revenue-
generating part of DHS. Can you speak more to that piece?
    It is my understanding that when you are understaffed the 
types of customs that could be exacted somehow get lost in the 
shuffle. Can you talk a bit more to----
    Ms. Kelley. There are user fees that are generated by CBP 
based on the work that they do, both by visiting travelers as 
well as on the trade side. When the work has to be compressed, 
when there aren't enough staff to make sure that they are doing 
a 100 percent quality job, that will suffer.
    You are absolutely right that CBP is a revenue-generator 
for our country. They are second only to the IRS in the revenue 
that they bring in that actually funds the rest of the Federal 
Government.
    Part of the sequester cuts was to eliminate CBP's access to 
$75 million of the fees that they collect, and those user fees 
are supposed to be used to fund the programs that they are 
directly attached to. So under the sequester they had their 
overtime cut and they had limitations and restrictions put on 
the user fees that they could collect as well as use, which 
is--makes no sense at all for all the obvious reasons.
    Ms. Clarke. A true example of cutting off your nose to 
spite your face.
    Ms. Kelley, the Majority has contended that senior-level 
vacancies have impacted employee morale. Your organization 
represents Department employees that have been without a 
permanent commissioner for quite some time.
    What would you attribute this vacancy--would you attribute 
this vacancy as a major source of lower morale? If not, what 
would you cite as the primary sources of employee satisfaction 
issues?
    Ms. Kelley. I am sure that some days on some issues maybe 
it is a factor. I think there are a lot of factors, as we have 
all said, in the low employee morale.
    However, I travel a lot around the country and I meet with 
front-line employees at every port of entry--airport, seaport, 
land border crossings. I have never once had an employee say to 
me, ``I wish we had a confirmed Secretary,'' or, ``Why don't we 
have a confirmed commissioner?''
    What they do say to me is, ``Why won't Congress provide me 
with a fair and appropriate pay raise instead of a freeze? Why 
won't Congress provide my agency with the funding we need to be 
able to do the important work we are trying to do for our 
country? Why won't Congress keep their hands off our pension 
and let us do our work and be bound by the agreement we had 
when we started our employment as to what our pension 
contributions would be and what our benefits would be?''
    That is what employees say to me. I have never had one 
person say to me, you know, ``When will we have a confirmed 
commissioner?'' or, ``I wish we did.''
    Ms. Clarke. There just seems to be some disconnect with 
respect to this subject matter. I mean, I understand the 
fundamentals of an organizational structure and what it means 
to have the full team in place, but there are just some basic 
things that are happening simultaneously or in tandem with this 
vacancy issue that we are seeming to just sort of skim over, 
which is what is actually happening on the ground with the 
employee and what we are doing, at the same time, as a 
legislative body that has made their lives more challenging, 
given the fact that they don't have the leadership that we 
desire of them to have.
    So, Mr. Maurer, you have had the unique opportunity to not 
only investigate and audit DHS's management challenges, but you 
are also employed by one of the highest-ranking agencies in the 
Federal Government as it relates to workplace satisfaction. 
Given your knowledge of the Department's management procedures 
and inner workings, including its success stories and 
shortfalls, what steps would you recommend the Department's 
management directorate take to improve the agency's overall 
scores?
    Mr. Maurer. Sure, absolutely. I am proud to say that I work 
for the GAO. We were No. 2 last year, and new scores will come 
out next week, so looking to beat out FDIC but we will see.
    But in terms of what we can do to help out DHS, I mean, 
first and foremost, obviously we are very different 
organizations, but I think there are some common themes that 
might be of use. First and foremost is, like GAO, DHS employees 
are devoted to the mission, and you can build from that 
strength.
    So I think if DHS is going to get traction on the morale 
issue that is one starting point that is a very strongly-held 
view among many of their employees. They believe fervently in 
the mission, despite a number of the challenges they may face 
in their day-to-day work.
    A second common issue--I think this is really important--is 
communication--the ability from those at the very top of the 
organization to clearly articulate priorities all the way down 
the organization chart, and at the same time, hear ideas and 
suggestions and concerns from the very bottom of the org chart 
and bring those up. That kind of flow of information, I think, 
is one of the strengths that we have at GAO, which helps enable 
us to get good scores, and I think it is something that DHS 
could do a better job of.
    There is also the importance of sort of tying in the 
overall goals of the organization and working across 
organizational boundaries to get a sense of this ``One DHS.'' 
That is something the Department has really been struggling 
with for many, many years since it was created. It is one of 
the reasons why they are on our high-risk list for management 
is that there is not this integrated sense of unity yet at the 
Department.
    Anything that they can do to sort of bridge some of those 
organizational boundaries would be useful. There has been talk 
of, you know, trying to rotate senior executives from one 
component to another, having training that covers multiple 
components--anything along those lines that would allow the 
rank-and-file at DHS to have a better understanding of where 
they fit within the broader context of the Department I think 
would be helpful.
    Ms. Clarke. Mr. Chairman, I know my time has run out. I 
have one question for Mr. Stier.
    Mr. Stier, as you mentioned in your testimony, you called a 
7.5-point percentage change a significant drop. In 2007 the 
Department's overall index score was 49.8, whereas in 2010 it 
was 58.6 and in 2011 it was 56.6, and 8.8 and 6.8 increase, 
respectively.
    Although it ranked lowest in these surveys, based on your 
assertion regarding score percentages, this appears to be 
significant increases. What internal changes did the Department 
implement under Secretary Napolitano's administration that 
caused the significant rises in scores?
    Mr. Stier. So the scores themselves since 2010 have 
actually gone down consistently, and the 2010 scores are 
actually collected, in essence, you know, 8, 9 months before-
hand. So the reality is that what you have seen were increases 
in total, the Secretary Napolitano arrived and then, frankly--
and this is true Government-wide--you saw decreases.
    There are multiple reasons, I believe, that that is the 
case, some of them that are general to the whole environment 
that Federal workers are having to work in, and Colleen 
mentioned a number of those things, from the 3-year pay freeze. 
I think, frankly, the budget reductions and sequestration are 
equally important because in essence you are telling people who 
are mission-driven, ``You are not going to have the 
resources,'' or even more importantly, ``You have no certainty 
about what those resources are.''
    So the lack of a budget, the lack of knowing exactly what 
is going to happen is incredibly debilitating. Then frankly, 
nothing worse than the furloughs.
    The numbers we have today don't even capture the damage 
that was done to our Government from the shutdown. So there is 
more bad stuff to come.
    All that said, DHS has done worse than the average across 
Government, and I think the right benchmark is to look at the 
average, and there are some agencies that have done, actually, 
affirmatively better--absolutely better, like NASA, and there 
are real lessons to be learned.
    So I think there are a lot of things that are not happening 
at DHS that ought to happen, and I think David described a 
number of them that are really important. I believe, and I 
think that the data we have shows a very strong correlation 
between, again, views of leadership and what employees think 
about the organization. That, to me, is the place where you can 
make the most significant change.
    As an example that I think is really quite critical, the 
information-sharing across Government is problematic.
    Benchmarking against the private sector, there is a 15.2-
point gap--15.2-point gap on the question, ``How satisfied are 
you with the information your receive from management on what 
is going on in your organization?'' So I think what you see, 
again, are employees that don't know what their budgets are, 
they are not getting critical information from their management 
about how to operate within this incredible challenging 
environment.
    In a world in which things are more challenging you, in 
fact, need to empower those employees even more, and that is 
not happening right now.
    So if you ask me, the focus should be on the leadership 
development, growth, making sure that they have a commitment at 
both the political and career leadership to this building it 
into their performance evaluations. You see that at the 
Department of Transportation, Department of Treasury, and that 
results in people paying attention to it in a much more 
significant way.
    Ms. Clarke. I thank you all for your testimony.
    I yield back, Mr. Chairman.
    Chairman McCaul. Thank you.
    I just have one kind of closing comment. I remember when I 
worked at, you know, at main Justice and then U.S. attorney, we 
had--that was called the Attorney Generals Award Program, and 
we would have a ceremony at the Great Hall and the attorney 
general would be there, and he would, one by one, deliver, you 
know, it is a certificate but it is a big deal. It is a sign of 
appreciation for your work.
    Usually tied with that was a bonus to some extent. May not 
have been as much as I wanted, but it was a bonus.
    I know that Secretary Ridge had started a similar program 
to that but that it has been discontinued, for whatever reason. 
Do you think that that would be something that would be helpful 
towards the morale of DHS employees?
    I guess I will ask that question of all three of you.
    Mr. Maurer. I think any kind of--anything that you put into 
place that allows senior leadership to recognize the good, 
hard, dedicated work of the rank-and-file within the Department 
would be something that would be welcomed and is a good idea.
    Chairman McCaul. Mr. Stier.
    Mr. Stier. You mentioned the big gap on information that 
employees are not getting. The biggest gap that we have been 
able to benchmark against the private sector is on the 
question, ``How satisfied are you with the recognition you 
receive for doing a good job?'' There is a 21.4-point gap 
between a reasonable private sector benchmark and all of 
Government.
    So my answer is: Absolutely. Recognition really matters. It 
is something that we do really poorly in Government.
    There is a lot of investment in finding what is wrong and 
not a lot of investment in finding what is right, and I don't 
think you get any organization to perform at its best if all 
you do is find things that are wrong. You have got to build on 
the bright spots.
    So we need a lot more of that. I am a former DOJ employee, 
too, and that is one of the things I think they do real well 
there.
    Chairman McCaul. I agree with that.
    Ms. Kelley.
    Ms. Kelley. I think recognition of any kind is important, 
of course, to--just as a human being, you appreciate being 
recognized and appreciated for what you do. What I tend to see 
is that a lot of the recognition kind-of events that you 
described, Mr. Chairman, are done for very high-level employees 
rather than those on the front line, and so I think that that 
would be well-received.
    Now, I will put a caveat with that, is that you talked 
about the bonus, even though it might not have been the size 
that you wanted. The award systems that are in place in Customs 
and Border Protection, for example, are also important to 
employees.
    Right now, as I sit here, CBP is proposing to tear in half 
the current award system that we have for front-line employees 
and to eliminate a foreign language incentive program for these 
front-line CBP officers who use their foreign language skills 
every day to facilitate visitors coming in and out of the 
country and trade. They have always been--by statute, they have 
always been recognized for that.
    There is even a set of these user fees that are supposed to 
be used to fund FLAP, and I actually have a team right now in 
another office sitting across from CBP telling us--with CBP 
telling us they want to take the FLAP incentive to zero. They 
want to pay not one dime for these employees to use these 
skills that this country needs and depends on every day.
    So to your general question, I think any kind of 
recognition, of course, is appreciated for a job well done. But 
I think at the--when it is being--if that were to happen and 
they take away--they rip the awards in half and take away FLAP, 
then no, the recognition really would not mean very much.
    Chairman McCaul. Well, I think that is something this 
committee should be looking into and something I look forward 
to talking to the nominee once he is confirmed. Honestly, you 
know, when I go on a Coast Guard cutter or go down to the 
border and talk with CBP, and even as we go through the 
airports with TSA, which that has got to be one of the toughest 
jobs, and talk about, you know, having to deal with people that 
are angry and that is a very, very tough job. I always go up 
and always just say, ``Thank you for the job you are doing,'' 
because, you know, hopefully that means something to them.
    I want to take, actually, this opportunity at this hearing 
to all DHS employees out there who may be watching this. As the 
Chairman on this committee, and I know the Ranking Member--
thank you for your service, for what you do. We believe in your 
mission. I know they do, as well, and we want to continue to 
move forward to fix this and to help improve morale.
    I hope that the Ranking Member will work with me, as well, 
to possibly establish an appreciation awards program from this 
committee to members--employees of the Department, as well.
    So with that, let me just thank all three witnesses for 
being here. I know it has gone way into the lunch hour. I 
appreciate your patience.
    This hearing is now adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

           Question From Honorable Jeff Duncan for Tom Ridge

    Question. From the failures of the Obamacare website to the 
revelations about the operations at the National Security Agency, 
Americans are increasingly losing confidence in their Government. DHS 
also plays a role in this. During a July hearing in the Oversight and 
Management Efficiency Subcommittee that I chair, we discussed how TSA 
routinely breaks its trust with the public with screeners that nap, 
steal, and are disrespectful. We also examined this as it relates to 
how DHS responds to Americans' concerns in a June hearing. One of the 
witnesses testified that high levels of public distrust hamper the 
Government from operating effectively. One of the issues contributing 
to this distrust is a lack of transparency. We saw this in DHS's 
silence on its ammunition purchases, ICE detainee releases, and civil 
liberties issues at the border. As I look around at the number of 
acting senior leadership positions, I think the lack of permanent 
leadership has certainly contributed to the Department's lack of 
transparency and communication issues with the American people. 
However, that's not to say that officials nominated by this 
administration would improve transparency and communication.
    In the aftermath of 9/11 and creation of DHS, you commanded great 
respect from the American people. Could you share your insights on how 
DHS might improve its transparency and communication and as a result 
restore some of the trust that's been lost in recent years?
    Answer. Representative Duncan, I appreciate you continuing this 
important dialogue. As I stated at the outset of my testimony, our 
Nation faces a complex and challenging threat environment, one that 
requires a great deal of leadership. Our Federal Government agencies, 
including DHS, cannot function properly, and to their full level of 
potential without strong and consistent leadership.
    Capable leaders manage and hold others accountable. This translates 
to a more efficient, transparent, and respected agency.
    It is incumbent upon the administration to vet and then nominate 
leaders of the utmost quality in a timely manner. Congress should, 
likewise, act in a timely manner when it comes to confirming nominees. 
That is not to say that Congress should not seriously exercise its 
advice and consent responsibilities. But for National and homeland 
security positions, the process should be prioritized and consideration 
given with attention commensurate to the importance of the leadership 
roles at issue.
    Consistent and qualified leadership is a key first step in 
restoring morale at DHS. The confirmation of Secretary Jeh Johnson was 
certainly an important first step to restoring accountability. 
Remaining vacant or temporarily-filled positions should be a top 
priority for Secretary Johnson, the President and his administration, 
and Congress. This includes such high-level positions as the director 
of U.S. Immigration and Customs Enforcement (acting), the under 
secretary of the Office of Intelligence and Analysis (vacant), among 
others.
    I particularly note that DHS has been without a permanent inspector 
general for more than 2 years. I simply cannot understand why a role 
with such great importance to agency accountability across its 
verticals and all levels of its leadership has not been filled.
    At the end of the day, consistent leadership is critical to the DHS 
mission. A sense of urgency and accountability as well as pride in the 
accomplishments of DHS employees must come from the top down. It is 
essential in restoring the trust that the American people have in DHS.
        Questions From Honorable Jeff Duncan for David C. Maurer
    Question 1. In the Oversight Subcommittee's June hearing on DHS 
communications, Douglas Pinkham, the president of the Public Affairs 
Council testified that one of the best practices for leading companies 
is to focus on employee communications. In his written testimony he 
stated, `` . . . leading companies have come to realize that their own 
employees are often the most important audience.'' As a former small 
business owner in South Carolina, I know first-hand the importance of 
employee buy-in for successful businesses and organizations. In the 
Partnership for Public Service's analysis of the Federal Employee 
Viewpoint Survey, DHS has consistently ranked below 50% in Effective 
Leadership, which can likely be in part attributed to poor 
communication between DHS leadership and DHS rank-and-file employees. 
For example, earlier this year, TSA lifted the rule to allow small 
knives onto airplanes, although the AFGE National President stated 
``Transportation Security Officers and flight attendants stand together 
against this dangerous new rule.'' With TSA's 2012 Effective Leadership 
score around 40%, it does not seem that employees' concerns are often 
taken into account. Do you believe DHS leadership is effective in 
``employee buy-in''?
    What impact does this have on effectively implementing DHS's 
mission?
    Answer. Results of the U.S. Office of Personnel Management's (OPM) 
Federal Employee Viewpoint Survey (FEVS)--a tool that measures 
employees' perceptions of whether and to what extent conditions 
characterizing successful organizations are present in their agency--
indicate that there is wide-spread support for DHS's mission among 
Department employees.\1\ In particular, the 2013 FEVS DHS agency 
management report indicated that 88 percent of DHS employees believe 
that the work they do is important, and 80 percent of DHS employees 
like the work they do.\2\ Our prior work has indicated that DHS 
employees' shared support for the Department's mission may positively 
affect employee morale. In particular, in September 2012, we reported 
that Coast Guard civilian officials who participated in a focus group 
we held described a Coast Guard culture of mission focus that has led 
to high morale among civilian Coast Guard employees and employees 
feeling satisfied with their jobs.\3\
---------------------------------------------------------------------------
    \1\ We have previously validated, analyzed data from, and reported 
on the results of the FEVS. See GAO, Department of Homeland Security: 
DHS's Efforts to Improve Employee Morale and Fill Senior Leadership 
Vacancies, GAO-14-228T (Washington, DC: Dec. 12, 2013); GAO, Department 
of Homeland Security: Taking Further Action to Better Determine Causes 
of Morale Problems Would Assist in Targeting Action Plans, GAO-12-940 
(Washington, DC: Sept. 28, 2012); and GAO, Department of Homeland 
Security: Preliminary Observations on DHS's Efforts to Improve Employee 
Morale, GAO-12-509T (Washington, DC: March 22, 2012).
    \2\ OPM, 2013 Federal Employee Viewpoint Survey Results, Employees 
Influencing Change, Department of Homeland Security, Agency Management 
Report. (Washington, DC). FEVS agency management reports are intended 
to enable agency leaders to identify strengths and challenges by 
looking for patterns and themes in FEVS results for their respective 
agencies.
    \3\ GAO-12-940.
---------------------------------------------------------------------------
    In spite of DHS employee commitment to the DHS mission, DHS FEVS 
responses continue to indicate that DHS employees are less satisfied 
with their jobs than the Government-wide average of Federal employees, 
particularly with respect to their involvement or empowerment. For 
example, as we reported in December 2013, DHS ranked 36th of the 37 
agencies that participated in the 2013 FEVS on the Leadership and 
Knowledge Management Index, which indicates the extent to which 
employees hold their leadership in high regard, both overall and on 
specific facets of leadership. DHS also ranked second-to-last in the 
2013 FEVS Job Satisfaction Index, which indicates the extent to which 
employees are satisfied with their jobs and various aspects thereof.\4\ 
In addition, with respect to employee involvement and empowerment, 
DHS's scores ranked in the bottom 10th percentile for agencies it was 
benchmarked against according to the 2013 FEVS DHS agency management 
report.\5\ More specifically, 39 percent of DHS employees provided a 
positive response when asked how satisfied they were with their 
involvement in decisions that affect their work, the lowest percentage 
across benchmark agencies. In regard to employee empowerment, DHS 
ranked in the bottom 10th percentile, wherein 33 percent of DHS 
employees provided a positive response when asked if they have a 
feeling of personal empowerment with respect to work processes.
---------------------------------------------------------------------------
    \4\ GAO-14-228T.
    \5\ OPM, 2013 Federal Employee Viewpoint Survey Results, Employees 
Influencing Change, Department of Homeland Security, Agency Management 
Report. (Washington, DC). In this report, OPM benchmarked DHS against 
agencies with 800 or more employees.
---------------------------------------------------------------------------
    We have reported that successful organizations empower and involve 
their employees to gain insights about operations from a front-line 
perspective, increase their understanding and acceptance of 
organizational goals and objectives, and improve motivation and 
morale.\6\ We have also reported that a lack of trust in leadership can 
lead to morale problems.\7\ In December 2013, we reported on a recent 
analysis DHS officials performed of 2012 FEVS results that indicated 
DHS low morale issues may persist because of employee concerns about 
senior leadership and supervisors, among other things, such as whether 
employee talents are being well-used.\8\ While we have not assessed the 
impact of DHS employee satisfaction on the implementation of DHS's 
mission, we have previously reported that, given the critical nature of 
DHS's mission to protect the security and economy of our Nation, it is 
important that DHS employees are satisfied with their jobs so that DHS 
can retain and attract the talent required to complete its work.\9\
---------------------------------------------------------------------------
    \6\ GAO, High-Risk Series: Strategic Human Capital Management, GAO-
03-120 (Washington, DC: January 2003).
    \7\ GAO, Small Business Administration: Opportunities Exist to 
Build on Leadership's Efforts to Improve Agency Performance and 
Employee Morale, GAO-08-995 (Washington, DC: Sept. 24, 2008).
    \8\ DHS, Federal Employee Viewpoint Survey (FEVS): Action Informed 
by Research; and GAO-14-228T.
    \9\ See GAO-14-228T and GAO-12-940.
---------------------------------------------------------------------------
    Question 2. What steps can be taken to improve employee engagement 
aside from more working groups, steering committees, etc.?
    Answer. DHS could strengthen its efforts to address the 
Department's low employee morale, including low employee engagement, by 
implementing GAO's prior recommendations. In March 2012, DHS's Chief 
Human Capital Officer testified that DHS was employing a three-pronged 
strategy to improve employee morale consisting of: (1) Mandating that 
component heads prioritize employee engagement; (2) supporting a 
unified, One DHS through improved employee communication, training, 
emphasis on diversity and inclusion, and employee recognition; and (3) 
strengthening the leadership and capacity of all supervisors and 
employees.\10\ In spite of these efforts, DHS morale has since 
declined, indicating that much work in this area remains. In 
particular, we reported in December 2013 that FEVS data show that DHS 
employee job satisfaction declined 7 percentage points from 2011 
through 2013, a decrease that is more than the Government-wide decrease 
of 4 percentage points over the same time period. As a result, the gap 
between average DHS job satisfaction and the Government-wide average 
widened to 7 percentage points.\11\ In addition, the 2012 and 2013 FEVS 
results indicate that employee engagement has decreased slightly since 
March 2012. Specifically, DHS's positive response score on the Employee 
Engagement Index, which assess the critical conditions conducive for 
employee engagement, decreased from 58 percent in 2012 (7 percentage 
points below the Government-wide average) to 56 percent in 2013 (8 
percentage points below the Government-wide average).
---------------------------------------------------------------------------
    \10\ Catherine V. Emerson, Chief Human Capital Officer, DHS, 
Building One DHS: Why is Employee Morale Low?, testimony before the 
House Committee on Homeland Security, Subcommittee on Oversight, 
Investigations, and Management, 112th Cong., 2nd sess., March 22, 2012.
    \11\ GAO-14-228T.
---------------------------------------------------------------------------
    DHS can better position itself to improve employee morale by 
implementing our two prior recommendations focused on strengthening 
root cause analysis and metrics of success. Specifically, in September 
2012, we recommended that DHS's Office of the Chief Human Capital 
Officer and component human capital officials strengthen their 
evaluation and planning process for addressing employee morale by: (1) 
Examining their root cause analysis efforts and, where absent, adding 
comparisons of demographic groups, benchmarking against similar 
organizations, and linking root cause findings to action plans; and (2) 
establishing metrics of success within their action plans for improving 
employees' positive scores that are clear and measurable.\12\
---------------------------------------------------------------------------
    \12\ DHS's Office of the Chief Human Capital Officer and component 
root cause analysis efforts consisted of holding focus groups, 
implementing an exit survey, and routinely analyzing FEVS results, 
among other things. See GAO-12-940.
---------------------------------------------------------------------------
    As we concluded in March 2012, the variation in potential issues 
that can result in morale problems underscores the importance of 
looking beyond survey scores to understand where problems, such as low 
job satisfaction, are taking place within the organization, along with 
the root causes of those problems.\13\ Further, in September 2012, we 
concluded that without these elements DHS risks not being able to 
address the underlying concerns of its varied employee population.\14\
---------------------------------------------------------------------------
    \13\ GAO-12-509T.
    \14\ GAO-12-940.
---------------------------------------------------------------------------
    In December 2013, we reported that DHS senior officials stated that 
the Department planned to launch employee surveys to probe perspectives 
on Departmental leadership.\15\ According to these officials, the 
surveys are to inform the Department's root cause analysis. Engaging 
directly with employees as planned through surveys could help DHS 
better ascertain the root causes of morale issues, although it is too 
early to assess its impact. In addition, based on our prior work 
focusing on DHS morale issues, component-level demographic group 
comparisons could help DHS by providing clear indicators of which 
employee groups have greater morale-related concerns than others. This 
information could then allow component leadership to target solutions 
toward employee groups most affected by morale problems. Furthermore, 
benchmarking against similar organizations could help DHS by providing 
a point of reference for improvements. For example, benchmarking could 
help DHS components learn how similar organizations have effectively 
improved their morale scores.
---------------------------------------------------------------------------
    \15\ GAO-14-228T.
---------------------------------------------------------------------------
           Questions From Honorable Jeff Duncan for Max Stier

    Question 1. In the Oversight Subcommittee's June hearing on DHS 
communications, Doulas Pinkham, the president of the Public Affairs 
Council testified that one of the best practices for leading companies 
is to focus on employee communications. In his written testimony he 
stated, `` . . . leading companies have come to realize that their own 
employees are often the most important audience.'' As a former small 
business owner in South Carolina, I know first-hand the importance of 
employee buy-in for successful businesses and organizations. In the 
Partnership for Public Service's analysis of the Federal Employee 
Viewpoint Survey, DHS has consistently ranked below 50% in Effective 
Leadership, which can likely be in part attributed to poor 
communication between DHS leadership and DHS rank-and-file employees. 
For example, earlier this year, TSA lifted the rule to allow small 
knives onto airplanes, although the AFGE National President stated 
``Transportation Security Officers and flight attendants stand together 
against this dangerous new rule.'' With TSA's 2012 Effective Leadership 
score around 40%, it does not seem that employees concerns are often 
taken into account. Do you believe DHS Leadership is effective in 
``employee buy-in?''
    What impact does this have on effectively implementing DHS's 
mission?
    Answer. Response was not received at the time of publication.
    Question 2. What steps can be taken to improve employee engagement 
aside from more working groups, steering committees, etc.?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
